<html>
<title> - H.R. 3970, GREEN CHEMISTRY RESEARCH AND DEVELOPMENT ACT OF 2004</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                       H.R. 3970, GREEN CHEMISTRY
                  RESEARCH AND DEVELOPMENT ACT OF 2004

=======================================================================

                                HEARING

                               BEFORE THE

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 17, 2004

                               __________

                           Serial No. 108-47

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science



                    U.S. GOVERNMENT PRINTING OFFICE
92-512                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001
                                 ______

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
KEN CALVERT, California              NICK LAMPSON, Texas
NICK SMITH, Michigan                 JOHN B. LARSON, Connecticut
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
VERNON J. EHLERS, Michigan           DAVID WU, Oregon
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California
GEORGE R. NETHERCUTT, JR.,           BRAD MILLER, North Carolina
    Washington                       LINCOLN DAVIS, Tennessee
FRANK D. LUCAS, Oklahoma             SHEILA JACKSON LEE, Texas
JUDY BIGGERT, Illinois               ZOE LOFGREN, California
WAYNE T. GILCHREST, Maryland         BRAD SHERMAN, California
W. TODD AKIN, Missouri               BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         DENNIS MOORE, Kansas
MELISSA A. HART, Pennsylvania        ANTHONY D. WEINER, New York
J. RANDY FORBES, Virginia            JIM MATHESON, Utah
PHIL GINGREY, Georgia                DENNIS A. CARDOZA, California
ROB BISHOP, Utah                     VACANCY
MICHAEL C. BURGESS, Texas            VACANCY
JO BONNER, Alabama                   VACANCY
TOM FEENEY, Florida
RANDY NEUGEBAUER, Texas
VACANCY


                            C O N T E N T S

                             March 17, 2004

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Sherwood L. Boehlert, Chairman, 
  Committee on Science, U.S. House of Representatives............    13
    Written Statement............................................    14

Statement by Representative Phil Gingrey, Member, Committee on 
  Science, U.S. House of Representatives.........................    14
    Written Statement............................................    15

Statement by Representative Bart Gordon, Ranking Minority Member, 
  Committee on Science, U.S. House of Representatives............    16

Statement by Representative Eddie Bernice Johnson, Member, 
  Committee on Science, U.S. House of Representatives............    16
    Written Statement............................................    17

Prepared Statement by Representative Nick Smith, Member, 
  Committee on Science, U.S. House of Representatives............    18

Prepared Statement by Representative Jerry F. Costello, Member, 
  Committee on Science, U.S. House of Representatives............    18

Prepared Statement by Representative Sheila Jackson Lee, Member, 
  Committee on Science, U.S. House of Representatives............    19

                               Witnesses:

Dr. Arden L. Bement, Jr., Acting Director, National Science 
  Foundation
    Oral Statement...............................................    20
    Written Statement............................................    22
    Biography....................................................    23

Dr. Paul Gilman, Assistant Administrator for Research and 
  Development, Environmental Protection Agency
    Oral Statement...............................................    24
    Written Statement............................................    26
    Biography....................................................    43

Dr. Berkeley W. Cue, Jr., Vice President of Pharmaceutical 
  Sciences, Pfizer Global Research and Development
    Oral Statement...............................................    43
    Written Statement............................................    46
    Biography....................................................    57
    Financial Disclosure.........................................    58

Mr. Steven Bradfield, Vice President of Environmental 
  Development, Shaw Industries, Inc.
    Oral Statement...............................................    59
    Written Statement............................................    62
    Biography....................................................    65
    Financial Disclosure.........................................    66

Dr. Edward J. Woodhouse, Associate Professor of Political 
  Science, Department of Science & Technology Studies, Rensselaer 
  Polytechnic Institute
    Oral Statement...............................................    67
    Written Statement............................................    69
    Financial Disclosure.........................................    93

Discussion.......................................................    94

              Appendix: Additional Material for the Record

H.R. 3970, Green Chemistry Research and Development Act of 2004..   104

Statement by Arden Bement on the National Institute of Standards 
  and Technology's Green Chemistry Activities....................   111

Additional testimony submitted by Dr. J. Michael Fitzpatrick, 
  President and Chief Operating Officer, Rohm and Hass Company...   113

Statement in support of H.R. 3970 by Dr. J. Michael Fitzpatrick, 
  President and Chief Operating Officer, Rohm and Haas Company...   120

Statement in support of H.R. 3970 by Genencor International, Inc.   121

Statement in support of H.R. 3970 by the American Chemical 
  Society........................................................   122

Statement by the American Chemistry Council......................   124

 
    H.R. 3970, GREEN CHEMISTRY RESEARCH AND DEVELOPMENT ACT OF 2004

                              ----------                              


                       WEDNESDAY, MARCH 17, 2004

                  House of Representatives,
                                      Committee on Science,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:00 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Sherwood L. 
Boehlert [Chairman of the Committee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                       H.R. 3970, Green Chemistry

                  Research and Development Act of 2004

                       wednesday, march 17, 2004
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

1. Purpose

    On Wednesday, March 17, 2004 the House Science Committee will hold 
a hearing to examine federal and industry green chemistry research and 
development (R&D) activities, and to receive testimony on H.R. 3970, 
the Green Chemistry Research and Development Act of 2004. This bill 
would authorize a federal green chemistry R&D program.

2. Witnesses

Dr. Arden Bement is the Acting Director of the National Science 
Foundation (NSF) while continuing in his position as the Director of 
the National Institute of Standards and Technology (NIST).

Dr. Paul Gilman is the Assistant Administrator for Research and 
Development at the Environmental Protection Agency (EPA). He also 
serves as the Agency's Science Advisor.

Dr. Berkeley Cue is Vice President of Pharmaceutical Sciences at Pfizer 
Global Research and Development. Pfizer, Inc. has established green 
chemistry teams at its facilities throughout the world, and won a 2002 
Presidential Green Chemistry Challenge Award for the redesign of the 
sertraline manufacture process. Sertraline is the active ingredient in 
Zoloft, which is used widely in the U.S. to treat depression. The new 
process improves worker and environmental safety, reduces energy and 
water use, and doubles overall product yield.

Mr. Steven Bradfield is Vice President of Environmental Development at 
Shaw Industries. Shaw Industries won a 2003 Presidential Green 
Chemistry Challenge Award for the development of EcoWorxTM carpet tile. 
EcoWorxTM carpet tiles are made from low toxicity feedstocks and are 
recyclable.

Dr. Edward Woodhouse is Associate Professor of Political Science in the 
Department of Science & Technology Studies at Rensselaer Polytechnic 
Institute. Dr. Woodhouse studies the social aspects of technological 
decision-making.

3. Overarching Questions

        <bullet>  How has--and how can--effective application of green 
        chemistry products and processes contributed to environmental 
        protection and sustainability? What are the costs associated 
        with using green chemistry products and processes?

        <bullet>  How has private industry benefited from, and 
        contributed to, green chemistry breakthroughs? To what extent 
        has private industry used green chemistry products and 
        processes? What are the primary barriers to increased 
        development and adoption of green chemistry products and 
        processes, and how can these barriers be removed?

        <bullet>  What is the current status of the Federal 
        Government's efforts in green chemistry R&D? Are expanded 
        federal efforts and increased federal coordination in green 
        chemistry warranted?

        <bullet>  Does H.R. 3970 establish a program that will result 
        in greater R&D breakthroughs and increased adoption of green 
        chemistry? How can the legislation be improved?

4. Brief Overview

        <bullet>  Green chemistry is the design of chemical products 
        and processes that reduce or eliminate the use or generation of 
        hazardous substances. Green chemistry is a form of pollution 
        prevention--preventing pollution rather than treating 
        emissions.

        <bullet>  A number of success stories have generated a great 
        deal of excitement about the significant potential of green 
        chemistry for environmental and economic benefit. 
        Implementation of green chemistry at a Dow Chemical plant aimed 
        at increasing efficiency and instituting more recycling is 
        showing a 174 percent annual return on a one-time investment. 
        However, even this highly touted example has not been repeated 
        and adoption of green chemistry products and processes by 
        industry has been limited. Barriers to greater adoption include 
        a workforce unfamiliar with green chemistry, a lack of existing 
        and demonstrated alternatives, the sometimes high capital costs 
        of changing processes, a lack of regulatory drivers, and 
        inertia.

        <bullet>  Federal support for green chemistry R&D has also been 
        limited. The most notable effort is the joint-NSF/EPA 
        Technology for a Sustainable Environment (TSE) program. The 
        program, which includes, but is not limited to, green chemistry 
        activities, awarded $11 million in R&D grants in fiscal years 
        2002-03. Other agencies such as the Department of Energy (DOE) 
        and NIST also provide support for green chemistry.

        <bullet>  EPA also administers the Presidential Green Chemistry 
        Challenge Awards Program to recognize advances in and to 
        promote green chemistry. Since 1996, this program has made 40 
        awards to businesses and academics that develop technologies 
        that incorporate the principles of green chemistry and that 
        have or can be used by industry. Both Pfizer, Inc. and Shaw 
        Industries have recently won this award.

        <bullet>  On March 16, 2004 Representative Phil Gingrey 
        introduced H.R. 3970, the Green Chemistry Research and 
        Development Act of 2004. This legislation would establish an 
        Interagency Working Group to coordinate federal green chemistry 
        R&D activities and facilitate adoption of green chemistry by 
        the private sector. The bill would authorize funding for these 
        activities (from within existing authorizations) at NSF, EPA, 
        NIST, and DOE through fiscal year 2007.

5. Background

What is green chemistry?
    Green chemistry is most commonly defined as chemistry and chemical 
engineering that involves the design of chemical products and processes 
that reduce or eliminate the use or generation of hazardous substances. 
It is sometimes characterized as ``benign by design'' to emphasize that 
it is green intentionally. Also known as sustainable chemistry, benign 
chemistry, or source reduction, green chemistry seeks to prevent the 
creation of hazards, instead of focusing on limiting the spread of 
pollutants or cleaning up waste. Its practices are encapsulated in 
twelve generally accepted guiding principles (Appendix I) that can be 
used by chemists to develop processes and assess how green a process 
is.
    Examples of green chemistry include the development of pesticide 
alternatives that are effective at killing target organisms, but are 
benign to non-target organisms and do not persist in the environment. 
Another example is the use of the benign solvent supercritical carbon 
dioxide in dry cleaning processes instead of toxic perchloroethylene.
    Pfizer and Shaw Industries provide good examples of the potential 
of green chemistry. Pfizer won a 2002 Presidential Green Chemistry 
Challenge Award for the redesign of the sertraline manufacture process. 
Sertraline is the active ingredient in Zoloft, which is used widely in 
the U.S. to treat depression. By applying green chemistry principles, 
Pfizer was able to eliminate 140 metric tons per year of titanium 
tetrachloride, 100 metric tons per year of sodium hydroxide, 150 metric 
tons per year of hydrochloric acid, and 440 metric tons per year of 
solid titanium oxide. These changes improve worker and environmental 
safety, reduce energy and water use, and double overall product yield. 
Shaw Industries won a 2003 Presidential Green Chemistry Challenge Award 
for the development of EcoWorxTM carpet tile. Historically, carpet tile 
backings have been manufactured using polyvinyl chloride (PVC). PVC is 
made from toxic feedstocks and its combustion results in toxic 
byproducts such as dioxin and hydrochloric acid. EcoWorxTM carpet tiles 
are made from low toxicity feedstocks and are recyclable.
What are the benefits of green chemistry?
    Besides the inherent advantages to human health and the 
environment, green chemistry can offer economic advantages and 
improvements to worker safety, public safety, and national security.
    Many in the private sector have recognized the potential savings 
that green chemistry offers. For example, by using benign chemical 
processes, businesses can avoid the costs associated with treating or 
cleaning up pollutants. Other savings can come from simply making more 
efficient use of raw materials (sometimes referred to as ``atom 
economy'') and energy. Dow Chemical Company's Midland, Michigan 
facility is an example of the level of savings a company can achieve. 
In 1996 Dow partnered with the Natural Resources Defense Council to 
conduct a thorough review of the facility's processes to identify ways 
to implement more recycling and substitute benign materials for 
hazardous ones. By April 1999, after a one-time investment of $3.1 
million, the facility had reduced emissions of targeted substances by 
43 percent and the amount of targeted wastes by 37 percent primarily 
through green chemistry innovations. The improvements are saving Dow 
$5.4 million per year, a 174 percent annual return on investment.\1\ 
However, even though these benefits are clear, this process has not 
been repeated widely by industry and not even by Dow itself. There are 
many barriers to adoption of green chemistry that are discussed later. 
In this case, one barrier was that even though the return on investment 
was good, Dow had other investment opportunities that offered even 
greater returns.
---------------------------------------------------------------------------
    \1\ Amato, Ivan, Fortune, New York: July 24, 2000, Vol. 142, Issue 
3, pg. 270U.
---------------------------------------------------------------------------
    Many other inherent advantages come from green chemistry in the 
areas of worker safety, public safety, and national security. For 
example, many chemical processes are conducted at extreme temperature 
and/or pressure, two conditions that present a potential hazard for 
workers. Also, many processes involve toxic substances. Green chemistry 
seeks to design processes that can be conducted at or near room 
temperature and pressure, and that use benign substances. Both of these 
steps can improve working conditions for employees, and reduce the 
costs of liability protections for employers.
    Chemical factories also pose a potential threat to public safety 
because of the possibility of an accidental release of toxic materials 
into the surrounding communities. Green chemistry seeks to replace 
these toxic substances with benign ones, which would not pose a threat 
to the public if accidentally released. Reducing the number of toxic 
chemical plants and the transport of toxic chemicals also improves 
national security by reducing the number of potential terrorist 
targets.
What barriers exist to greater adoption of green chemistry?
    Despite the numerous potential advantages of green chemistry for 
the chemical manufacturing industry, adoption of green chemistry 
technologies has been limited. Significant impediments exist that 
discourage businesses from pursuing such alternatives. These include:

        <bullet>  A workforce unfamiliar with green chemistry--The 
        existing chemical manufacturing workforce is mainly composed of 
        chemists and chemical engineers that have little or no training 
        in green chemistry techniques. Even today, most graduate 
        chemistry curricula give little attention to green chemistry. 
        Without appropriate personnel trained in green chemistry, a 
        company may not know, or be able, to search for and implement 
        green chemistry alternatives to their chemical processes.

        <bullet>  Lack of existing green chemistry alternatives--Green 
        chemistry alternatives have not yet been designed for most of 
        the chemical processes in use today. Developing a green 
        chemistry alternative might be prohibitively expensive and time 
        consuming, especially for companies that do not have extensive 
        R&D programs and when time to market is critical.

        <bullet>  Lack of demonstrated green chemistry alternatives--
        Even for the green chemistry alternatives that do exist, many 
        of them have not been proven in an industrial setting. Few 
        companies are willing to take the risk of being the first to 
        implement a new and unproven technology.

        <bullet>  Costs of up-front capital investment--U.S. companies 
        have invested heavily in existing infrastructure. Switching to 
        green chemistry processes might require this infrastructure to 
        be extensively retooled, which could make adopting green 
        chemistry technologies initially very expensive. Even though 
        the process may be economical when costs are computed over the 
        full life cycle, many companies may be unwilling to pay the 
        high up-front costs. This is one reason why there is more green 
        chemistry adoption in manufacturing sectors that turn over 
        their processes more frequently.

        <bullet>  Lack of regulatory drivers--Few governmental 
        incentives exist for adoption of green chemistry. Most 
        environmental regulations sanction polluters, while few reward 
        pollution prevention. The government could make adoption of 
        green chemistry more attractive by extending the patent life of 
        green products or accelerating the approval of products that 
        pose minimal hazard.

        <bullet>  Inertia--Perhaps the most important impediment to 
        adopting green chemistry technologies is inertia within 
        industry. For a company that already complies with all existing 
        environmental regulations, there is little impetus to seek out 
        and implement alternative processes. Additionally, few 
        companies offer incentives to employees that improve 
        environmental performance. This lack of motivation often means 
        that only those companies that have made environmental 
        sustainability a priority use green chemistry processes.

    H.R. 3970 is designed to overcome some of these impediments. The 
bill would support undergraduate and graduate education in green 
chemistry. This should help create a new generation of chemists and 
engineers who are familiar with green chemistry and its advantages, and 
can bring those skills to bear in the workplace.
    The coordinated R&D program would support R&D and demonstration 
projects at universities, industry and federal labs, and make the 
results of these activities readily available through a green chemistry 
database of accomplishments and best practices. This R&D would develop 
and demonstrate more green chemistry alternatives that will be 
available for implementation by industry.
What is the Federal Government currently doing?
    The Federal Government supports activities related to green 
chemistry through agencies including NSF, EPA, DOE and NIST. In some 
cases, as with EPA, these activities are focused directly on green 
chemistry. In other cases, such as with DOE, these activities are 
byproducts of efforts to achieve other goals, such as improving energy 
efficiency. Because some green chemistry investments are direct and 
some are indirect, and because green chemistry is not broken out in 
agency budgets, it is difficult to determine the exact federal 
investment in green chemistry.
    However, it is clear that the investment in green chemistry and 
chemical engineering is small as compared to the investment in 
chemistry and chemical engineering as a whole. In 2000, the four 
agencies mentioned above spent approximately $540 million on chemistry 
and chemical engineering R&D; investment in green chemistry R&D was 
probably close to $40 million. In addition, green chemistry activities 
are not coordinated among the agencies.
    Following is a table that indicates, in general, agency budgets for 
green chemistry and chemical engineering activities. The table is 
followed by descriptions of how this money is spent.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    EPA conducts two general types of activities in green chemistry. 
EPA conducts and supports R&D through the Office of Research and 
Development; and EPA conducts outreach and promotion through the Office 
of Pollution Prevention and Toxic Substances (OPPTS).
    In FY04, EPA will spend approximately $5 million on direct green 
chemistry and chemical engineering R&D. The money comes out of a larger 
spending category, called Pollution Prevention. Approximately half of 
this money is spent on internal R&D, conducted at EPA's lab in 
Cincinnati. The lab focuses on developing cross-cutting tools for 
industry such as benign solvent design software. The other half of this 
money funds external R&D, through the Science to Achieve Results (STAR) 
program. As part of this program, EPA and NSF have developed a 
partnership, the Technologies for a Sustainable Environment (TSE) 
program, which primarily funds green chemistry and chemical engineering 
R&D.
    The TSE program is the external R&D program most focused on green 
chemistry in the Federal Government. The partnership between EPA and 
NSF has been hailed as a model of cooperation. EPA and NSF put out a 
joint request for proposals, and then award grants based on their own 
mission. NSF funds more basic green chemistry R&D, while EPA funds more 
applied R&D aimed at mission oriented problems. TSE was initiated in 
1995 and has awarded 204 grants totaling just over $56 million since 
then. In the FY05 budget, the Administration has proposed to cut EPA's 
funding for this program entirely.
    EPA conducts outreach and promotes green chemistry (funded at 
approximately $2 million in FY04) through OPPTS. OPPTS administers the 
Presidential Green Chemistry Challenge Award Program. This award, first 
awarded in 1996 and given annually, recognizes achievements in green 
chemistry. Appendix II includes a number of examples of green chemistry 
achievements that have been recognized by this program. In FY05, the 
Administration proposes to increase funding for pollution prevention in 
OPPTS by $5 million. A portion of this funding will be used for green 
chemistry activities, including expanding the focus of the awards 
program to address existing and emerging chemical priorities.
    Outside of the TSE collaboration with EPA, NSF does not put out 
specific solicitations for green chemistry R&D, but funds a wide range 
of investigator-driven green chemistry R&D. While NSF does not have a 
specific line item in the budget for green chemistry activities, NSF 
estimates that in FY04 it will spend approximately $10.8 million on 
green chemistry activities in the chemistry division and $13 million on 
green chemistry activities in the chemical transport systems division. 
However, it is difficult to determine the exact level of investment 
because much of this funding may be used for ``multi purpose'' 
fundamental research that has implications for green chemistry and 
other research areas. It is not the intent of the Green Chemistry 
Research and Development Act to decrease NSF's investment in green 
chemistry R&D; instead the bill seeks to focus more NSF funding 
specifically on R&D that is intended to advance green chemistry.
    DOE does not track spending on green chemistry activities, and does 
not conduct activities that it specifically identifies as green 
chemistry. However, DOE conducts R&D that has many green chemistry 
applications. DOE's fundamental research efforts in chemistry are 
focused on attaining an atomic and molecular level understanding of 
processes involved in the generation, storage, and use of energy.
    NIST has R&D programs that are yielding green chemistry results. 
NIST's mission is to develop and promote measurements, standards, and 
technology to enhance productivity and improve the quality of life. 
Much of the R&D conducted within this mission has green chemistry 
applications. For example, the Chemical Science and Technology 
Laboratory produces more accurate measurement methods and standards to 
enable the development and implementation of green technologies and 
assess its impact.
    While the agencies above conduct a number of green chemistry-
related R&D, these efforts are small when compared to their overall 
R&D, and even the chemistry and chemical engineering R&D budgets for 
these agencies. In addition, the efforts are not coordinated and are 
not strategic in nature.

6. Summary of H.R. 3970

    The Green Chemistry Research and Development Act would authorize an 
interagency green chemistry R&D program. NSF and EPA would lead an 
Interagency Working Group to coordinate federal green chemistry 
activities. The Working Group would also include DOE and NIST, as well 
as any other agency the President designates. The program would be 
authorized at $26 million in FY05 rising to $30 million in FY07 (from 
within existing authorizations). See Appendix III for a break down of 
funding by agency.
    The Program would support R&D grants, including grants for 
university-industry partnerships, support green chemistry R&D at 
federal labs, promote education through curricula development and 
fellowships, and collect and disseminate information about green 
chemistry. A complete section-by-section analysis of the legislation is 
provided in Appendix III.

7. Questions for the Witnesses

Questions for Dr. Bement

        <bullet>  Please describe the National Science Foundation's 
        (NSF's) current activities in green chemistry. How much does 
        NSF spend on green chemistry research? Through which NSF 
        programs? How much emphasis is placed on basic research versus 
        applied research and development?

        <bullet>  To what extent does NSF coordinate and collaborate 
        with other federal agencies in green chemistry research and 
        development?

        <bullet>  What are NSF's views on H.R. 3970, the Green 
        Chemistry Research and Development Act of 2004? How could the 
        bill be improved?
Questions for Dr. Gilman

        <bullet>  Please describe the Environmental Protection Agency's 
        (EPA's) current activities in green chemistry. How much does 
        EPA spend on green chemistry research? How much of this 
        research is conducted intramurally versus extramurally? How 
        much emphasis is placed on basic research versus applied 
        research and development?

        <bullet>  To what extent does EPA coordinate and collaborate 
        with other federal agencies in green chemistry research and 
        development?

        <bullet>  What are EPA's views on H.R. 3970, the Green 
        Chemistry Research and Development Act of 2004? How could the 
        bill be improved?
Questions for Dr. Cue

        <bullet>  Please describe Pfizer, Inc.'s green chemistry 
        activities. Have past investments in green chemistry paid off 
        for Pfizer, Inc.? What environmental and human health benefits 
        have resulted from Pfizer, Inc.'s green chemistry activities?

        <bullet>  What impediments exist that deter companies from 
        pursuing green chemistry solutions? What more can the Federal 
        Government do to encourage adoption of green chemistry products 
        and processes?

        <bullet>  What are your views on H.R. 3970, the Green Chemistry 
        Research and Development Act of 2004? How could the bill be 
        improved?
Questions for Mr. Bradfield

        <bullet>  Please describe Shaw Industries, Inc.'s green 
        chemistry activities. Have past investments in green chemistry 
        paid off for Shaw Industries, Inc.? What environmental and 
        human health benefits have resulted from Shaw Industries, 
        Inc.'s green chemistry activities?

        <bullet>  What impediments exist that deter companies from 
        pursuing green chemistry solutions? What more can the Federal 
        Government do to encourage adoption of green chemistry products 
        and processes?

        <bullet>  What are your views on H.R.3970, the Green Chemistry 
        Research and Development Act of 2004? How could the bill be 
        improved?
Questions for Dr. Woodhouse

        <bullet>  What is the potential of green chemistry products and 
        processes to contribute to environmental protection and 
        sustainability?

        <bullet>  What are some of the reasons that chemists have for 
        so long relied on ``brown chemistry''? What are the barriers to 
        more rapid development and adoption of green chemistry 
        alternatives?

        <bullet>  What should the Federal Government do to accelerate 
        development and adoption of green chemistry products and 
        processes?

        <bullet>  What are your views on H.R.3970, the Green Chemistry 
        Research and Development Act of 2004? How could the bill be 
        improved?

Appendix I

                Twelve Principles of Green Chemistry\2\
---------------------------------------------------------------------------

    \2\ Anastas, P.T., Warner, J.C. Green Chemistry: Theory and 
Practice; Oxford University Press; New York, 1998, pg. 30.

         1.  It is better to prevent waste than to treat or clean up 
---------------------------------------------------------------------------
        waste after it is formed.

         2.  Synthetic methods should be designed to maximize the 
        incorporation of all materials used in the process into the 
        final product.

         3.  Wherever practicable, synthetic methodologies should be 
        designed to use and generate substances that possess little or 
        no toxicity to human health and the environment.

         4.  Chemical products should be designed to preserve efficacy 
        of function while reducing toxicity.

         5.  The use of auxiliary substances (e.g., solvents, 
        separation agents, etc.) should be made unnecessary wherever 
        possible and innocuous when used.

         6.  Energy requirements should be recognized for their 
        environmental and economic impacts and should be minimized. 
        Synthetic methods should be conducted at ambient temperature 
        and pressure.

         7.  A raw material of feedstock should be renewable rather 
        than depleting wherever technically and economically 
        practicable.

         8.  Unnecessary derivatization (blocking group, protection/
        deprotection, temporary modification of physical/chemical 
        processes) should be avoided whenever possible.

         9.  Catalytic reagents (as selective as possible) are superior 
        to stoichiometric reagents.

        10.  Chemical products should be designed so that at the end of 
        their function they do not persist in the environment and break 
        down into innocuous degradation products.

        11.  Analytical methodologies need to be further developed to 
        allow for real-time, in-process monitoring and control prior to 
        the formation of hazardous substances.

        12.  Substances and the form of a substance used in a chemical 
        process should be chosen so as to minimize the potential for 
        chemical accidents, including releases, explosions, and fires.

Appendix II

          Presidential Green Chemistry Challenge Award Winners

    In 1995, the EPA initiated the Presidential Green Chemistry 
Challenge Award program to recognize achievement in green chemistry. 
Each year since 1996, awards have been given out in five categories: 
academic, small business, alternative synthetic pathways, alternative 
solvents/reaction conditions, and designing safer chemicals. Past 
winners have included:

        <bullet>  Pfizer, Inc. developed a green chemistry approach to 
        the manufacture of setraline, the active ingredient in the 
        anti-depressant Zoloft. The new, streamlined process is 
        accomplished in a single step instead of three, reduces 
        consumption of some raw materials by as much as 60 percent, and 
        uses a single, benign solvent instead of four. As a result, 
        Pfizer, Inc. has improved worker and environmental safety, 
        reduced energy and water use, and doubled overall product 
        yield. (Alternative Synthetic Pathways Award, 2002)

        <bullet>  Shaw Industries, Inc. developed a novel type of 
        carpet tile backing made from their EcoWorxTM compound. 
        Traditional carpet tile backings are landfilled at the end of 
        their useful life. Also, the combustion of PVC backings, the 
        most commonly used carpet tile backings, produces toxic 
        byproducts. EcoWorxTM, on the other hand, is made from low 
        toxicity feedstocks and is recyclable. The cost of collection, 
        transportation, and recycling of EcoWorxTM carpet tile backings 
        is less than the cost of using virgin raw materials. (Designing 
        Safer Chemicals, 2003)

        <bullet>  SC Fluids, Inc. developed a new technology to improve 
        manufacturing processes in the semiconductor industry. The 
        fabrication of integrated circuits currently generates an 
        estimated four million gallons of wastewater and uses thousands 
        of gallons of corrosive chemicals and hazardous solvents per 
        day. Supercritical CO<INF>2</INF> Resist Remover (SCORR) 
        technology offers a cost-effective alternative by using 
        supercritical CO<INF>2</INF> to strip resist from the silicon 
        wafer. SCORR outperforms conventional resist removal techniques 
        in the areas of waste minimization, water use, energy 
        consumption, worker safety, feature size compatibility, 
        material compatibility, and cost. (Small Business Award, 2002)

        <bullet>  Cargill Dow LLC developed a new family of polymers 
        derived entirely from annually renewable resources that is 
        competitive on a cost and performance basis with traditional 
        plastics. Called NatureWorksTM, it requires 20-50 percent less 
        fossil resources than comparable petroleum-based plastics, and 
        is fully biodegradable or recyclable. (Alternative Solvents/
        Reaction Conditions Award, 2002)

        <bullet>  Chemical Specialties, Inc developed an alternative 
        wood preserving product called ACQ. More than 95 percent of 
        pressure-treated wood is currently preserved with a chemical 
        known as CCA. To manufacture CCA, approximately 40 million 
        pounds of arsenic and 64 million pounds of hexavalent chromium 
        (both probable carcinogens) are used. These chemicals may pose 
        a risk to children through contact with CCA-treated items such 
        as playground equipment. ACQ, however, does not contain arsenic 
        or hexavalent chromium. Widespread adoption of ACQ has the 
        potential to nearly eliminate the use of arsenic in the U.S., 
        and would eliminate 64 million pounds of hexavelant chromium. 
        This would also avoid the risks associated with the production, 
        transportation, use and disposal of these chemicals. (Designing 
        Safer Chemicals Award, 2002)

        <bullet>  Biofine, Inc. developed a novel technique to convert 
        biomass waste into levulinic acid and its derivatives. Biofine, 
        Inc., in collaboration with the Department of Energy, the New 
        York State Energy Research and Development Authority, and 
        Biometics, Inc., developed a method to convert biomass waste, 
        including municipal solid waste, unrecyclable municipal waste 
        paper, waste wood, and agricultural residues, into levulinic 
        acid and its derivatives, which are marketable chemicals in 
        many sectors. One full-scale commercial plant could convert 
        1000 dry tons of waste per day into 160 million pounds per year 
        of product. (Small Business Award, 1999)

        <bullet>  Professor Joseph M. DeSimone from the University of 
        North Carolina at Chapel Hill and North Carolina State 
        University initiated a research program aimed at dramatically 
        advancing the solubility performance characteristics of carbon 
        dioxide (CO<INF>2</INF>). More than 30 billion pounds of 
        organic and halogenated solvents are used each year that have a 
        variety of negative impacts on the workplace and the 
        environment. CO<INF>2</INF> has long been recognized as an 
        ideal solvent, since it is nontoxic, nonflammable, safe to work 
        with, energy efficient, cost-effective, waste minimizing, and 
        reusable. This work has applications in the precision cleaning, 
        medical device fabrication, garment care, and chemical 
        manufacturing and coating industries. (Academic Award, 1997)

        <bullet>  BHC Company developed a new process for the 
        manufacture of ibuprofen in which virtually all starting 
        materials are either converted to product or are recovered and 
        recycled. Using this process, the generation of waste is all 
        but eliminated. This process has been hailed as a model of 
        source reduction. (Alternative Synthetic Pathways Award, 1997)

Appendix III

Section-by-Section Analysis of H.R. 3970, Green Chemistry Research and 
                        Development Act of 2004

Sec. 1. Short Title

    ``Green Chemistry Research and Development Act of 2004''

Sec. 2. Definitions

    Defines terms used in the text.

Sec. 3. Green Chemistry Research and Development Program

    Establishes an interagency research and development (R&D) program 
to promote and coordinate federal green chemistry research, 
development, demonstration, education, and technology transfer 
activities. The program will provide sustained support for green 
chemistry R&D through merit-reviewed competitive grants to researchers, 
teams of researchers, and university-industry R&D partnerships, and 
through R&D conducted at federal laboratories.
    The program will provide support for, and encouragement of, the 
application of green chemistry through encouragement of consideration 
of green chemistry in all federally-funded chemical science and 
engineering R&D; examination of methods to create incentives for the 
use of green chemistry; promotion of the education and training of 
undergraduate and graduate students in green chemistry; collection and 
dissemination of information on green chemistry R&D and technology 
transfer; and provision of venues for outreach and dissemination of 
green chemistry advances such as symposia, forums, conferences, and 
written materials.
    Establishes an interagency working group composed of 
representatives from the National Science Foundation, the National 
Institute for Standards and Technology, the Department of Energy, the 
Environmental Protection Agency, and any other agency that the 
President may designate, to oversee the planning, management, and 
coordination of all federal green chemistry R&D activities. Names the 
Director of the National Science Foundation and the Assistant 
Administrator for R&D at the Environmental Protection Agency as co-
chairs and requires the group to establish goals and priorities for the 
program and provide for interagency coordination, including budget 
coordination. Requires the group to submit a report to the Committee on 
Science of the House of Representatives and the Committee on Commerce, 
Science and Transportation of the Senate within two years that includes 
a summary of federally-funded green chemistry activities and an 
analysis of the progress made towards the goals and priorities 
established for the program, including recommendations for future 
program activities.

Sec. 4. Authorization of Appropriations

    Authorizes appropriations for green chemistry R&D programs, from 
sums already authorized to be appropriated, at the National Science 
Foundation, the National Institute of Standards and Technology, the 
Department of Energy, and the Environmental Protection Agency.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    From sums already authorized to be appropriated for each of the 
agencies.
    Chairman Boehlert. Good morning. I want to welcome everyone 
here today for our hearing on green chemistry, and I want to 
thank our colleague, Dr. Gingrey, for introducing the bill that 
will increase the focus of Congress, and, we hope, the 
Executive Branch, on this important and exciting area of 
research.
    We scheduled our green chemistry hearing for today because 
it seemed like an especially appropriate topic for St. 
Patrick's Day, but it is really a timely subject, indeed a 
pressing subject, any day of the year.
    While it is certainly true, to paraphrase the old adage, 
that without green chemistry, most of us--most of what we take 
for granted in modern life would be impossible. It is also true 
that chemicals compose a threat to life, and we are discovering 
more threats all of the time.
    But many of those threats could be lessened and avoided 
entirely if we focused more of our research on green chemistry, 
on chemistry that reduces or eliminates the use of toxic 
substances and the generation of toxic byproducts. And the good 
news is that green chemistry solutions can also save companies 
money and give them a competitive edge, in addition to 
protecting the environment and workers. That all is very 
appropriate. Green chemistry can result in green cash as well 
as a green environment. It is the ultimate ``win-win 
strategy.'' And I would direct your attention to our Director 
of Communications, who, appropriately, is dressed in green.
    At least it is potentially. While the government and some 
companies have small and scattered efforts in green chemistry, 
it is rarely a central focus. That has to change.
    And that will change only if the government takes action. 
The insufficient research in and application of green chemistry 
is a textbook example of market failure. Green chemistry has 
broad public benefits, but the market can not supply adequate 
incentives for the private sector to invest enough in it. The 
problems green chemistry solves are externalities, problems 
like pollution that have costs that are borne by the public at 
large rather than by their source. And inertia alone is enough 
to slow investment in new products and processes.
    So Dr. Gingrey's bill takes a sensible and targeted 
approach. It says, ``Let us focus more of the millions of the 
dollars the government already invests in chemistry research 
and development on green chemistry. And let us train more young 
scientists in this field. And let us make working on green 
chemistry R&D a conscious effort with an explicit budget.'' It 
is awfully hard to argue with that.
    And indeed, we don't hear much argument. The bill has 
already been endorsed by the American Chemical Society, and 
industry is starting to line up behind it.
    The Administration will tell us today that green chemistry 
is great, but we really don't need a bill. But that is what 
every Administration tells every Congress about just about 
every bill. I don't think we will be dissuaded by the 
traditional, ``Don't worry; we have already got that covered,'' 
line of argument. Maybe green chemistry can develop a way to 
make Article I of the Constitution more indelible to Executive 
Branch readers.
    So we look forward to reporting out this bill within the 
next month, and we hope for a time when the announcement of the 
Green Chemistry awards will be a red-letter day on everyone's 
calendar. Then we will really be able to achieve better living 
through chemistry. And I yield to--the balance of my time to 
the author of this legislation, Dr. Gingrey.
    [The prepared statement of Chairman Boehlert follows:]
            Prepared Statement of Chairman Sherwood Boehlert
    I want to welcome everyone here today for our hearing on green 
chemistry, and I want to thank our colleague, Dr. Gingrey, for 
introducing the bill that will increase the focus of the Congress--and, 
we hope, the Executive Branch--on this important and exciting area of 
research.
    We scheduled our green chemistry hearing for today because it 
seemed like an especially appropriate topic for St. Patrick's Day, but 
it is really a timely subject--indeed a pressing subject--any day of 
the year.
    While it is certainly true--to paraphrase the old ads--that, 
without chemistry, most of what we take for granted in modern life 
would be impossible; it's also true that chemicals can pose a threat to 
life--and we're discovering more threats all the time.
    But many of those threats could be lessened or avoided entirely if 
we focused more of our research on green chemistry--on chemistry that 
reduces or eliminates the use of toxic substances and the generation of 
toxic byproducts. And the good news is that green chemistry solutions 
can also save companies money and give them a competitive edge in 
addition to protecting the environment and workers. Green chemistry can 
result in green cash as well as a green environment. It's the ultimate 
``win-win strategy.''
    At least it is potentially. While the government and some companies 
have small and scattered efforts in green chemistry, it's rarely a 
central focus. That has to change.
    And that will change only if the government takes action. The 
insufficient research in, and application of green chemistry is a 
textbook case of market failure. Green chemistry has broad public 
benefits but the market cannot supply adequate incentives for the 
private sector to invest enough in it. The problems green chemistry 
solves are externalities--problems like pollution that have costs that 
are borne by the public at large rather than by their source. And 
inertia alone is enough to slow investment in new products and 
processes.
    So Dr. Gingrey's bill takes a sensible and targeted approach. It 
says, ``Let's focus more of the millions of dollars the government 
already invests in chemistry research and development (R&D) on green 
chemistry. And let's train more young scientists in this field. And 
let's make working on green chemistry R&D a conscious effort with an 
explicit budget.'' Awfully hard to argue with.
    And indeed we don't hear much argument. The bill has already been 
endorsed by the American Chemical Society, and industry is starting to 
line up behind it.
    The Administration will tell us today that green chemistry is 
great, but we really don't need a bill. But that's what every 
Administration tells every Congress about just about every bill. I 
don't think we'll be dissuaded by the traditional, ``Don't worry, we've 
already got that covered'' line of argument. Maybe green chemistry can 
develop a way to make Article I of the Constitution more indelible to 
Executive Branch readers.
    So we look forward to reporting out this bill within the next 
month, and we hope for a time when the announcement of the Green 
Chemistry awards will be a red-letter day on everyone's calendar. Then, 
we'll really be able to achieve ``better living through chemistry.'' I 
yield the balance of my time to Dr. Gingrey.

    Mr. Gingrey. I thank the Chairman for yielding, and I want 
to first start off by thanking all, and certainly--and 
especially our panel of witnesses for being here today. I am 
looking forward to all--hearing your testimony. I wanted to 
also thank Chairman Boehlert and Ranking Member Gordon for 
holding this important hearing on green chemistry.
    As a physician, I am a big believer in that old adage, ``An 
ounce of prevention is worth a pound of cure.'' The majority of 
environmental protection laws passed by Congress focus on 
limiting the spread of pollutants, cleaning up waste, or 
assessing fines to polluters. We should be devoting more effort 
toward finding ways to prevent pollution in the first place 
rather than cleaning it up after it has been created. The Green 
Chemistry Research and Development Act of 2004 does just that.
    As a Chemistry major, trained in traditional chemistry, or 
what some have come to call ``brown chemistry,'' I am very 
excited about the potential economic, environmental, and 
national security benefits from the emerging field of green 
chemistry. Preventing pollution and waste in the first place is 
often cheaper than mitigating and cleaning it up later, and the 
development of new products and processes will help spur 
economic growth. Green chemistry aims to design processes that 
can be conducted at or near room temperature and pressure and 
that use benign materials, decreasing the present risks for 
workers, while the replacement of toxic substances with safe 
ones reduces the potential threat to public safety due to 
accidental release. In our post-9/11 world, the reduction of 
the number of toxic chemical locations and the transport of 
toxic chemicals also improves national security by reducing the 
number of potential terrorist attacks and targets.
    Yet despite all of the promise of green chemistry, the 
Federal Government invests very little, very little in this 
area. The Green Chemistry Research and Development Act 
establishes an interagency research and development program to 
promote and coordinate federal green chemistry research, 
development, demonstration, education, and technology transfer 
activities. I think that this bill provides modest and prudent 
funding in an area that deserves greater federal attention. I 
look forward to receiving the testimonies and engaging in 
dialogue on this very important area.
    Mr. Chairman, I thank you, and I yield back the balance of 
my time.
    [The prepared statement of Mr. Gingrey follows:]

           Prepared Statement of Representative Phil Gingrey

    I thank the Chairman for yielding. I want to first start off by 
thanking all and our panel of witnesses for being here today, I'm 
looking forward to hearing your testimonies. I wanted to also thank 
Chairman Boehlert and Ranking Member Gordon for holding this important 
hearing on green chemistry.
    As a physician, I'm a big believer in the old adage, `an ounce of 
prevention is worth a pound of cure.' The majority of environmental 
protection laws passed by Congress focus on limiting the spread of 
pollutants, cleaning up waste, or assessing fines to polluters. We 
should be devoting more effort toward finding ways to prevent pollution 
in the first place rather than cleaning it up after it's been created. 
The Green Chemistry Research and Development Act of 2004 does just 
that.
    As a Chemistry major, trained in traditional chemistry, or what 
some have come to call `Brown Chemistry,' I am very excited about the 
potential economic, environmental, and national security benefits from 
the emerging field of Green Chemistry. Preventing pollution and waste 
in the first place is often cheaper than mitigating and cleaning it up 
later, and the development of new products and processes will help spur 
economic growth. Green chemistry aims to design processes that can be 
conducted at or near room temperature and pressure, and that use benign 
materials, decreasing the present risk for workers; while the 
replacement of toxic substances with safe ones reduces the potential 
threat to public safety due to accidental release. In our post-9/11 
world, the reduction of the number of toxic chemical locations and the 
transport of toxic chemicals also improves national security by 
reducing the number of potential terrorist targets.
    Yet despite all of the promise of green chemistry, the Federal 
Government invests very little in this area. The Green Chemistry 
Research and Development Act establishes an interagency research and 
development program to promote and coordinate federal green chemistry 
research, development, demonstration, education, and technology 
transfer activities. I think that this bill provides modest and prudent 
funding in an area that deserves greater federal attention. I look 
forward to receiving the testimonies and engaging in dialogue on this 
important area.
    Thank you Mr. Chairman and I yield back my time.

    Chairman Boehlert. Thank you very much, Dr. Gingrey. And 
let me once again commend you for your leadership in this 
effort. That is the type of thing we have come to expect from 
the Members of this committee. We are at the forefront of so 
many things, and we are glad to be there once again.
    The Chair is now pleased to recognize the distinguished 
Ranking Member of the Full Committee, Dr.--Mr. Gordon. I was 
going to give you a doctorate, too, Bart. You have had a few 
honoraries.
    Mr. Gordon. Thank you, Mr. Chairman, and thanks for calling 
this important hearing. I concur with you that our goal here is 
to raise the awareness of the public and the Administration, 
and I think that this bill is a good start. Our champion on 
this side has been Ms. Johnson, who has taken a lead in this 
issue. And I would like to yield the balance of my time to her.
    Chairman Boehlert. Before she takes the microphone, just 
let me commend Ms. Johnson, too, because it is her leadership, 
combined with Dr. Gingrey, working as a team, bipartisan, 
across the center aisle, that is making this happen. And I want 
to thank her for her leadership.
    Ms. Johnson. Thank you very much, Mr. Chairman. And thank 
you, too, Ranking Member Gordon, for giving me this opportunity 
to speak on an issue that is so important to me.
    Frequently, we, as legislators, preach about how we want to 
make this world a better place for those who are to follow. I, 
for one, want to help create a better planet, not only for the 
sake of my beloved grandchildren, but for all future 
generations.
    Imagine a policy that can help clean the environment by 
increasing the use of renewable fuels, encourage manufacturing 
processes that generate less toxic waste and promote the 
development of materials which can be easily recycled. These 
are the goals of green chemistry. And this bill is an 
aggressive first step in reaching these goals. I am so pleased 
that my colleague, Congressman Gingrey, has introduced the 
Green Chemistry Research and Development Act of 2004, and I am 
proud to be an original cosponsor of this legislation.
    Green chemistry is the utilization of a set of principles 
that reduces or eliminates the use or generation of hazardous 
substances in the design, manufacture, and application of 
chemical products. Green chemistry, as defined, tries to get at 
eliminating hazards in products and processes, making 
workplaces safer, dropping costs associated with safety and 
hazardous waste disposal, reducing risks to homeland security, 
preventing pollution, and creating healthier products that are 
effective and desirable. It is especially helpful in 
agriculture in conventional and organic crops. It has the 
capability of saving companies millions of dollars by reducing 
waste and providing a higher rate of return.
    Over the past decade, there has been increasing interest in 
a fundamentally new approach to environmental protection. In 
studying green chemistry, we realize that science and 
technology can help produce processes and products that are 
both more environmentally benign and economically attractive.
    An increased interest in new approaches for environmental 
protection may also derive, in part, from significantly changed 
attitudes about the environment over the past few decades. 
Increasing numbers of corporate executives may begin to see 
environmental protection as an important part of their 
corporate responsibility. Many firms now see an increased 
environmental consciousness as offering the potential for 
market niches that can emphasize the environmental benefits of 
products and services.
    That is why I am so excited about our discussion of this 
legislation today. Although there is more work that can be done 
to strengthen this legislation, it still provides just the 
right impetus to encourage the science and manufacturing 
communities to start in the right direction, not only because 
green chemistry can save them money now, in the short term, but 
because it also can save our planet in the long term.
    Thank you, Mr. Chairman, and I yield.
    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Representative Eddie Bernice Johnson

    Thank you, Mr. Chairman. And thank you too, Ranking Member Gordon, 
for giving me this opportunity to speak on an issue that is so 
important to me.
    Frequently, we as legislators preach about how we want to make this 
world a better place for those who are to follow. I for one want to 
help create a better planet not only for the sake of my beloved 
grandchildren, but for all future generations.
    Imagine a policy that can help clean the environment by increasing 
the use of renewable fuels, encourage manufacturing processes that 
generate less toxic waste, and promote the development of materials 
which can be easily recycled. These are the goals of Green Chemistry. 
And this bill is an aggressive first step in reaching these goals. I am 
so pleased that my colleague, Congressman Gingrey, has introduced the 
Green Chemistry Research and Development Act of 2004, and I am proud to 
be an original co-sponsor of this legislation.
    Green Chemistry is the utilization of a set of principles that 
reduces or eliminates the use or generation of hazardous substances in 
the design, manufacture and application of chemical products. Green 
chemistry as defined tries to get at eliminating hazards in products 
and processes, making workplaces safer, dropping costs associated with 
safety and hazardous waste disposal, reducing risks to homeland 
security, preventing pollution and creating healthier products that are 
effective and desirable. It is especially helpful in agriculture in 
conventional and organic crops. It has the capability of saving 
companies millions of dollars by reducing waste and providing a higher 
rate of return.
    Over the past decade, there has been increasing interest in a 
fundamentally new approach to environmental protection. In studying 
Green Chemistry we realize that science and technology can help produce 
processes and products that are both more environmentally benign and 
economically attractive.
    An increased interest in new approaches for environmental 
protection may also derive in part from significantly changed attitudes 
about the environment over the past few decades. Increasing numbers of 
corporate executives may begin to see environmental protection as an 
important part of their corporate responsibility. Many firms now see an 
increased environmental consciousness as offering the potential for 
market niches that emphasize the environmental benefits of products and 
services.
    That is why I am so excited about our discussion of this 
legislation today. Although there is more work that can be done to 
strengthen this legislation, it still provides just the right impetus 
to encourage the science and manufacturing communities to start in the 
right direction. Not only because Green Chemistry can save them money 
now in the short-term, but because it can also save our planet in the 
long-term.

    [The prepared statement of Mr. Smith follows:]

            Prepared Statement of Representative Nick Smith

    Today we meet to review the Green Chemistry Research and 
Development Act of 2004. The legislation establishes a modest 
interagency green chemistry R&D program at the National Science 
Foundation, Environmental Protection Agency, Department of Energy, and 
National Institute of Standards and Technology.
    Green chemistry is defined as ``the utilization of a set of 
principles that reduces or eliminates the use or generation of 
hazardous substances in the design, manufacture and application of 
chemical products.'' It is a relatively new term that describes 
relatively old ideas regarding our application of chemistry and related 
technologies to protect the environment. Today we actively think of 
such technologies as ``green,'' and actively think ``green'' when 
applying these technologies.
    By almost every indicator, the environment in the United States is 
substantially better than it has been at any time over the last thirty 
years. For example, emissions of chemicals such as nitrogen oxides from 
automobiles and mercury from power plants have decreased significantly. 
Drinking water is cleaner, and we're releasing much lower quantities of 
toxic chemicals into the environment in general. We have achieved all 
of this in concert with rapid population and economic growth.
    How have we had such great success improving the environment? To be 
sure, sensible regulations and increased public awareness have been 
important overall contributors. But if I had to give an award to the 
single most important factor responsible for the clean environment in 
America today, it would be technology.
    Technological advancement and information allows us to minimize 
wastes, improve efficiencies, and address nearly any environmental 
problem. So-called green chemistry is an important piece in this 
effort. As a farmer, I have to be tested and licensed to handle 
pesticides for the growing of crops. Thanks to our improved 
understanding and application of green chemistry, the safety of the 
chemicals I use on the farm has improved dramatically during the last 
25 years.
    Still, there is much room for improvement. We continue to have a 
problem with environmentally toxic chemicals in many industries. For 
example, in agriculture, we are searching for safer alternatives to 
potential environmental hazards such as Atrazine and Methyl Bromide. 
Green chemistry provides a fresh and different approach to addressing 
these ongoing environmental challenges.
    Too often, we romance about the environmental benefits of 
regulations and other environmentally benign practices without regard 
to their impact on businesses and the economy. That approach is 
shortsighted, especially in today's globally competitive environment 
where even the most minor misguided regulation can drive entire 
industries overseas. With it's potential to provide non-regulatory, 
economically competitive solutions to some of today's most pressing 
environmental challenges, green chemistry can be a win-win approach to 
what is all too often a lose-lose situation.
    To that end, the Federal Government can play an important role in 
stimulating green chemistry advances that are otherwise too risky and 
expensive for industry to undertake. The legislation before us today 
outlines that role and will hopefully move us closer to a broader goal 
I think we all share: economically friendly environmental protection 
through science, technology, and the dissemination of information.
    I look forward to today's discussion.

    [The prepared statement of Mr. Costello follows:]

         Prepared Statement of Representative Jerry F. Costello

    Good morning. I want to thank the witnesses for appearing before 
our committee to examine federal and industry green chemistry research 
and development activities and to receive testimony on the Green 
Chemistry Research and Development Act of 2004.
    Green chemistry is the use of chemistry for pollution prevention. 
More specifically, green chemistry is the design of chemical products 
and processes that reduce or eliminate the use and generation of 
hazardous substances.
    Private industry has benefited from and contributed to green 
chemistry efforts. Pfizer and Shaw Industries should be commended for 
their work in this area. However, barriers to greater adoption of green 
chemistry products and processes by industry include a workforce 
unfamiliar with green chemistry, a lack of existing and demonstrated 
alternatives, the high capital costs of changing processes, and 
inertia.
    I am interested to know about the current status of the Federal 
Government's efforts in green chemistry research and development and if 
efforts are underway to alleviate some of the above mentioned barriers. 
While agencies have conducted numerous green chemistry related R&D, 
these efforts are small, not coordinated and strategic in nature. 
Further, I am interested to know if expanded federal efforts and 
increased coordination in green chemistry is warranted and if so, how 
this legislation would further the effort.
    I welcome our panel of witnesses and look forward to their 
testimony.

    [The prepared statement of Ms. Jackson Lee follows:]

        Prepared Statement of Representative Sheila Jackson Lee

Mr. Chairman,

    Thank you for calling this timely hearing to discuss the importance 
of ``green chemistry'' and the federal investment in that important 
subject. I commend my colleague from Georgia, Dr. Gingrey, for 
authoring a bill that may help focus some of our attention on the need 
to encourage our schools, and labs, and industries to work toward 
protecting and preserving our environment.
    I also welcome this distinguished panel. I thank you all for taking 
the time to be here today, to share your views on green chemistry and 
this bill.
    I assume that everyone in this room is ``for'' green chemistry. It 
only makes sense that if there are two ways to do something--a harmful 
way and a non-harmful way--we would all want to choose the non-harmful 
way. And assuming we agree that it is a responsibility of the Federal 
Government to stimulate research and investment in areas that could 
have a beneficial impact on our nation, I believe we would all agree 
that we should focus some of the Nation's research energies on green 
chemistry.
    The questions are: how much of our resources should be allocated to 
program, and where should they come from? These are especially tough 
questions in a budget environment like the one we have today. Massive 
tax cuts for the rich and a violent and expensive foreign policy have 
left us with little money left to fund critical programs.
    The President's latest budget has slashed dozens of research and 
education programs. I have been very pleased with the bold leadership 
of the Chairman and Ranking Member of this Science Committee, pointing 
out that under-investing in science and technology is a grave error. It 
could jeopardize our position at the front of the world economy, and 
cost us jobs galore. I feel we need to find money to make investments 
in growth industries, and green chemistry certainly qualifies.
    I am concerned, however, that the bill we are discussing, although 
well-intentioned, may not make the necessary improvement of investment 
in the field. Because the bill only draw from funds that have been 
previously authorized, existing programs will have to be cannibalized, 
or simply renamed to fit the ``green chemistry'' label. As important as 
green chemistry is, I would hate to see it come at the expense of 
programs at NIST or DOE that we have been fighting for years. Some of 
the programs that are to be incorporated into the green chemistry 
initiative have not even been re-authorized in years, further confusing 
the matter of funding.
    Again, I am a firm supporter of green chemistry. It holds great 
promise for allowing our economy and standard of living to grow, while 
protecting our environment. However, I look forward to a serious 
discussion of how it will be funded, and what the bill we are 
discussing will accomplish.
    Thank you.

    Chairman Boehlert. Thank you very much.
    Our witness list today, the sole panel we have, is Dr. 
Arden Bement, Acting Director, National Science Foundation, and 
a frequent visitor here.
    Dr. Bement. Thank you, sir.
    Chairman Boehlert. Dr. Paul Gilman, Assistant Administrator 
for Research and Development, Environmental Protection Agency. 
And let me commend Dr. Gilman and the Governor for the 
statement issued yesterday on mercury. Dr. Berkeley Cue, Vice 
President of Pharmaceutical Sciences, Pfizer Global Research 
and Development. Dr. Cue, good to have you here. Mr. Steven 
Bradfield, Vice President of Environmental Development, Shaw 
Industries, Incorporated. Mr. Bradfield. And Dr. Edward 
Woodhouse, Associate Professor of Political Science, Department 
of Science & Technology Studies at that great institution, 
Rensselaer Polytechnic Institute.
    It is a pleasure to have all of you here. We would ask that 
you try to summarize your statement in approximately five 
minutes. The Chair will not be arbitrary, because we really 
want to hear what you have to say, but we also want the 
advantage of a dialogue between Members and the panel, and I 
would advise all that your statements will appear in the record 
in their entirety.
    Dr. Bement.

    STATEMENT OF DR. ARDEN L. BEMENT, JR., ACTING DIRECTOR, 
                  NATIONAL SCIENCE FOUNDATION

    Dr. Bement. Thank you, Mr. Chairman. Good morning to you, 
to Ranking Member Gordon and Members of the Committee. I am 
pleased to have the opportunity to testify before you this 
morning on the National Science Foundation's support of 
research on green chemistry and engineering, and specifically 
on the legislation under consideration by the Committee.
    Green chemistry and engineering are critical components of 
a comprehensive approach to manufacturing, an approach that 
considers not just the desired product, but the feedstocks, 
energy costs, purification procedures, and environmental impact 
associated with making the product.
    Over the past dozen years, the National Science Foundation, 
principally through the Division of Chemical and Transport 
Systems and the Division of Chemistry, has been investing in 
basic research that supports this holistic view of what might 
be called ``the molecular economy.'' Through existing 
partnerships with the Environmental Protection Agency, the 
Department of Energy, and the National Institute of Standards 
and Technology, NSF has been leveraging its investments in 
green chemistry and engineering for almost a decade.
    In 1991, NSF announced a joint program in Environmentally 
Benign Chemical Synthesis and Processing, whose goal was to 
reduce the environmental footprint of manufacturing processes 
while maintaining economic competitiveness. In 1994, a 
Memorandum of Understanding was signed between NSF and EPA that 
had three components, one of which was a program to support 
Technology for a Sustainable Environment.
    The current NSF investments in green chemistry and 
engineering are approximately $11 million per year in the 
Division of Chemistry, and $13 million per year in the Division 
of Chemical and Transport Systems. Areas of support include 
chemical synthesis, catalysis, separations research, and 
environmental research. Advances in chemical synthesis provide 
new products and alternative chemical routes to existing 
products that minimize or eliminate potentially harmful 
byproducts. New catalysts can be used to accelerate desired 
reactions, lower the energy costs associated with them, and 
reduce their hazards and environmental impact. Separations 
research can lead to more environmentally friendly and cost-
effective methods for purifying chemical feedstocks and 
products.
    NSF funding supports both individual investigators and 
multi-investigator interdisciplinary teams of researchers 
working on green chemistry and engineering projects. A number 
of young investigators supported through NSF's CAREER program 
have projects related to green chemistry and engineering. 
Adding value to NSF awards in these areas is a Memorandum of 
Understanding with NIST under which NSF awardees may apply for 
supplements that enable them to travel to NIST and take 
advantage of NIST facilities and expertise.
    An example of a team approach to green chemistry and 
engineering is the Science and Technology Center for 
Environmentally Responsible Solvents and Processes, based at 
the University of North Carolina at Chapel Hill. The center has 
pioneered the industrial use of carbon dioxide as a reaction 
medium, thereby avoiding production, use, and subsequent 
release into the environment of contaminated water, volatile 
organic solvents, chlorofluorocarbons, and other noxious 
pollutants. DuPont has recently invested in the construction of 
a plant in North Carolina to use this technology in the 
manufacture of materials like Teflon. Research supported at 
this center has also yielded new, less hazardous dry cleaning 
technologies, and this research is being extended to process 
applications for the microelectronics industry.
    Current manufacturing processes in the semiconductor 
industry involve toxic solvents, poisonous metals, and 
corrosive chemicals. The NSF Engineering Research Center on 
Environmentally Benign Semiconductor Processing, based at the 
University of Arizona with partners at Stanford University and 
MIT, is developing alternative technologies that both 
substitute safer materials in the production of semiconductor 
devices and minimize waste and water use. This Center has 
demonstrated the use of high-pressure carbon dioxide as a green 
solvent, and it has developed improved methods for water 
purification and recycling. In the past five years, this Center 
has spawned four new start-up companies that are 
commercializing their novel, environmentally friendly 
technologies.
    Mr. Chairman, I would like now to briefly comment on the 
draft Green Chemistry Research and Development Act of 2004. As 
I mentioned earlier, NSF and the Environmental Protection 
Agency have an ongoing, sustainable environmental program that 
appears to be meeting many of the goals of this bill. NSF has 
worked with both the Department of Energy and NIST in this 
area, as well. So we are in complete agreement on the value of 
research and processes and products that reduce the generation 
or use of hazardous substances. And I might add that my visit 
last night with the bright, young people in the Intel Science 
Award Program introduced me to at least two or three that are 
very active in this field, and I was very heartened by that. 
Although we welcome congressional attention and oversight in 
this area, we are always concerned about the unintended 
consequences of codifying research programs into law. While we 
look forward to working with the Committee to implement the 
goals of this legislation, the Administration believes that it 
is unnecessary to enact this legislation at this time.
    Thank you for this opportunity to testify on a topic of 
great importance to the science and engineering community, to 
the economy, and to the environment, and I would be pleased to 
respond to any questions that you might have.
    [The prepared statement of Dr. Bement follows:]

               Prepared Statement of Arden L. Bement, Jr.

    Good morning, Mr. Chairman and Members of the Committee. I am 
pleased to have the opportunity to testify before you this morning on 
the National Science Foundation's support of research on green 
chemistry and engineering, and specifically on the legislation under 
consideration by the Committee.
    Green chemistry and engineering are critical components of a 
comprehensive approach to manufacturing--an approach that considers not 
just the desired product, but the feedstocks, energy costs, 
purification procedures, and environmental impact associated with 
making the product.
    Over the past dozen years, the National Science Foundation (NSF), 
principally through the Division of Chemical and Transport Systems and 
the Division of Chemistry, has been investing in basic research that 
supports this holistic view of what might be called ``the molecular 
economy.'' This approach integrates manufacturing with environmental 
considerations. Through existing partnerships with the Environmental 
Protection Agency (EPA), Department of Energy (DOE) and the National 
Institute of Standards and Technology (NIST), NSF has been leveraging 
its investments in green chemistry and engineering for almost a decade.
    Beginning in 1991, the two NSF divisions announced a joint program 
in Environmentally Benign Chemical Synthesis and Processing, whose goal 
was to reduce the environmental footprint of manufacturing processes 
while maintaining economic competitiveness. In 1994, a Memorandum of 
Understanding (MOU) was signed between NSF and the EPA that had three 
components, one of which was a program to support Technology for a 
Sustainable Environment (TSE). The TSE program, launched in 1995 and 
administered nearly annually since then, will be formally reviewed in 
May, 2004. In addition, some components of Biocomplexity in the 
Environment, an NSF Priority Area, support studies of the use of 
resources and pollutant transport in the environment.
    The current NSF investments in green chemistry and engineering are 
approximately $11 million per year in the Division of Chemistry and $13 
million per year in the Division of Chemical and Transport Systems. 
Areas of support include chemical synthesis, catalysis, separations 
research, and environmental research. Advances in chemical synthesis 
provide new products and alternative chemical routes to existing 
products that minimize or eliminate potentially harmful byproducts. New 
catalysts can be used to accelerate desired reactions, lower the energy 
costs associated with them, and reduce their hazards and environmental 
impact. Separations research can lead to more environmentally friendly 
and cost-effective methods for purifying chemical feedstocks and 
products. The design of green manufacturing processes is guided by NSF-
supported basic research that characterizes the fate of molecular 
species in the environment through experimental, theoretical, modeling 
and simulation studies.
    NSF funding supports both individual investigators and multi-
investigator, interdisciplinary teams of researchers working on green 
chemistry and engineering projects. Projects typically include 
undergraduate and graduate students and postdoctoral research 
associates, who are trained through these awards. A number of young 
investigators supported through NSF's CAREER program have projects 
related to green chemistry and engineering. Adding value to NSF awards 
in these areas is an MOU with NIST under which NSF awardees may apply 
for supplements that enable them to travel to NIST to take advantage of 
NIST facilities and expertise.
    An example of a team approach to green chemistry and engineering is 
the Science and Technology Center for Environmentally Responsible 
Solvents and Processes, based at the University of North Carolina at 
Chapel Hill (Partners include North Carolina State University, North 
Carolina A&T University, the University of Texas at Austin, Georgia 
Institute of Technology, and a large number of industrial affiliates). 
Research at this center has already led to new green manufacturing 
processes. For example, the center has pioneered the industrial use of 
carbon dioxide as a reaction medium, thereby avoiding production, use 
and subsequent release into our environment of contaminated water, 
volatile organic solvents, chlorofluorocarbons and other noxious 
pollutants. DuPont has recently invested in the construction of a plant 
in North Carolina to use this technology in the manufacture of 
materials like Teflon. Research supported at this center has also 
yielded new, less hazardous dry cleaning technologies and this research 
is being extended to process applications for the microelectronics 
industry.
    For example, current manufacturing processes in the semiconductor 
industry involve toxic solvents, poisonous metals, and corrosive 
chemicals. The NSF Engineering Research Center (ERC) on Environmentally 
Benign Semiconductor Processing, based at the University of Arizona 
with partners at Stanford University and MIT, is developing alternative 
technologies that both substitute safer materials in production of 
semiconductor devices and minimize waste and water use. This Center has 
demonstrated the use of high-pressure carbon dioxide as a green solvent 
in microchip fabrication and has developed improved methods for water 
purification and recycling. One of the young faculty members at Arizona 
was recognized this year as one of Scientific American's 50 most 
influential researchers. In the past five years this Center has spawned 
four new start-up companies that are commercializing their novel, 
environmentally friendly technologies.
    The NSF supports smaller projects in green chemistry and 
engineering involving partnerships of academic institutions with 
industry and/or national laboratories through its Grant Opportunities 
for Academic Liaisons with Industry (GOALI) and its Environmental 
Molecular Science Institutes (EMSI) programs. The EMSI program is 
managed by the Division of Chemistry and includes the Geosciences 
Directorate at NSF and the Department of Energy as partners. Several 
EMSI projects provide a molecular-level perspective on industrial 
processes that allow an understanding of their environmental impact at 
the level of ecosystems.
    A measure of the quality of investments made through NSF awards is 
that nearly all of the academic winners who have received the EPA's 
Presidential Green Challenge Award have been NSF-supported 
investigators. This award recognizes major contributions to green 
chemistry and engineering research that have significant societal 
impact.
    Broader impacts of green chemistry and engineering are supported 
both through a variety of technical workshops and through education and 
outreach activities. Many Research Experiences for Undergraduates (REU) 
projects provide summer research opportunities for advanced 
undergraduates in basic research related to green chemistry and 
engineering. Instrumentation and curricular investments across NSF 
likewise contribute to education and the development of the future 
workforce that will be needed to develop and implement ideas to promote 
green chemistry and engineering.
    Mr. Chairman, I would like to briefly comment on the draft Green 
Chemistry Research and Development Act of 2004. As I mentioned earlier, 
NSF and the Environmental Protection Agency have an ongoing technology 
for a sustainable environment program that appears to be meeting many 
of the goals of this bill. NSF has worked with both the Department of 
Energy and NIST in this area as well. So we are in complete agreement 
on the value of research on processes and products that reduce the 
generation or use of hazardous substances. Although we welcome 
Congressional attention and oversight in this area, we are always 
concerned about the unintended consequences of codifying research 
programs into law. While we look forward to working the Committee to 
implementing the goals of this legislation, the Administration believes 
that it is unnecessary to enact this legislation at this time.
    Thank you for this opportunity to testify on a topic of great 
importance to the science and engineering community, to the economy, 
and to the environment. I would be pleased to respond to any questions 
you might have.

                   Biography for Arden L. Bement, Jr.

    Arden L. Bement, Jr., became Acting Director of the National 
Science Foundation on February 22, 2004.
    He joins NSF from the National Institute of Standards and 
Technology, where he has been director since Dec. 7, 2001. As head of 
NIST, he oversees an agency with an annual budget of about $773 million 
and an onsite research and administrative staff of about 3,000, 
complemented by a NIST-sponsored network of 2,000 locally managed 
manufacturing and business specialists serving smaller manufacturers 
across the United States. Prior to his appointment as NIST director, 
Bement served as the David A. Ross Distinguished Professor of Nuclear 
Engineering and head of the School of Nuclear Engineering at Purdue 
University. He has held appointments at Purdue University in the 
schools of Nuclear Engineering, Materials Engineering, and Electrical 
and Computer Engineering, as well as a courtesy appointment in the 
Krannert School of Management. He was director of the Midwest 
Superconductivity Consortium and the Consortium for the Intelligent 
Management of the Electrical Power Grid.
    Bement came to the position as NIST director having previously 
served as head of that agency's Visiting Committee on Advanced 
Technology, the agency's primary private-sector policy adviser; as head 
of the advisory committee for NIST's Advanced Technology Program; and 
on the Board of Overseers for the Malcolm Baldrige National Quality 
Award.
    Along with his NIST advisory roles, Bement served as a member of 
the U.S. National Science Board from 1989 to 1995. The board guides NSF 
activities and also serves as a policy advisory body to the President 
and Congress. He also chaired the Commission for Engineering and 
Technical Studies and the National Materials Advisory Board of the 
National Research Council; was a member of the Space Station 
Utilization Advisory Subcommittee and the Commercialization and 
Technology Advisory Committee for NASA; and consulted for the 
Department of Energy's Argonne National Laboratory and the Idaho 
National Engineering and Environmental Laboratory.
    Bement joined the Purdue faculty in 1992 after a 39-year career In 
industry, government, and academia. These positions included: vice 
president of technical resources and of science and technology for TRW 
Inc. (1980-1992); deputy under secretary of defense for research and 
engineering (1979-1980); director, Office of Materials Science, DARPA 
(1976-1979); professor of nuclear materials, MIT (1970-1976); manager, 
Fuels and Materials Department and the Metallurgy Research Department, 
Battelle Northwest Laboratories (1965-1970); and senior research 
associate, General Electric Co. (1954-1965).
    He has been a director of Keithley Instruments Inc. and the Lord 
Corp. and was a member of the Science and Technology Advisory Committee 
for the Howmet Corp. (a division of ALCOA).
    Bement holds an Engineer of Metallurgy degree from the Colorado 
School of Mines, a Master's degree in metallurgical engineering from 
the University of Idaho, a doctorate degree in metallurgical 
engineering from the University of Michigan, an honorary doctorate 
degree in engineering from Cleveland State University, and an honorary 
doctorate degree in science from Case Western Reserve University. He is 
a member of the U.S. National Academy of Engineering.

    Chairman Boehlert. Thank you very much, Dr. Bement, but 
once again, the Chair will observe, this Administration, like 
all previous Administrations, usually finds the work of 
Congress unnecessary. The Administration feels that the source 
of all wisdom is vested in 1600 Pennsylvania Avenue and the 
environs, but we want to be active, working partners----
    Dr. Bement. I am your canonical messenger.
    Chairman Boehlert. And I was pleased to see you note the 
relationship with NIST, because the Chair understands that you 
have some familiarity with NIST.
    Dr. Bement. Yes, I do have some familiarity, and if I had 
more time, I could go into a long list----
    Chairman Boehlert. For the benefit of the audience that 
might not be aware, Dr. Bement is taking over the 
responsibility of NSF to fill a void created by the retirement 
of Dr. Rita Colwell. He is on leave from his job as Director of 
NIST, where he has performed with exceptional skill. So they 
give him another burden, taking on, at least on a temporary 
basis, NSF. But Dr. Bement, we really appreciate----
    Dr. Bement. Well, I would welcome, for the record, to 
submit work that NIST is doing in this area as well.
    [The information referred to appears in Appendix: 
Additional Material for the Record.]
    Chairman Boehlert. Thank you very much.
    Dr. Gilman.

   STATEMENT OF DR. PAUL GILMAN, ASSISTANT ADMINISTRATOR FOR 
   RESEARCH AND DEVELOPMENT, ENVIRONMENTAL PROTECTION AGENCY

    Dr. Gilman. We welcome the Committee's interest, and look 
forward to working with you on your legislation, as it proceeds 
through the Congress.
    A critical part of EPA's mission is really embodied in the 
green chemistry and green engineering that you are addressing 
in this bill. We have historically addressed the issue. We hope 
to focus on it in the future. It is the kind of science that 
takes us beyond the limits of ``command and control'' 
approaches to keeping our environment clean and cleaning it up. 
Recently, our Administrator challenged the Agency to try and 
accelerate our pace in improving the environment using science 
and technology, market-based mechanisms, results-oriented work 
and collaborations in large networks.
    I would like to tell you a little bit about a new framework 
we are implementing in the research side of the organization, 
and more broadly, within which green chemistry and green 
engineering is captured. We will be releasing next week some 
solicitations in the area of ``Collaborative Science and 
Technology Network for Sustainability,'' really a cornerstone 
of our approach for the future, working with states, local 
government, and industry to address high-priority challenges 
with rigorous science. We will be announcing two pilots that we 
are initiating with the Delaware River Basin Commission and the 
Canaan Valley Institute in West Virginia looking at ecological 
restoration and watershed practices for sustainability. We are 
also opening up today a portal in sustainability on the EPA 
website, which is trying to organize the dozens of programs 
throughout the EPA that embrace principles of sustainability, 
the scientific tools, and the programs aimed at that, including 
green chemistry and green engineering. And lastly, in an effort 
to encourage a focus on sustainability in our university 
systems, we have released what we call a P3 Award. The P3 
standing for people, prosperity, and the planet, really an 
effort to solicit, through competitive grants, projects, and 
interdisciplinary teams trying to address solutions to 
environmental challenges. The National Academy of Engineering 
has agreed to serve as a judging organization for us in that 
regard, and we are very pleased with the early response to that 
effort.
    Your Green Chemistry R&D Act really does build on a lot of 
successes that have already taken place in government. We are 
in the process of trying to really document the productivity of 
those grants that have already been done. Looking at the first 
64 that we have been able to gather information on, those 64 
first grants under the Technology for a Sustainable Environment 
(TSE) program that we have done in collaboration with the NSF, 
have resulted in 347 articles, 25 chapters in books, six 
patents, and one of the recipients received a Nobel Prize for 
Chemistry in 2001. You will hear a lot of examples of successes 
today. I would only note several teams of our grant recipients 
at Georgia Tech are working at making water a better solvent 
and using water-based coatings to replace more hazardous 
solvents. You have heard the story of the CO<INF>2</INF> work 
in North Carolina, the work of Professor Dorgan on polylactic 
acid to make bio-based materials a feedstock for the future, 
and Professor Wool at Delaware working on, again, bio-based 
products where today John Deere is using bio-based products in 
the manufacture of its tractors. And Professor Wool even has a 
patent on a bio-based silicon replacement for silicon chips 
that would utilize chicken feathers as part of the matrix of 
those chips. And while you may laugh at that sort of thing, I 
would only note that the chip operates at about two times the 
pace of silicon-based chips.
    So there are wonderful examples out there. Some of those 
that I named are noteworthy not just because of their 
curiosities, but because industry is investing not tens, but 
hundreds of millions of dollars in the commercial use of those 
technologies.
    Some programs that have also borne fruit are things like 
the Presidential Green Chemistry Challenge. Just the award 
winners of that since 1996 represent a reduction of 326 million 
pounds of hazardous substances, 390 million gallons of water 
saved, and 120 million pounds of CO<INF>2</INF> reduction.
    Those are the kinds of results that we think this work will 
lead to, and not only noting the competitive nature of those 
products, I should also point out that, for those projects I 
mentioned, those were grants in the late '90s. The time from 
the lab bench to the commercial enterprise for these kinds of 
research projects is on the order of 10 years or less. And this 
is a committee that often hears that the basic research is 20 
years or more away from practical application. So the fruits of 
this work are being seen as we speak.
    Thank you for the opportunity to testify today.
    [The prepared statement of Dr. Gilman follows:]

                   Prepared Statement of Paul Gilman

    Good morning, Mr. Chairman and Members of the Committee, I am 
honored to appear before you today to discuss the U.S. Environmental 
Protection Agency's green chemistry and engineering research and 
development activities, the subject of the draft Green Chemistry 
Research and Development Act of 2004. The U.S. Environmental Protection 
Agency (EPA) welcomes the interest of the Committee on green chemistry 
and engineering. The subject of this bill represents a critical part of 
EPA's focus on environmental and human health protection. EPA 
historically has and continues to address the goals in the proposed 
legislation. I will highlight today some of our ongoing efforts in 
green chemistry and engineering.
    Every day decisions are made at local, state, and regional levels 
that affect our quality of life. To the extent possible, each of these 
decisions, from new building construction, highway development or 
ecosystem management, should be based on the best available scientific 
information and scientific tools available. Industry leaders are also 
making decisions on chemical, product, and process design that will 
have significant environmental and economic impacts. Sustainability 
draws on sound science to support these decisions to protect our 
natural systems, to provide a higher quality of life for people, and to 
further a competitive economy.
    By building on traditional ``command-and-control'' regulations, EPA 
has been refocusing its efforts by conducting and funding research in 
areas such as green chemistry and engineering, global change, economics 
and decisions sciences, watershed management, industrial ecology, 
environmental justice, ecological forecasting, and emerging 
technologies. In the future, EPA will continue to focus on rigorous 
science as a better way to advance EPA's mission of protecting human 
health and the environment.

INTRODUCTION

    Administrator Leavitt has outlined EPA's strategy to achieve its 
mission quickly and efficiently based on four key components: science 
and technology innovation, market mechanisms, results, and 
collaborative networks. Science and technology innovation provides new, 
cost-effective alternatives that better protect human health and the 
environment. Results ensure that our programs and processes achieve 
environmental and human health results. Collaborative networks serve to 
solve problems through partnerships and open dialogues among private 
and public stakeholders.
    EPA's next step in achieving its mission is to apply this framework 
to specific environmental and human health challenges. Traditionally, 
environmental protection programs have focused on a particular medium 
or problem through command-and-control regulations. These programs have 
been very effective at reducing point source pollution and improving 
environmental quality over the past three decades. However, the 
environmental challenges we face today involve several media types and 
diffuse sources that are less amenable to command-and-control programs. 
EPA is looking for solutions that seek to address the various causes of 
environmental problems and understand the interrelationships between 
human behavior and the environment in specific areas.
    A place-based approach is one example that supplements and 
complements the traditional environmental protection approach by 
focusing on the health of an ecosystem and the behavior of the humans 
who live within the boundaries of the ecosystem, instead of 
concentrating on a specific medium or particular problem. This 
strategy, therefore, moves beyond media-based or issue-based strategies 
to a holistic perspective that will lead to comprehensive, long-term, 
sustainable solutions.

FOCUS ON SCIENCE AND TECHNOLOGY THROUGH GREEN CHEMISTRY AND ENGINEERING

    EPA is focusing on science and technology programs that incorporate 
the principles of green chemistry and engineering. The concept of green 
chemistry and engineering is a very real and specific component of our 
science and technology. The goals of green chemistry and engineering 
move us towards innovation and collaboration for the mutual benefit of 
human health and the environment while furthering economic 
competitiveness. Green chemistry and engineering are unique in that 
they focus on inherently benign alternatives for chemical products and 
processes that can address many challenges in a broad, multi-media 
framework. The advances of green chemistry and engineering have 
demonstrated results that provide cost-effective environmental and 
human health improvements. For these reasons, green chemistry and 
engineering represent the kind of science on which EPA is focusing to 
move to the next level of environmental and human health protection.
    Before I discuss EPA's specific programs in green chemistry and 
engineering, I want to describe the broader context of EPA's focus. 
Three approaches are underway that cut across Administrator Leavitt's 
framework of science and technology innovation, results, and 
collaborative networks including: the ``Collaborative Science and 
Technology Network for Sustainability,'' the Sustainability Portal, and 
the P3 Award: A National Student Design Competition for Sustainability.
Collaborative Science and Technology Network for Sustainability (CSTNS)
    At the cornerstone of EPA's focus on sustainability is the 
``Collaborative Science and Technology Network for Sustainability'' 
(CSTNS). Through CSTNS, EPA will be funding innovative, regional-scale 
projects that address the high-priority challenges. These projects will 
be a testing ground for developing and applying tools while drawing on 
scientific understanding of the consequences of decisions and actions. 
CSTNS will provide an opportunity for communities, states, the private 
sector, EPA, and other government agencies to explore new approaches to 
environmental protection that are systems-oriented, forward-looking, 
and preventative.
    EPA is developing a number of pilot projects that illustrate the 
potential for this approach. One pilot project that is under 
development in EPA's Region 3 (Pennsylvania, West Virginia, Virginia, 
Delaware, Maryland, and the District of Columbia) is sustainable 
watershed management in the Delaware River Basin. This project will 
develop and implement strategies for sustainable water resource 
management in a watershed threatened by high population growth. EPA 
will work in cooperation with the United States Geological Survey; 
Delaware River Basin Commission (DRBC); the Commonwealth of 
Pennsylvania; local municipalities; the Brodhead Watershed Association 
and other stakeholders to evaluate the effects of growth and land use 
on groundwater, stream flows, and ecology in Pocono Creek. Tools will 
be developed to determine the appropriate ground water withdrawal 
limits considering environmental, economic, and social concerns. Those 
limits will be implemented by Monroe County, Pennsylvania to maintain 
the high quality of life in the watershed as future growth occurs. 
Research findings and results will be transferred to other parts of the 
Delaware River Basin as well as to other regions of the country. As 
evidenced by this project, CSTNS will transcend traditional regulatory 
approaches for air, water and land and rely on a more place-based 
perspective that takes a long-term view while measuring short-term 
outcomes.
    A second project, in collaboration with the Canaan Valley 
Institute; local communities; State and local governments of the Mid-
Atlantic Highlands area (portions of Maryland, Pennsylvania, Virginia, 
and West Virginia); West Virginia University; and other stakeholders, 
will develop and evaluate sustainable restoration technologies. Methods 
for stream restoration, which address the problems of sedimentation, 
riparian habitat loss and biological degradation will be included. In 
addition to the environmental benefits, it is expected that there will 
be increased potential for job creation as a result of restoration 
activities. Research findings and results will be transferred 
throughout the Mid-Atlantic Highlands area as well as to other regions 
of the country.
    We envision that these projects, as well as those funded under the 
upcoming competitive solicitation for the next phase of CSTNS projects, 
will serve to integrate the many existing EPA programs, identify gaps 
and demonstrate how such practices can be applied in the real world.
Sustainability Portal
    EPA has dozens of programs and activities that support elements of 
science and technology for sustainability. To provide better access to 
these programs and work to integrate them, EPA is developing a web 
portal (www.epa.gov/sustainability). This portal will provide easy 
access to EPA tools and programs that can help individuals, 
communities, and institutions achieve their sustainability goals. Links 
are provided to EPA programs and research for planning and practices, 
scientific and technical tools, measuring results and evaluating 
progress. The programs and research presented under ``planning and 
practices'' promote the integration of existing social, economic and 
environmental policies while anticipating new programs. Long-range, 
integrated planning and educating the next generation in sustainability 
practices are also included. The ``scientific and technical tools'' 
section highlights the development of underlying scientific and 
engineering knowledge needed to develop sustainability tools and 
techniques. ``Measuring results and evaluating progress'' focuses on 
providing a science-based foundation for monitoring and assessing 
trends in the environment and providing support for decision-making in 
businesses, communities, and across government. The website provides a 
``one-stop'' portal to EPA's programs and research appropriate to 
advancing the goal of sustainability.
P3 Award: A National Student Design Competition for Sustainability
    To encourage the integration of sustainability into higher 
education and training, EPA launched the P3 Award competition in 
November 2003. ``P3'' was chosen to highlight people, prosperity and 
the planet--the three pillars of sustainability. The P3 Award is a 
partnership between the public and private sectors to achieve the 
mutual goals of economic prosperity while protecting the natural 
systems of the planet and providing a higher quality of life for its 
people. The P3 Award program (www.epa.gov/P3) will provide up to 50 
grants to interdisciplinary teams of college students to research, 
develop, and design sustainable solutions to environmental challenges 
in both the developed and the developing world. A panel convened by the 
National Academy of Engineering will select the P3 Award winners at an 
event on the National Mall. The winner(s) of the P3 Award will be 
eligible for additional funds from EPA to match contributions from the 
private sector for further development, implementation and placement in 
the marketplace. This will ensure that EPA is supporting the research 
and development of innovative, inherently benign, integrated scientific 
and technical solutions that will advance the goal of sustainability.

EPA'S ONGOING PROGRAMS SUPPORTING GREEN CHEMISTRY AND ENGINEERING

    The framework for EPA's ongoing programs is also based on 
Administrator Leavitt's four components that the Agency is adopting to 
better and more quickly achieve its mission: science and technology 
innovation, market-based mechanisms, results, and collaborative 
networks. Focusing on research, development, and implementation in this 
Agency-wide framework is one mechanism that EPA will use to move to the 
next level of environmental and human health protection.
    While the approaches previously discussed were developed to address 
all of the framework's components, current EPA activities can also be 
classified using this model. The following sections highlight EPA's 
activities in green chemistry and engineering, and more broadly, based 
on science and technology innovation, market mechanisms, results, and 
collaborative networks.
Science and Technology Innovation
    Green chemistry and engineering are a critical part of EPA's 
current activities on science and technology. Research, development, 
and implementation of green chemistry and engineering are components of 
both the extramural Science to Achieve Results (STAR) grant program as 
well as intramural activities.
    The Green Chemistry Research and Development Act of 2004 will build 
upon the active and successful research and development traditionally 
supported and conducted by the EPA. Since the mid-1990's EPA has 
partnered with the National Science Foundation on a grants program 
called Technology for a Sustainable Environment (TSE) that focuses on 
green chemistry and engineering. In addition, EPA's intramural research 
program is centered on innovative scientific and technical advances in 
alternative energy sources, alternative reactor design, alternative 
solvent and catalyst strategies, and green metal finishing.
    EPA has supported green chemistry and engineering research in both 
its intramural and extramural research programs. Including support for 
personnel, approximately $6.9 million is included in the FY04 budget 
for green chemistry and engineering activities. Of this amount, 
research is about $5.1 million, including about $1.9 of personnel 
costs. About $2.4 million of the extramural funding is for competitive 
grants through the TSE program. (Approximately 70 percent of the 
research under TSE--which was $3 million in FY04--is focused on green 
chemistry and engineering.) Due to a redirection of funds within EPA, 
funding for EPA's portion of the TSE program was not provided in the 
President's FY05 budget request. However, grants funded with prior year 
resources will continue.
    EPA's Small Business Innovation Research (SBIR) program is another 
funding mechanism for innovative science and technology with economic 
and environmental benefits. EPA has also concentrated on the potential 
for innovative technologies to move us to the next level of 
environmental protection. Efforts include third-party environmental 
technology verification (ETV), an environmental technologies 
opportunity web portal (ETOP), and the creation of the Environmental 
Technology Council (ETC). These programs focus on researching and 
developing a knowledge base to support the development sustainable 
alternatives, through green chemistry and engineering, to enhance or 
replace current designs that present environmental and human health 
challenges.
    Except for the SBIR and ETV, program, EPA's research is pre-
competitive. The research under TSE is relatively more fundamental and 
the in-house research is somewhat more applied. However, in both cases, 
the priorities for the research are driven by EPA's goals and the 
research is in support of those goals.
            Technology for a Sustainable Environment (TSE)
    Since 1995, EPA and the National Science Foundation (NSF) have been 
partners in the Technology for a Sustainable Environment (TSE) program, 
a grants program designed to support research in pollution prevention. 
TSE (http://www.epa.gov/greenchemistry/tse.html) is an integral part of 
EPA's research program to support Agency program offices and regions 
and demonstrates leadership in addressing emerging environmental issues 
and advancing science and technology. TSE strongly encourages the 
collaboration of interdisciplinary academic researchers with industrial 
investigators who represent the eventual customers for the products of 
this research.
    Together, EPA and NSF have funded over 200 TSE grants totaling 
approximately $56 million for applied and fundamental research in the 
physical sciences and engineering that will lead to the discovery, 
development, implementation and evaluation of innovative 
environmentally benign molecules, products and processes. Due to a 
redirection of funds within EPA, funding for EPA's portion of the TSE 
program was not provided in the President's FY05 budget request. 
However, grants funded with prior year resources will continue. TSE 
research focuses on ideas that advance the development and use of 
innovative science, technologies, and approaches directed at avoiding 
or minimizing the generation of pollutants at the source. As such, TSE 
focuses primarily on green chemistry and green engineering research.
    Green Chemistry. The goal of the green chemistry research portion, 
similar to the Green Chemistry Research and Development Act of 2004, is 
to develop safer commercial substances and environmentally benign 
chemical syntheses to reduce risks posed by the manufacture, use and 
disposal of commercial chemicals. By preventing pollution at its source 
and designing inherently benign chemicals and processes, green 
chemistry has the potential to reduce environmental risks while 
providing more cost-effective products.
    Green Engineering. The green engineering supported by TSE focuses 
on developing novel engineering approaches for preventing or reducing 
pollution from industrial manufacturing activities. The scope of green 
engineering includes equipment and technology modifications, 
reformulation or redesign of products, substitution of alternative 
materials, and in-process changes. Although these methods are often 
linked to the chemical, biochemical, and materials process industries, 
they can be utilized in many other industries, such as semiconductor 
manufacturing systems.
    Quantifying Benefits. TSE also encourages research in physical 
sciences and engineering that will lead to the development of novel 
measurement and assessment techniques for green chemistry and 
engineering, and pollution prevention. Activities in this area include 
life cycle analysis, computational simulations, and process design 
algorithms as well as the development of appropriate measurement 
methods to quantify outcomes in terms of direct benefits to human 
health and the environment
    Environmental Benefits. To better demonstrate these benefits, 
research proposals for a grant under TSE must include a section 
entitled ``potential impacts.'' While the research supported by this 
program may be related to an individual reaction, unit operation or 
unit process, the investigators must address the environmental benefits 
or impacts of the research in the broader context of the industrial 
system of which it is a part. In this regard, the proposal must contain 
a discussion of expected potential environmental benefits or impacts in 
the broadest systems sense, which could include considerations of the 
efficient use of natural resources and energy and materials flows in 
manufacturing, product use, recycling, recovery or ultimate disposal. 
In this section, it is strongly recommended that the investigator 
address issues such as: the pollutant or class of pollutants the 
research proposes to prevent or minimize; the seriousness and 
importance of the environmental problem; and how the proposed 
technology or method is more economical and more environmentally benign 
than current technologies or methods.
    Results. The goal of the TSE program is the discovery of innovative 
chemical alternatives with economic and environmental benefits through 
the design of inherently benign chemicals, materials, and energy for 
reduced risks, liabilities, accidents, and vulnerabilities. The first 
64 of the 211 research grants funded under the TSE program produced 347 
peer-reviewed journal articles, 25 book chapters, and six patents. In 
addition, one of the investigators funded under TSE was awarded the 
2001 Nobel Prize in Chemistry.
    Examples of research conducted through TSE (Appendix 1) highlight 
the potential for green chemistry and engineering research supported by 
the Federal Government to move from the laboratory to the marketplace. 
This research demonstrates mutual benefits to the economy and the 
environment in a wide array of industrial processes from alternative 
solvents to renewable and biodegradable materials to benign 
alternatives for oxidation.
    All the TSE products that moved to commercialization had an 
important feature in common. These scientific and technical advances 
met or exceeded current cost and performance criteria, were competitive 
in the marketplace, and benefited human health and the environment. 
While it is extraordinary that there are TSE examples (Appendix 1) that 
have moved from the bench to commercialization in such a short 
timeframe (less than ten years), it demonstrates the potential for 
scientific and technical innovation in green chemistry and engineering 
to mutually achieve environmental and economic goals in the long-term. 
These innovations provide a basis for science and technology for 
sustainability by achieving the mutual goals of economic prosperity 
while protecting the natural systems of the planet and providing a 
higher quality of life for its people.
            Green Chemistry Program
    EPA's Green Chemistry Program (www.epa.gov/greenchemistry), in 
collaboration with EPA's Office of Pollution Prevention and Toxic 
Substances, is directed at preventing pollution by promoting the design 
of less toxic chemical substances and identifying alternative chemical 
pathways that involve less toxic reagents or solvents and generate 
fewer toxic products or co-products. As part of this program, EPA 
initiated the Green Chemistry Challenge that includes an award to 
recognize those in industry and academia that have met the objectives 
of Green Chemistry in an exemplary way. The Challenge also includes TSE 
as a research component to enhance support for innovative, inherently 
benign alternative chemical products and processes.
    The Presidential Green Chemistry Challenge Awards Program (http://
www.epa.gov/greenchemistry/presgcc.html) is an opportunity for 
individuals, groups, and organizations to compete for annual awards 
that recognize innovations in cleaner, cheaper, and smarter chemistry. 
The Awards Program provides national recognition of outstanding 
chemical technologies that incorporate the principles of green 
chemistry into chemical design, manufacture, and use, and that have 
been or can be utilized by industry in achieving their pollution 
prevention goals.
    Award nominations are invited that describe the technical benefits 
of a green chemistry technology as well as its human health and 
environmental benefits. The Awards Program is open to all individuals, 
groups, and organizations, both nonprofit and for profit, including 
academia, government, and industry. The nominated green chemistry 
technology must have reached a significant milestone within the past 
five years in the United States; e.g., been researched, demonstrated, 
implemented, applied, patented, etc.
    To date, the Award winning technologies alone are responsible for 
the following cumulative green chemistry benefits since 1996: 
eliminating 326,000,000 pounds of hazardous substances from commercial 
and industrial products and processes; saving 390,000,000 gallons of 
water; and preventing 120,000,000 pounds of carbon dioxide emissions.
            EPA's Intramural Science and Technology for Sustainability 
                    Research
    The mission of EPA's intramural sustainability research (http://
www.epa.gov/ORD/NRMRL/std/index.html) is to advance the understanding, 
development, and application of technologies and methods of prevention, 
removal, and control of environmental risks to human health and 
ecology. This research can be categorized by key areas including: 
alternative energy sources, alternative reactor design, alternative 
solvent and catalyst strategies, and green metal finishing. As a result 
of this research, several significant scientific and technical advances 
in green chemistry and engineering have been developed and implemented. 
In addition, the researchers have developed software tools to enable 
inherently benign design and measure environmental and human health 
benefits of scientific and technological advances (Appendix 2).
    Alternative Energy Sources. This research involves the use of new 
energy sources, such as microwaves and ultrasonic waves, as a means to 
enhance reaction conditions. The primary benefits of this approach 
include the reduction of reaction times from hours to minutes, a 
significant reduction of by-product or undesirable product formation, 
an overall increase in conversion of feedstocks, and the elimination of 
harmful solvents.
    Alternative Reactor Design. This research focuses on the use of new 
reactor designs to increase reaction efficiency and decrease energy 
consumption. These designs include a corona ozone generating reactor, a 
titanium dioxide (TiO<INF>2</INF>) ultraviolet (UV) reactor, and a 
spinning tube-in-tube reactor. The first two designs are considered 
advanced oxidation technologies that are best suited for use in 
oxidation-type reactions. They provide benefits such as increased 
conversion to desired products and minimal solvent or catalyst usage. 
The third reactor design is used for process intensification, a step 
that minimizes the time required to complete a given reaction. This in 
turn significantly reduces or completely eliminates by-product 
formation and increases overall conversion of the feedstock.
    Alternative Solvents and Catalysts. This research uses novel 
solvents and catalysts to increase reaction efficiency while minimizing 
the use of more traditional and harmful solvents. Strategies include 
using supercritical CO<INF>2</INF> as a reaction medium; using room-
temperature ionic liquids as a reaction media; using benign hydrogen 
peroxide (H<INF>2</INF>O<INF>2</INF>) to replace traditional catalysts 
(oxidants) such as magnesium permanganate (KMnO4) and chromium 
trioxide/sulfuric acid (CrO3/H2SO4); and using nonvolatile, 
alternative, polyethylene glycol (PEG) to replace traditional solvents.
    Green Metal Finishing. EPA is working cooperatively with industry 
leaders in the metal finishing sector to provide green solutions to 
their most critical issues. The program has investigated the use of 
less toxic process alternatives for various metal finishing systems 
that are both energy efficient and cost effective, and in the end, more 
sustainable. The program has identified greener chemical replacements 
to several metal finishing processes, including hexavalent chromium. 
Presently, the program is evaluating green chemistry alternatives to 
chlorinated solvents and alkaline cleaners for degreasing operations in 
the metal finishing industry.
    Additional Research. Additional intramural research focuses on 
industrial multimedia and systems analysis. The industrial multimedia 
research includes mine waste technology, metal finishing pollution 
prevention, metal forming, fuel cell applications, lead paint 
abatement, and base catalyzed dechlorination for contaminated soil 
remediation. The objective of the sustainable environments research is 
to construct a strategy for sustainable environmental management using 
economics approaches, water resource and land use planning, physical 
and ecological theory, and technological methods and knowledge 
implemented through computer-based tools, field data, and human 
experience to reduce risks to human health and the ecology. The main 
research efforts under systems analysis focus on life cycle 
assessments, cost engineering and cost benefit, chemical simulation and 
measurement, and pollution prevention at federal facilities.
            Small Business Innovation Research (SBIR)
    The EPA is one of 11 federal agencies that participate in the SBIR 
Program established by the Small Business Innovation Development Act of 
1982. The SBIR program (http://www.epa.gov/ncer/sbir) supports research 
in cutting-edge environmental technologies. EPA issues annual requests 
for applications for Phase I and Phase II research proposals from 
science- and technology-based firms. Through this phased approach to 
SBIR funding, EPA can determine whether the research idea--often on 
high-risk advanced concepts--is technically feasible, whether the firm 
can conduct high-quality research, and whether sufficient progress has 
been made to justify a larger Phase II effort.
    Historically, EPA has solicited projects on pollution prevention 
through SBIR. In 2004, however, EPA is focusing a significant portion 
of the program on pollution prevention and hazardous waste 
minimization. Working across EPA program and regional offices, we are 
soliciting highly relevant proposals to address pressing environmental 
challenges. These solicitations specifically request green chemistry 
and engineering innovations for alternatives to high-priority chemicals 
and environmental challenges ranging from inherently benign flame-
retardants to lead and mercury alternatives to green building design. 
These newly solicited projects will become part of a legacy of 
pollution prevention science and technology successful developed under 
SBIR (Appendix 3).
            Environmental Technology Verification
    In October 1995, EPA established the Environmental Technology 
Verification (ETV) Program (http://www.epa.gov/etv). The goal of ETV is 
to provide credible performance data for commercial-ready environmental 
technologies in order to speed their implementation for the benefit of 
vendors, purchasers, permitters, and the public. Because the level of 
potential environmental risk reduction for a technology is directly 
related to its level of performance and effectiveness, EPA verifies the 
performance of innovative, private-sector environmental technologies. 
It is important to note that private-sector technology developers 
produce almost all of the new technologies purchased in the United 
States and around the world. ETV offers purchasers and permitters of 
environmental technology an independent, objective, and high-quality 
source of performance information for informed decision-making.
    Processes. EPA's ETV Program develops testing protocols and 
verifies the performance of innovative technologies that have the 
potential to improve how we protect human health and the environment. 
The ETV Program operates as a public/private partnership through 
agreements between EPA and private testing and evaluation 
organizations. These ETV verification organizations work with EPA 
technology experts to create efficient and fully quality-assured 
testing procedures that verify the performance of innovative 
technologies in air, water, soil, ecosystems, pollution prevention, 
waste, and monitoring. All quality assurance plans and protocols are 
developed with participation of technical experts, stakeholders, and 
vendors and are available prior to testing, peer reviewed by other 
experts, and updated after testing, as appropriate.
    Results. Since ETV's inception in 1995, more than 200 environmental 
technologies have been verified and more than 70 protocols for 
technology testing have been developed. A 2001 survey of participating 
vendors indicated that 73 percent of the vendors were using ETV 
information in product marketing and 92 percent of those surveyed 
responded that they would recommend ETV to other vendors. To date, more 
than 25 vendors have returned to ETV for additional product 
verification.
            Environmental Technology Opportunities Portal (ETOP)
    The Environmental Technology Opportunities Portal (ETOP) 
(www.epa.gov/etop) is a web network designed to promote programs that 
foster the development of new, cost-effective environmental 
technologies and relay existing EPA environmental technology 
information (such as best available technologies for air, water and 
waste treatment and control).
    ETOP highlights funding opportunities, information, and links to 
EPA and other programs that assist in development and commercialization 
and others that foster the use and acceptance of innovative 
technologies through collaborative recognition and incentive, and 
advocacy and information programs. Links are also provided to other 
agencies and groups outside EPA that offer environmental technology 
information.
    ETOP was established as a result of a Congressional mandate through 
the FY 2003 House Appropriations Conference Report 108-10, page 1438. 
Congress directed EPA to develop a ``one-stop-shop'' office to 
coordinate similar programs that foster private and public sector 
development of new, cost-effective, environmental technologies. As part 
of the requirement to establish the ``one-stop-shop'' office, EPA 
established ETOP as an Internet portal page. ETOP was designed to 
clearly outline and highlight all of EPA programs as well as others 
that foster the development of environmental technologies, giving users 
direct access to funding and other incentive programs.
    ETOP, while not specifically focused on science and technology for 
sustainability, provides a means to search on advances and 
opportunities at EPA in the areas of green chemistry and green 
engineering. ETOP provides a much needed mechanism to raise awareness 
and increase communication between the public and private sectors in 
developing and commercializing new technologies that benefit human 
health and the environment.
            Environmental Technology Council (ETC)
    EPA is presently establishing the Environmental Technology Council 
with members from all Agency technology programs, offices and regions. 
The ETC will enhance the communication and coordination of all EPA 
technology activities, especially for priority environmental problems. 
This will improve results of core regulatory, enforcement, and 
voluntary programs and will facilitate innovative technology solutions 
to environmental challenges, particularly challenges with multi-media 
or place-based elements. The challenges addressed will be clearly 
related to the Agency's strategic plans, advance the Agency's mission 
of protecting human health and the environment, and contribute to 
moving the Agency to sustainability--the next level of environmental 
protection.
Results
    A focus on science and technology for sustainability will enable 
EPA and the Nation to more cost-effectively attain the ultimate 
environmental results of clean air, pure water, and protected land. 
Pollution prevention, achieved through the research, development, and 
market-adoption of green chemistry and engineering tools and 
technologies, is the foundation of such an approach. Green chemistry 
and engineering, along with environmentally benign manufacturing and 
industrial ecology, enable United States industries to design 
environmental benefits into their processes, products, and systems so 
that pollution and environmental hazards are avoided. These fields also 
enable United States industry to more effectively use benign materials 
and resources that are have the potential to benefit national security 
as well as the environment. Finally, these fields enable United States 
industry to remain economically competitive in the global marketplace 
by reducing risks, vulnerabilities, and the potential for accidents.
    Future Plans. To better address outcomes and the recommendations of 
the Administration's Program Assessment Rating Tool (PART) analysis, 
EPA is making a strategic shift in its goals for Pollution Prevention 
and New Technologies (P2NT). The shift reflects the growing recognition 
that the goals of pollution prevention are the first steps in moving to 
the next level of environmental and human health protection. EPA is now 
focused on improving practices and approaches through P2NT. We are also 
developing a new research program, Science and Technology for Pollution 
Prevention and Sustainability (STPPS) that will be both intramural and 
extramural.
    Intramural Program. Three overarching issues have been established 
to guide the direction and measure the progress of the new intramural 
STPPS program: identifying and defining sustainable systems; 
identifying metrics to measure progress towards sustainability; and 
developing methods, technologies, and approaches that can contribute to 
sustainability-based policies. This represents a shift to place-based 
environmental challenges that can be diffuse and have multi-media 
elements.
    EPA's green chemistry and engineering research is currently focused 
on pollution prevention activities. These scientific and technical 
advances will now be quantified in terms of sustainability metrics and 
focused on the highest priority environmental challenges for the Agency 
and industry. For example, research will be conducted on designing 
tradable credits programs for storm-water runoff control and developing 
sustainability criteria for critical ecosystem restoration. By 
refocusing the modeling and simulation strength of P2NT to a long-term 
goal of computational environmental protection, research outcomes will 
create simulated ``ecological-economic-social'' systems. Environmental 
decision-support tools and methods will deliver results on applying, 
calibrating, and validating current life-cycle models and applying them 
to sustainable technologies, policies, products and processes. This 
will lead to an intramural research program that is not only working 
toward EPA's mission and sustainability, but to one that can be 
quantified in terms of clear benefits to economic, environmental, and 
social systems.
    Extramural Research. EPA's extramural research program is also 
refocusing its efforts towards sustainability with quantifiable results 
in terms of the Agency's mission. Primary research will support 
research to use materials and energy more effectively while shifting to 
more inherently benign materials and energy sources. The most 
significant way to move to inherently benign material and energy flows 
is to advance green chemistry and engineering and to demonstrate these 
advancements in terms of economic and environmental improvements. It is 
important to recognize multiple benefits of an extramural STPPS 
research program. Such a program develops underlying scientific and 
engineering expertise; stimulates broader adoption of principles and 
practices in an academic community such as in chemical sciences and 
engineering; and helps to educate the next generation of scientists and 
engineers.
    EPA recognizes the importance of demonstrating quantifiable, 
meaningful outcomes from our intramural and extramural research 
programs. The work to date has resulted in significant benefits to 
human health and the environment and future directions will build upon 
this legacy. By integrating these results into new research activities, 
EPA will be in a position to establish that economic and environmental 
goals can be achieved simultaneously and sustainably.
Collaborative Networks
    EPA consistently uses collaborative networks to advance its mission 
of protecting human health and the environment. EPA's focus on science 
and technology sustainability also depends on working within EPA, 
across the government, and throughout the private sector to bring the 
most relevant science to all stakeholders to improve the economy and 
the environment for social benefit. These networks include EPA's 
program offices and regions, working through the National Science and 
Technology Council's Committee on Environment and Natural Resources 
(CENR), and collaborating with other Agencies including the Department 
of Energy (DOE), National Science Foundation (NSF), and the National 
Institute of Standards and Technology (NIST). EPA also reaches out to 
state, local, and tribal governments as well as the private sector and 
non-governmental organizations (NGOs) on issues of sustainability.
            EPA's Program Offices and Regions
    EPA's research and development activities are intimately related to 
activities in the program offices and regions. While these 
relationships exist throughout the Agency and across the Agency's 
mission, the following examples will focus on collaborations of EPA's 
Office of Research and Development with the EPA's Office of Solid Waste 
and Emergency Response and Office of Water as well as the regional 
offices that are advancing science and technology for sustainability.
    Resource Conservation Challenge, Office of Solid Waste. The 
Resource Conservation Challenge (RCC) (www.epa.gov/rcc) is a major 
national effort to find flexible, yet more protective ways, to conserve 
our valuable resources through waste reduction and energy recovery 
activities. The RCC extends across EPA programs and media to include 
waste, water, air, toxics, pollution prevention, pesticides, and 
compliance, as well as activities in the regions, states, and tribes. 
The RCC identifies areas of program focus, or ``challenges'' that are 
ready for voluntary partnerships. Each of these challenges works to 
resolve national environmental problems by finding environmentally 
acceptable solutions that are long-term, preventative, comprehensive, 
and sustainable. One of the key areas of the RCC is ``targeted 
chemicals.'' EPA has targeted 30 chemicals that are potential 
environmental hazards and challenged American industries to cutback on 
the use of these agents. As part of the RCC, EPA has pledged to support 
projects that help eliminate chemicals from the waste stream. The 
Agency's primary focus will be to secure commitments from the highest 
volume generators, sectors, and their related industry associations to 
reduce these chemicals in products, emissions, and waste. Clearly, 
green chemistry and engineering represents a vital area of research in 
meeting the RCC's targeted chemical challenge in a long-term, 
sustainable manner.
    Smart Growth, Office of Water; Office of Policy, Economics, and 
Innovation; and Regional Offices. Smart growth (http://www.epa.gov/
livability/) is development that serves the economy, the community, and 
the environment. It changes the terms of the development debate from 
the traditional growth/no growth question to ``how and where should new 
development be accommodated.'' Smart growth answers these questions by 
simultaneously achieving healthy communities that provide families with 
a clean environment, balancing development and environmental 
protection, encouraging economic development and jobs, and promoting 
strong neighborhoods and transportation choices. Much research has been 
conducted to determine if a more balanced pattern of growth could 
benefit the environment. Preliminary results from these studies 
indicate that smart growth developments can minimize air and water 
pollution, facilitate brownfields cleanup and reuse, and preserve open 
space. Research must also be conducted to address how development 
patterns are influenced by market forces and by local, state, and 
federal policies and initiatives. Smart growth aims to minimize 
development's impact on the environment through sound site decisions 
and finding a sustainable balance of economic, social and environmental 
systems.
            Interagency Collaboration
    Critical to EPA advancing its mission and the goal of 
sustainability is close coordination and interaction with other 
government agencies. While EPA has many bilateral agreements with other 
agencies, such as the partnership with NSF for the TSE program and the 
Department of Energy through a formal Memorandum of Understanding, EPA 
also coordinates with other agencies through the Committee on 
Environment and Natural Resources (CENR) under the National Science and 
Technology Council. The CENR addresses science policy matters and 
research efforts that cut across agency boundaries and provide a formal 
mechanism for interagency coordination relevant to domestic and 
international environmental and natural resources issues. The CENR 
recently discussed the addition of an Interagency Working Group on 
sustainability, clearly a crosscutting issue that EPA welcomes. The 
CENR has been an effective mechanism for working with other agencies 
and will serve as an excellent model for the new Interagency Working 
Group on Green Chemistry established under this bill. The CENR has 
played a role in significantly advancing collaboration with other 
agencies, specifically on issues related to sustainability, including 
advancing the mutual goals of economic growth and environmental 
protection.
            State and Local Governments
    Strong partnerships between EPA and the states achieve better 
environmental results. EPA has always worked with states to plan, set 
priorities, and encourage innovation to solve environmental problems. 
Most recently, EPA has begun to work with states to determine the most 
effective and appropriate ways for EPA to bring sound science to state-
level decision-makers for environmental protection. At the same time, 
EPA is working with the Environmental Council of States (ECOS) to 
assess the sustainable development programs underway in the states and 
determine how states address their scientific needs in the context of 
meeting environmental goals. This project entails compiling a 
compendium of state sustainability activities, research needs, and 
existing means by which states access sound science. The compendium 
will include information about flagship sustainability projects in the 
states as well as an inventory of legislative, regulatory, and non-
regulatory programs and tools. This represents one way in which EPA is 
working with states for improved environmental and human health 
protection as well as advancing the goal of sustainability.
            Tribes
    The American Indian Environmental Office (AIEO) coordinates the 
Agency-wide effort to strengthen public health and environmental 
protection in Indian Country, with a special emphasis on building 
tribal capacity to administer their own environmental programs. AIEO 
oversees development and implementation of the Agency's Indian Policy 
and strives to ensure that all EPA headquarters and regional offices 
implement their parts of the Agency's Indian Program in a manner 
consistent with Administration policy. One aspect of this relationship 
is the National EPA-Tribal Science Council, commonly referred to as the 
Tribal Science Council (TSC). The TSC was created in partnership with 
tribal representatives to help integrate Agency and tribal interests, 
specifically with respect to environmental science issues. The TSC 
provides a forum for tribes and EPA to identify priority environmental 
science issues and collaboratively design effective solutions to 
environmental concerns. Through this partnership, EPA and Indian 
Country are moving towards improved sustainable, comprehensive, long-
term approaches to environmental and human health protection.
            Beyond Government
    EPA has extensive collaborations and partnerships beyond the 
government with non-governmental organizations (NGOs) and industry. 
Because these activities are so numerous, they cannot be included here. 
While many of the EPA's programs focused on sustainability--including 
the Collaborative Network for Sustainability and the P3 Award--
encourage partnerships across a range of stakeholders, there are 
several existing examples that demonstrate collaborations specific to 
advancing science and technology for sustainability. The examples shown 
in Appendix 4 represent current ongoing activities in terms of green 
chemistry, green engineering, pollution prevention and sustainability 
with the American Chemical Society and other activities with the 
private sector through the National Environmental Performance Track.

CONCLUSION

    By conducting research, developing green alternatives, implementing 
solutions, and measuring results, EPA will achieve its mission more 
quickly and more cost-effectively. Green chemistry and engineering are 
at the core of science and technology, and represent a critical 
component for EPA's move to the next level of environmental protection. 
Through science and technology innovations, demonstrated results, and 
collaborative networks, EPA continues to bring strong science to 
Federal, State, local, and tribal governments as well as the private 
sector for catalyzing action in protecting human health and 
safeguarding the environment. While we look forward to working with the 
Committee to meet the goals of this legislation, the Administration 
believes that it is unnecessary to enact this legislation at this time.

Appendix 1

   Examples of Results from the EPA/NSF Technology for a Sustainable 
                    Environment (TSE) Grants Program

TSE Grant Example 1: In the first few years of the TSE program, 
research focused on environmentally benign solvents. Organic solvents 
are often toxic substances with widespread use as intermediates and 
final products. The early TSE research focused on identifying 
environmentally benign alternatives to toxic solvents such as liquid or 
supercritical CO<INF>2</INF>, water, and ionic liquids. CO<INF>2</INF> 
became the primary focus of TSE research when EPA and NSF received 
numerous, high-quality proposals that addressed the key scientific 
questions related to the use of CO<INF>2</INF> as an alternative 
solvent. In 2003, EPA funded a ``State of the Science'' report on the 
use of CO<INF>2</INF> as a solvent that outlined the scientific 
progress and growing commercial interest in CO<INF>2</INF>. The report 
noted that the ``use of CO<INF>2</INF> as a solvent is fast becoming 
'mature', an achievement due in large part to sustained funding in the 
area from EPA and NSF.''
    TSE-funded research has resulted in the development of 
CO<INF>2</INF>-based processes as alternatives to organic or 
halogenated solvents for cleaning, treating, and coating surfaces. This 
work resulted from a 1997 grant awarded to Dr. Joseph DeSimone at the 
University of North Carolina-Chapel Hill. His research led to the 
development of specialty detergent systems that easily dissolve in 
CO<INF>2</INF>. A small business was then created and funded by EPA 
under its Small Business Innovation Research (SBIR) program to advance 
this technology as an alternative to traditional dry cleaning. 
Implementing this technology in the dry-cleaning sector has resulted in 
significant reductions of perchloroethylene (perc) emissions (a 
suspected carcinogen) and the associated burdens of environmental 
regulations. This technology is now being used in five states and over 
100 dry cleaning establishments.
    These same technological advances used to develop CO<INF>2</INF> as 
an alternative solvent led Dr. DeSimone to develop a process to 
manufacture polytetrafluoroethylene (Teflon) using CO<INF>2</INF>. This 
process replaced previous processes that used chlorinated chemicals or 
millions of gallons of water that needed to be treated before they 
entered the public water system.
    DuPont, the manufacturer of Teflon, adopted this innovative process 
and announced that it would invest $275 million to build and operate a 
world-class manufacturing facility in Fayetteville, North Carolina, 
using this new technology.
    The potential for CO<INF>2</INF> as an environmentally preferable 
solvent is now being realized in several additional areas, including 
separation processes in the food industry, coatings in the automotive 
and furniture industries, polymer production and processing, and 
cleaning processes for the garment care (dry cleaning) and 
microelectronics industries. The cost of ownership associated with the 
continued use of organic solvents is no longer a minor issue and 
CO<INF>2</INF> presents a unique, cost-effective, benign alternative to 
utilizing a potential environmental pollutant as a feedstock.
    For more information, see (http://cfpub.epa.gov/
ncer<INF>-</INF>abstracts/index.cfm/fuseaction/display.abstractDetail/
abstract/905/report/0).

TSE Grant Example 2: A critical component of waste minimization in fine 
chemicals manufacture is the substitution of classical organic 
syntheses using stoichiometric amounts of inorganic reagents with 
cleaner, catalytic alternatives. New and improved catalysts will enable 
important chemical reactions to be conducted under milder conditions, 
with less energy expenditure, in a shorter time, using less reactive 
and more environmentally friendly chemicals and solvents. For these 
reasons, catalysis is another area of research focus under TSE.
    A TSE grant awarded by EPA in 1996 to Dr. Terrence Collins at 
Carnegie Mellon University, Pittsburgh, Pennsylvania, led to the 
development of oxidant activators based on iron. These activators 
promise extensive environmental benefits including a significant 
reduction in chlorinated pollutants. In addition, these alternative 
catalysts provide superior technical performance and significant cost 
and energy savings across a wide range of oxidation technologies.
    Uses for these oxidant activators range from pulp and paper 
bleaching to fuel desulfurization to water disinfection, and most 
recently, biological or chemical decontamination for homeland security. 
In the case of pulp and paper bleaching, these activators proceed 
rapidly and efficiently at ambient temperatures with competitive 
performance while completely eliminating chlorinated pollutants.
    More than 85 percent of recalcitrant sulfur compounds in refined 
automotive fuels can be easily removed using these powerful, 
environmentally friendly catalysts. Further development of this 
technology has the potential to provide an attractive alternative to 
existing methods that remove sulfur contaminants from fuels. Sulfur is 
associated with human health impacts, contributes to acid rain, and 
causes engines to burn less efficiently. This innovative technology 
demonstrates immediate environmental benefits by simultaneously 
reducing sulfur emissions from fuel combustion and improving fuel 
efficiency.
    Given the widespread applicability of this technology and its 
demonstrated environmental and economic benefits, Dr. Collins is 
currently negotiating with several companies to manufacture these 
oxidants on a metric-ton scale for widespread use.
    For more information, see (https://www.fastlane.nsf.gov/servlet/
showaward?award=9612990).

TSE Grant Example 3: Another area of research concentration in the TSE 
program has been the use of renewable, bio-based feedstocks for 
chemical production. Use of renewable resources reduces the reliance on 
petroleum and has significant long-range strategic benefits for the 
U.S. Bio-based feedstocks also do not have environmental impacts 
associated with petroleum refining and processing. A ``State of the 
Science'' report on the development of this process and the 
contribution of TSE research is currently in progress.
    A TSE grant awarded by EPA in 1998 to Dr. John Dorgan at Colorado 
School of Mines in Golden, Colorado, contributed to the development of 
the first family of polymers derived entirely from annually renewable 
resources that can compete with traditional fibers and plastic 
packaging materials on a cost and performance basis. These polymers are 
based on polylactic acid (PLA), a fully biodegradable and completely 
recyclable material, which is produced by fermenting and distilling 
corn sugar. PLA production also uses internal recycle streams to 
eliminate waste, resulting in over 95 percent yields and preventing 
pollution at the source.
    This technology is the basis for the world's first global-scale 
manufacturing facility capable of making commercial-grade plastic 
resins from annually renewable resources such as ordinary field corn. 
Cargill-Dow opened this facility in November 2001 after a $750 million 
investment. The plan now produces more than 300 million pounds of PLA 
annually and employs close to 100 people. From the corn plant to the 
retail counter, PLA has a lifecycle that reduces fossil fuel 
consumption by up to 50 percent. In addition, the process to make PLA 
generates 15 to 60 percent less greenhouse gases (GHG) than the 
material it replaces. Research also shows that technology advancements 
in PLA could allow up to 80 to 100 percent reduction in GHGs. This 
unique technology offers a new material alternative that competes on 
performance and price, while also reducing impact on the environment.
    For more information, see (http://cfpub.epa.gov/
ncer<INF>-</INF>abstracts/index.cfm/fuseaction/display.abstractDetail/
abstract/967/report/0).

Appendix 2

      Intramural Research, Development, and Implementation at EPA

    As a result of EPA intramural research, several significant 
scientific and technical advances in green chemistry and engineering 
have been developed and implemented including:

        <bullet>  A novel process reactor, called a ``Spinning Tube-in-
        Tube'' or STT Reactor, has been used by EPA research staff to 
        enhance the effectiveness of new catalysts. The STT Reactor, 
        developed by Kreido Laboratories, consists of a small cylinder 
        spinning within a hollow tube at speeds beyond 5500 rpm. This 
        creates a well-stirred medium for chemical reactions such that 
        mass transfer limitations can be either minimized or 
        eliminated. The SST Reactor embodies the idea of process 
        intensification through its potential for high throughput while 
        maintaining a small physical footprint. Utilizing a CRADA with 
        Kreido, EPA obtained an operating STT reactor for in-house 
        experimentation. Employing the newly created EPA-designed 
        catalysts, and using identical reaction conditions, researchers 
        have been able to decrease the reaction time for partial 
        selective oxidation of cyclohexane from four hours in a 
        traditional batch reactor to below 25 minutes in the STT 
        reactor. Currently, additional experiments with the STT Reactor 
        are being negotiated under CRADAs to allow EPA researchers to 
        develop other green chemistry applications for chemical 
        production where significant toxic releases occur.

        <bullet>  Over the years, EPA's Green Metal Finishing program 
        has evolved through close interactions with the regulatory 
        programs in the offices of Water and Air Quality and Planning 
        and Standards (OAQPS) in the Office of Air and Radiation. One 
        project evaluated the use of fume suppressants for emissions 
        control in hard chrome plating operations, an industry 
        dominated by small businesses. Using this work, OAQPS revised 
        their newly promulgated maximum achievable control technology 
        (MACT) emission standards to include the results of the EPA 
        demonstration of fume suppressants. The adoption of this 
        technology resulted in multi-million dollar cost savings to 
        industry, as well as major improvements in both EPA and 
        Occupational Safety and Health Administration compliance. EPA 
        was also involved with the metal finishing industry under the 
        Common Sense Initiative (CSI) program involving industry, 
        stakeholder groups, and the Agency's program offices including 
        Office of Water, OAQPS and Office of Solid Waste. Ultimately, 
        the CSI's Metal Finishing Committee developed a research agenda 
        that was jointly implemented by EPA's laboratory and industry 
        groups. EPA and the American Electroplaters and Surface 
        Finishers Society jointly sponsor an annual conference to 
        insure that the results of this research are transferred 
        between the research office, program offices, and industry.

        <bullet>  Researchers in EPA developed a novel process reactor 
        called a Corona Reactor. This reactor can be effectively and 
        efficiently used in industrial oxidation processes, such as in 
        the oxidation of alcohols and hydrocarbons for the production 
        of value-added products. It can also be applied in advanced air 
        and water cleaning processes. The Corona Reactor (patent 
        pending) uses an oxidation protocol that has the advantage of 
        the high oxidizing power of ozone formed within the reactor, as 
        well as the photo-oxidation capability of UV light generated 
        during ozone formation. This research has been conducted in 
        collaboration with Washington University at St. Louis and a 
        small business supported by EPA's SBIR program, Ceramatec, of 
        Salt Lake City, Utah. The cleaning of indoor and airline cabin 
        air are two potential applications of this. Other applications 
        include the cleaning and partial and deep oxidation of waste 
        gas streams from kraft pulp and paper mills. This ongoing study 
        is being done in collaboration with Miami University and the 
        Mead Westvaco Pulp and Paper Company of Chillicothe, Ohio.

    As a result of EPA intramural research, several significant tools 
in science and technology for sustainability have been developed and 
implemented including:

        <bullet>  Program for Assisting the Replacement of Industrial 
        Solvents (PARIS II): EPA is working to find cost-effective 
        alternatives for industrial solvents that raise concerns for 
        worker health and toxins in the environment. PARIS II is a 
        software tool created to address this need by identifying pure 
        chemicals or design mixtures that can serve as alternatives to 
        more hazardous substances currently in use. The ``greener'' 
        solvents formulated by PARIS II have improved environmental 
        properties and can perform as well as the solvents they were 
        designed to replace.

        <bullet>  Tool for the Reduction and Assessment of Chemicals 
        and other environmental Impacts (TRACI): The most effective way 
        to achieve long-term environmental results is to use a 
        consistent set of metrics and a coherent decision-making 
        framework. The EPA developed TRACI, a software package that 
        characterizes the potential effects of specific chemicals or 
        processes on ozone depletion and global warming, human health 
        and the ecosystem. TRACI's modular design allows the most 
        sophisticated impact assessment methodologies to be compiled. 
        TRACI can be used in life cycle assessments, to improve design, 
        set corporate environmental goals, plan a path to meet those 
        goals, and then measure environmental progress.

        <bullet>  Waste Reduction Algorithm (WAR): In traditional 
        chemical process design, attention is focused primarily on 
        minimizing cost while the environmental impact of a process is 
        often overlooked. This could, in many instances, lead to the 
        production of large quantities of waste materials. It is 
        possible to reduce the generation of these wastes and their 
        environmental impact by modifying the design of the process. 
        EPA recently developed a method to reduce wastes that is based 
        on a potential environmental impact (PEI) balance for chemical 
        processes. The PEI is a relative measure of the potential for a 
        chemical to have an adverse affect on human health and the 
        environment. The result of the PEI balance is an impact 
        (pollution) index that provides a measure of the impact of the 
        waste generated by a process. The goal of this methodology is 
        to minimize the PEI for a process instead of minimizing the 
        amount of waste (pollutants) generated by a process. The impact 
        estimation algorithm is sophisticated and flexible enough to 
        allow users to emphasize or de-emphasize different hazards as 
        needed for particular applications. The result is a robust 
        process design that integrally incorporates environmental 
        impact reduction. The first version of the WAR Algorithm has 
        been integrated into the commercial simulator ChemCAD IV under 
        a Cooperative Research and Development Agreement (CRADA) 
        between the EPA and Chemstations, Inc. A number of other CRADAs 
        are being negotiated that involve further development of the 
        WAR algorithm.

Appendix 3

   Success Stories in Pollution Prevention from EPA's Small Business 
                      Innovation Research Program

SBIR Example 1: EnerTech Environmental, Atlanta, Georgia, has 
successfully developed an innovative process that chemically converts 
municipal sewage sludge, municipal solid waste, and other organic 
wastes into a high-energy, liquid fuel that is cleaner to combust than 
most fuels. This process eliminates the need to burn or bury organic 
wastes and begins to address the environmental burdens associated with 
combustion and landfills. Instead it produces E-fuel, a valuable and 
cleaner supplement or substitute for conventional fuels such as coal or 
oil.
    For more information, see (http://cfpub.epa.gov/
ncer<INF>-</INF>abstracts/index.cfm/fuseaction/display.abstractDetail/
abstract/1517/report/0).

SBIR Example 2: Creare Incorporated, Hanover, New Hampshire, has 
designed a novel cutting tool-cooling system (CUTS) that eliminates the 
need for cutting fluids by indirectly cooling the cutting tool. Many 
companies use these costly and often environmentally problematic 
cutting fluids during machining operations. CUTS meets or exceeds 
current machining performance, including tool life and final product 
quality, when compared to traditional cooling systems that use cutting 
fluids. This technology uses a prevention-oriented approach that 
alleviates the human and environmental health and safety issues 
associated with cutting fluids.
    For more information, see (http://cfpub.epa.gov/
ncer<INF>-</INF>abstracts/index.cfm/fuseaction/display.abstractDetail/
abstract/6098/report/0).

SBIR Example 3: Lynntech, Incorporated, College Station, Texas, is 
working to commercialize a fundamentally new, inorganic conversion 
coating that is chromium free and will protect aluminum from corrosion. 
Potentially toxic chromium conversion coatings are used extensively to 
protect aluminum parts for the aerospace, automobile, construction, and 
consumer products industries. Lynntech's newly developed protective 
coatings meet rigorous corrosion protection standards and also 
eliminate chromium exposure in the workplace and the environment.
    For more information, see (http://cfpub.epa.gov/
ncer<INF>-</INF>abstracts/index.cfm/fuseaction/display.abstractDetail/
abstract/1375/report/0).

Appendix 4

 Examples of Collaborative Networks with the Private Sector Related to 
     Green Chemistry, Green Engineering, Pollution Prevention, and 
                             Sustainability

American Chemical Society (ACS): EPA and the ACS have partnered for the 
past eight years to host an annual Green Chemistry and Engineering 
Conference on issues that include global awareness, innovation, 
homeland security, and sustainability. A key objective of these 
conferences is to extend and strengthen the community of scientists, 
engineers, government officials, and the public in support of green 
chemistry. Conferences and symposia provide important opportunities for 
peer review, network building, increased awareness, and general 
development of a Green Chemistry community.

National Environmental Performance Track: This voluntary partnership 
program recognizes and rewards private and public facilities that 
demonstrate strong environmental performance beyond current 
requirements. The program is based on the premise that government 
should complement existing programs with new tools and strategies that 
not only protect people and the environment, but also capture 
opportunities for reducing costs and spurring technological innovation. 
Performance Track encourages participation of small, medium, and large 
facilities and its members are located throughout the United States and 
Puerto Rico.
    All major industries are represented in Performance Track, with 
manufacturers of chemical, electronic and electrical, and medical 
equipment composing nearly 40 percent of the 344 members. Performance 
Track also provides recognition, regulatory flexibility, and other 
incentives that promote high levels of environmental performance and 
provide a learning network where best practices can be shared. The 
program encourages continuous environmental improvement through the use 
of environmental management systems. Public outreach, community 
involvement, and performance measurement are also important components 
of the program. Performance Track works within the business environment 
to encourage industry to reduce environmental emissions below regulated 
levels through approaches that are cost-effective.
    For more information, see http://www.epa.gov/performancetrack.
                       Biography for Paul Gilman
    In April 2002, Dr. Gilman was sworn-in to serve as the Assistant 
Administrator for the Office of Research and Development which is the 
scientific and technological arm of the Environmental Protection 
Agency. In May 2002, he was appointed the Agency Science Advisor. In 
this capacity, he will be responsible for working across the Agency to 
ensure that the highest quality science is better integrated into the 
Agency's programs, policies and decisions.
    Before his confirmation, he was Director, Policy Planning for 
Celera Genomics in Rockville, Maryland. Celera Genomics, a bio 
information and drug discovery company, is known for having decoded the 
human genome. In his position Dr. Gilman was responsible for strategic 
planning for corporate development and communications.
    Prior to joining Celera, Dr. Gilman was the Executive Director of 
the life sciences and agriculture divisions of the National Research 
Council of the National Academies of Sciences and Engineering. The 
National Research Council is the operating arm of the National 
Academies which were chartered to provide independent advice to the 
government in matters of science and engineering. Dr. Gilman's 
divisions focused on risks to health and the environment, protection 
and management of biotic resources, and practical applications of 
biology including biotechnology and agriculture.
    Before joining the National Research Council. Gilman was the 
Associate Director of the Office of Management and Budget (OMB) for 
Natural Resources. Energy, and Science. There he coordinated budget 
formulation, regulatory, and legislative activities between agencies 
such as the Environmental Protection Agency, National Science 
Foundation, Agriculture, and Energy with the Executive Office of the 
President.
    Dr. Gilman served as Executive Assistant to the Secretary of Energy 
for technical matters before joining the OMB. His responsibilities 
included participating in policy deliberations and tracking 
implementation of a variety of programs including the Department's 
environmental remediation and basic science research.
    Gilman has 13 years of experience working on the staff of the 
United States Senate. He began that time as a Congressional Science 
Fellow sponsored by the American Association for the Advancement of 
Science in the office of Senator Pete V. Domenici. Later, as the Staff 
Director of the Subcommittee on Energy Research and Development, he was 
involved in the passage of the Nuclear Waste Policy Act of 1982 and 
oversight of energy technology and environmental research. Later he 
served as the chief-of-staff for Senator Domenici.
    Dr. Gilman matriculated at Kenyon College in Ohio and received his 
A.B., M.A., and Ph.D. degrees in ecology and evolutionary biology from 
Johns Hopkins University, Baltimore, Maryland.

    Chairman Boehlert. Thank you very much.
    Dr. Cue.

   STATEMENT OF DR. BERKELEY W. CUE, JR., VICE PRESIDENT OF 
PHARMACEUTICAL SCIENCES, PFIZER GLOBAL RESEARCH AND DEVELOPMENT

    Dr. Cue. I need to have my first slide, please.
    [Slide.]
    Good morning, Chairman Boehlert and Members of the House 
Science Committee. Thank you for the invitation to be here 
today to describe Pfizer's green chemistry program. I will 
summarize the written testimony I have already submitted.
    First, I will describe Pfizer's green chemistry activities 
and, in doing so, indicate how we believe these investments are 
paying off. I will also discuss what we believe are the 
environmental and human health benefits of pursuing green 
chemistry. I will address some important impediments to 
pursuing green chemistry solutions, and finally, I will share 
with you my views on the Green Chemistry Research and 
Development Act of 2004.
    First, let me begin by telling you about Pfizer. Pfizer was 
founded in 1849 in Brooklyn, New York. Today, we are the 
world's leading health care company, with more than 130,000 
employees worldwide and over $45 billion in annual sales. We 
have over 200 potential drugs in our R&D pipeline, and we spent 
over $7 billion in 2003 to discover, develop, register, and 
commercialize them.
    [Slide.]
    Pfizer is committed to a business model that is 
sustainable. Our environmental health and safety policy is 
based on the International Chamber of Commerce Charter on 
Sustainable Development. Sustainable development means meeting 
the economic, environmental, and social needs of the present 
without compromising the ability of future generations to meet 
their own needs.
    [Slide.]
    In 2002, Pfizer was the first U.S. pharmaceutical company 
to sign the U.N. Global Compact, committing us to nine 
principles on human rights, labor, and environmental 
performance.
    [Slide.]
    So what is green chemistry? I think several of you have 
already defined it the way I do. There are 12 principles that 
guide green chemistry, which is shown in this slide.
    [Slide.]
    Many chemists believe that the environmental gain usually 
comes at an economic cost. However, for every green chemistry 
principle, there is both an environmental and an economic 
benefit. Without a doubt, green chemistry has been a win-win 
proposition for Pfizer.
    [Slide.]
    Roger Sheldon, in 1994, reported that for every kilogram of 
drug produced in our industry, between 25 and 100 kilograms of 
waste are also produced. For those processes, we have 
redesigned--using green chemistry principles, we have been able 
to reduce this number to between five and ten kilos of waste, a 
five to ten-fold improvement. At typical commercial volumes, 
this equates to hundreds of thousands of kilograms of waste 
prevented each year for each product. This is a double economic 
benefit. We are not purchasing unnecessary raw materials or 
incurring the costs associated with treating and disposing this 
waste. Moreover, reducing the environmental profile of our 
processes removes potential health hazards from our 
environment.
    [Slide.]
    In 2002, Pfizer was awarded a U.S. EPA Presidential Green 
Chemistry Challenge Award for our improvements in the 
manufacturing process of sertraline with the following results: 
our manufacturing yield doubled, the benign solvent ethanol was 
now used for three of our conversions, almost 600 metric tons 
per year of solid waste and 250 metric tons per year of aqueous 
waste were eliminated. And as you can see in the lower left-
hand corner of the slide, the number and volume of organic 
solvents were dramatically reduced.
    [Slide.]
    We achieved similar results for our manufacturing process 
improvements for sildenafil citrate, the active ingredient in 
Viagra, and received a Crystal Faraday Award in the United 
Kingdom last year.
    Going forward, all Pfizer major drug product manufacturing 
processes are being evaluated for green chemistry improvements. 
Like any R&D activity, not all efforts will be successful, but 
when we are, the economic and environmental savings should be 
dramatic.
    [Slide.]
    Now let me address a couple of impediments. Today, there 
are very few students graduating with chemistry majors who are 
trained in, or even exposed to, green chemistry. So we are now 
educating our scientists about these principles. And to 
encourage this, teams with the best ideas are awarded an annual 
trophy, management recognition, and a cash prize to be donated 
to a college or a university of their choice to encourage green 
chemistry education.
    [Slide.]
    We are also reaching out to academic institutions near our 
R&D sites by hosting annual symposia where students are exposed 
to green chemistry with real-life case studies. They leave with 
a better understanding of how green chemistry is practiced in 
our industry.
    One question that has repeatedly surfaced in green 
chemistry discussions is whether consumers will pay extra for 
environmentally benign products. The general consensus is they 
will not. As to the questions for this specific legislation, 
our experience teaches that an integrated approach to green 
chemistry at Pfizer that coordinates all of our efforts is a 
more effective way to a green chemistry strategy.
    By analogy, this proposed legislation establishes a green 
chemistry R&D program to promote and coordinate federal green 
chemistry research, development, demonstration, education, 
technology transfer, and commercial application activities. 
These are all critical components of Pfizer's successful green 
chemistry program. The availability of merit-reviewed, 
competitive grants to support academic programs and promote 
education and training of undergraduate and graduate students 
in green chemistry should help to address the issue of lack of 
adequate green chemistry programs. And the charge of the 
Federal Government to create incentives for the use of green 
chemistry products and processes will help to address the issue 
of preferred treatment to--of companies who practice green 
chemistry.
    [Slide.]
    In closing, I would like to thank the Committee for your 
attention. I believe green chemistry has the potential to 
produce the greatest change in the way synthetic chemistry is 
practiced in at least the last quarter century. It is already 
redefining how chemistry is thought about and practiced at 
every stage of R&D and commercial manufacture at Pfizer.
    Thank you, again, for the opportunity to appear before this 
committee and to discuss Pfizer's green chemistry initiatives 
and the proposed legislation.
    [The prepared statement of Dr. Cue follows:]
               Prepared Statement of Berkeley W. Cue, Jr.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Good morning Chairman Boehlert and Members of the House Science 
Committee. I want to take this opportunity to thank you for the 
invitation to be here today to describe Pfizer's efforts around green 
chemistry and to help you understand why we believe green chemistry is 
a critical ingredient in our company's approach to corporate 
citizenship and in developing more efficient research processes.
    Over the next few minutes I will do my best to address three 
topics. First, I will describe Pfizer's green chemistry activities and, 
in doing so, indicate how we believe these investments are paying off. 
Also, I will state as clearly as I can what we believe are the 
environmental and human health benefits of pursuing green chemistry.
    I will address some important impediments to pursuing green 
chemistry solutions and provide some context to help the Members of 
this committee understand which areas could possibly benefit from more 
federal involvement in green chemistry.
    Finally, I will share with you my views on the Green Chemistry 
Research and Development Act of 2004.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    First, let me begin by telling you about Pfizer. Pfizer was founded 
in 1849 in Brooklyn New York. The majority of the penicillin that went 
ashore with the Allied forces on D-day was made by Pfizer using a novel 
deep vat fermentation process. Today, we are the world's leading health 
care company, with more than 130,000 employees worldwide, over $45 
billion in annual sales reported for 2003, more drugs rated number one 
in their therapeutic class in sales volume than any other company, we 
have over 200 potential products in our R&D pipeline and we spent over 
$7 Billion in 2003 to discover, develop, register, and commercialize 
these products. In addition to prescription human health care we have a 
large consumer health, or over-the-counter drug business and are ranked 
first in animal health care as well. I work in Pfizer Global R&D in the 
Groton, Connecticut Laboratories. There I lead the departments that are 
responsible for the design and optimization of the manufacturing 
processes for our active drug (API) and dosage forms such as tablets, 
capsules, and injectable formulations. I also lead the company's green 
chemistry efforts, working with colleagues around the world.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    When a company achieves this sustained level of success we are 
expected to provide leadership. Pfizer is committed to a business model 
that is sustainable. Our environmental, health and safety or EH&S 
policy is based on the International Chamber of Commerce Charter on 
Sustainable Development. The Brundtland Commission's report in ``Our 
Common Future'' in 1987 states that sustainable development meets the 
economic, environmental and social needs of the present without 
compromising the ability of future generations to meet their own needs.
    In 2002 Pfizer was the first pharmaceutical company to sign the 
U.N. Global Compact, committing us to nine principles on human rights, 
labor and environmental performance.
    Our purpose statement is to dedicate ourselves to humanity's quest 
for healthier, happier lives through innovation and our mission is to 
become the world's most valued company to patients, customers, 
colleagues, investors, business partners and the communities where we 
live and work. Green Chemistry helps make all of this achievable.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    So what is Green Chemistry? The best articulation I've found is the 
one proposed by Paul Anastas from the White House Office of Science and 
Technology Policy (OSTP) and John Warner, Director of the Center for 
Green Chemistry at the University of Massachusetts-Boston and a Pfizer 
consultant for green chemistry. ``Green Chemistry is the utilization of 
a set of principles that reduces or eliminates the use or generation of 
hazardous substances in the design, manufacture and application of 
chemical products.''
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


The Twelve Principles of Green Chemistry

         1.  Prevention: It is better to prevent waste than to treat or 
        clean up waste after it has formed.

         2.  Atom economy: Synthetic methods should be designed to 
        maximize the incorporation of all materials used in the process 
        into the final product.

         3.  Less Hazardous Chemical Synthesis: Wherever practicable, 
        synthetic methodologies should be designed to use and generate 
        substances that possess little or no toxicity to human health 
        and the environment.

         4.  Design Safer Chemicals: Chemical products should be 
        designed to preserve efficacy of function while reducing 
        toxicity.

         5.  Safety Solvents and Auxiliaries: The use of auxiliary 
        substances (e.g., solvents, separation agents, etc.) should be 
        made unnecessary wherever possible and, innocuous when used.

         6.  Design for Energy Efficiency: Energy requirements should 
        be recognized for their environmental and economic impacts and 
        should be minimized. Synthetic methods should be conducted at 
        ambient temperature and pressure.

         7.  Use Renewable Feedstocks: A raw material of feedstock 
        should be renewable rather than depleting wherever technically 
        and economically practicable.

         8.  Reduce Derivatives: Unnecessary derivatization (blocking 
        group, protection/deprotection, temporary modification of 
        physical/chemical processes) should be avoided wherever 
        possible.

         9.  Catalysis: Catalytic reagents (as selective as possible) 
        are superior to stoichiometric reagents.

        10.  Design for Degradation: Chemical products should be 
        designed so that at the end of their function they do not 
        persist in the environment and break down into innocuous 
        degradation products. For the Pharmaceutical Industry this 
        principle is especially challenging since we are required to 
        demonstrate our drug to be stable in the dosage form for the 
        shelf life of the product.

        11.  Real-Time Analysis for Pollution Prevention: Analytical 
        methodologies need to be further developed to allow for real-
        time, in-process monitoring and control prior to the formation 
        of hazardous substances.

        12.  Inherently Safer Chemistry for Accident Prevention: 
        Substances and the form of a substance used in a chemical 
        process should be chosen so as to minimize the potential for 
        chemical accidents, including releases, explosions, and fires.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

    Now I will address some of the benefits we have achieved by 
practicing green chemistry. The general perception among chemists who 
are not savvy about green chemistry is that the environmental gain 
usually comes at an economic cost. In this slide we demonstrate that 
for every principle there is both an environmental and an economic 
benefit. Thus, green chemistry supports our corporate citizenship to 
both environmental and economic performance. Without a doubt, it has 
been a win-win proposition for Pfizer.
    Pfizer has been practicing the principles of process development 
and optimization for a long time. When we became aware of green 
chemistry in the late 1990's it seemed to us that this approach offered 
several benefits. We found a strong level of alignment between our 
traditional approach to chemical synthesis and process optimization 
with many of the principles, as well as a new way of thinking about 
chemical at all scales--from milligram quantities in the laboratory to 
tens of thousands of kilograms produced commercially.
    An analysis of the performance of the pharmaceutical industry in 
terms of process efficiency published by Roger Sheldon in 1994 
determined that for every kilogram of drug produces between 25 and 100 
kilograms of waste are produced. For those processes where we have 
applied green chemistry principles we have been able to reduce this 
number to between 5-10 kilos of waste per kilo of product. A 5- to 10-
fold improvement! At commercial product volumes this equates to 
hundreds of thousands of kilos of waste prevented each year for each 
product where we have succeeded in finding a greener chemistry 
alternative. There is a double economic benefit here-we are not 
purchasing raw materials that are lost to unwanted byproducts and we do 
not incur the expense costs associated with treating and disposing of 
this waste.
    There may be some who believe zero waste is achievable. My view is 
that in preparation of complex organic molecules the production of by 
products is unavoidable. The goal of our chemists is to make this 
number as small as is technically feasible.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In 2002 Pfizer was awarded a U.S. EPA Presidential Green Chemistry 
Challenge Award for our improvements in the manufacturing process of 
sertraline hydrochloride, the active ingredient in our anti depression 
product Zoloft. Please note in the lower left corner of the slide, the 
substantial reduction in overall solvent usage as well as the complete 
elimination of the use of methylene chloride, a highly hazardous 
substance.
    Green Chemistry objectives were emphasized in the redesign of the 
sertraline process, resulting in quality chemical transformations with 
dramatic environmental and worker safety improvements. Manufacturing 
yield has essentially doubled. The benign solvent ethanol, obtainable 
from biomass, is now used for three synthetic conversions. The 
hazardous dehydrating reagent titanium tetrachloride was eliminated. A 
more selective catalyst now drives more complete conversion of the 
starting materials to racemic sertraline. In-situ resolution of the 
diastereomeric salts, through highly selective crystallization, is now 
used to produce pure S,S-sertraline. Overall, two intermediate 
isolations and a salt conversion step were eliminated.
    The environmental and safety improvements are dramatic. Use of 
approximately 140 metric tons/year of titanium tetrachloride and the 
generation of 440 metric tons/year of problematic solid titanium 
dioxide wastes were eliminated. Approximately 150 metric tons/year of 
35 percent HCl were eliminated. Neutralization of the highly acidic 
step 2, requiring approximately 100 metric tons/year of 50 percent 
NaOH, was eliminated. Consequently, high-salt waste streams are no 
longer produced. Dehydration additives and aqueous washes were 
eliminated, and the number and volume of solvents used were 
dramatically reduced. The efficiency of raw material, water, and energy 
use were dramatically improved.
    The EPA is to be commended for sponsoring this award, not because 
we received it in 2002, but because it is contributing to raising the 
visibility of green chemistry and contributing to a cleaner, safer 
environment.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    This slide demonstrates that, following green chemistry principles, 
similar dramatic improvements have been achieved for the manufacture of 
sildenafil citrate, the active ingredient in Viagra, our drug for 
treating erectile dysfunction. This improvement was recognized with a 
2003 Crystal Faraday Award, presented by the Institute of Chemical 
Engineering in the United Kingdom. The efficiency factor for this 
process is below 10, down from a typical 25 or greater for 
pharmaceutical manufacturing processes developed in the absence of 
green chemistry considerations.
    This year we have submitted three applications for U.S. EPA 
Presidential Green Chemistry Challenge Awards for improvements in the 
manufacturing processes to celecoxib, the active ingredient in our anti 
arthritis agent Celebrex, for quinapril hydrochloride, the API in 
Accupril for treating high blood pressure and for sildenafil citrate, 
which I already described. Going forward all, major drug product 
manufacturing processes are being evaluated for green chemistry 
improvement potential. Like any R&D activity, not all efforts will be 
successful, but when we are the economic and environmental savings can 
be dramatic.
    There are other benefits as well. Our leadership in green chemistry 
has improved our ability to attract and retain the best synthetic 
chemists in the marketplace. Today's graduating students are more 
environmentally conscious. They asked tough questions and we have good 
answers. Our green chemistry program allows us to communicate with 
external stakeholders about our commitment to corporate citizenship and 
sustainability. Last year we maintained our position in the 
pharmaceutical sector Dow Jones Sustainability Index, which enhances 
our shareholder value, in part because of our leadership in green 
chemistry.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Let me now address the question of impediments-focusing on three 
that are important to our industry.

1.  Academic training: Today, there are very few students graduating 
with chemistry majors who are trained in or even exposed to green 
chemistry. In the slide shown now we are investing a huge amount of 
energy to educate our scientists about the green chemistry principles 
and how they apply to our daily R&D efforts. We would be in a much 
better place if the chemists who joined our company were practicing 
green chemistry on the first day of work. In addition to active 
education we sponsor R&D site based awards to encourage green 
chemistry. In addition to a trophy and public recognition the 
recipients are awarded a cash prize, with the stipulation that they 
donate it to a college or university of their choice to encourage green 
chemistry education. The legislation you are considering today should 
help support more focus on green chemistry education at the college and 
university levels. There are a few schools that do this very well 
today: U. Mass.-Boston, Carnegie Mellon, University of Alabama, 
Washington State University, to mention some of them. More are needed.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    To address this issue Pfizer has begun a program of reaching out to 
universities near our R&D sites to host symposia where students are 
exposed to green chemistry in real life case studies. They leave with a 
better understanding of how chemistry is practiced in the 
pharmaceutical industry and how green chemistry contributes to R&D 
success.
    Another potential barrier to companies in our industry pursuing 
green chemistry solutions is the need to pay strict attention to the 
purity profile of the drugs we produce. By definition, an active 
pharmaceutical ingredient (API) is the active chemical and its normal 
process related substances (PRS's). This profile is established as part 
of the R&D process and is ``qualified'' as part of our preclinical 
animal safety studies and human clinical development experience. This 
profile is described in our regulatory submissions (New Drug 
Application in the U.S.) and establishes the ranges for our product 
quality specifications. Changes in the manufacturing processes can 
create new process-related substances, easily detectable using modern 
analytical tools. Presence of these new PRS's at higher than allowed 
levels could necessitate redoing significant portions of development 
work, a time-consuming expensive and risky proposition. Every company 
has instances where processes which produce higher yields of cleaner 
product with a much better environmental profile, but were not pursued 
further because of this barrier. Obviously, using green chemistry 
earlier will lessen, but not remove this risk. In this case the goal of 
the FDA and the EPA may not always be mutually compatible. It is very 
important that we retain the flexibility to make business decisions 
that weigh and balance business risks with potential benefits.
    One issue that has repeatedly surfaced in green chemistry 
discussions is whether consumers will pay for environmentally benign 
products. The consensus is that they will not.
    Executive Order 13101 was signed in September 1998. In section 102, 
it states, ``consistent with policies established by the Office of 
Federal Procurement Policy (OFPP) agencies will comply with executive 
branch policies for the acquisition and use of environmentally 
preferable products and services and implement cost-effective 
procurement preference programs favoring the purchase of these products 
and services.
    We believe that companies that produce products derived from 
manufacturing processes consistent with green chemistry principles 
should qualify for consideration under this Executive Order.
    As to the question of this specific legislation our experience 
teaches that an integrated approach to green chemistry at Pfizer that 
coordinates the efforts of R&D, Manufacturing and EH&S is a more 
effective way to create an effective green chemistry strategy. Prior to 
this we had a series of unconnected tactics, with no guarantee that we 
were gaining maximum benefit or that we were not seeing unnecessary 
duplication of effort.
    The proposed legislation establishes a Green Chemistry R&D Program 
to promote and coordinate federal green chemistry research, 
development, demonstration, education, technology transfer and 
commercial application activities. These are all critical components of 
Pfizer's successful green chemistry initiative. The availability of 
merit-reviewed competitive grants to support academic programs and to 
promote education and training of undergraduate and graduate students 
in green chemistry should help address the issue of lack of adequate 
green chemistry programs in academic institutions. The charge to the 
Federal Government to create incentives for use of green chemistry 
products and processes should help to address the issue I raised with 
respect to Executive Order 13101. Of specific interest to the 
Pharmaceutical industry would be the working relationship between this 
inter-agency group and reviewing chemists at the Food and Drug 
Administration. We believe that the levels of appropriation are 
appropriate for the initiation and sustaining of this program over the 
2005-2007 timeframe.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In closing I would like to thank the Committee for your attention. 
Green chemistry has the potential to produce the greatest change in the 
way synthetic chemistry is practiced in the last quarter century. It is 
already redefining how chemistry is thought about and practiced at 
every stage of R&D and commercial manufacture at Pfizer.
    My crystal ball is no better at discerning the future than 
anyone's, but my prediction is that at some time in the future a Nobel 
Prize in Chemistry will be awarded to a green chemist. Our CEO, Dr. 
Hank McKinnell is fond of telling Pfizer employees, ``the patient is 
waiting.'' In this context, it is clear that our environment is waiting 
too.
    Thank you again for the opportunity to appear before you today and 
discuss Pfizer's Green Chemistry initiatives and the proposed 
legislation.

                   Biography for Berkeley W. Cue, Jr.
    At Pfizer Dr. Cue is responsible for the departments (Analytical 
R&D, BioProcess R&D, Chemical R&D, Pharmaceutical R&D, Regulatory CMC 
and Pharmaceutical Sciences Business Operations) that comprise 
Pharmaceutical Sciences. He was a member of the Worldwide 
Pharmaceutical Sciences Executive Team, and the Groton Laboratories 
Leadership Team. He also leads Pfizer's Green Chemistry Initiative and 
has spoken extensively on this topic since 2000. Dr. Cue started in 
Pfizer in 1975 in the Animal Health Organic Chemistry Department. He 
transferred to the Process R&D Department of Developmental Research in 
1979. Became head of the PR&D Department in 1988 assumed responsibility 
for Analytical and BioProcess R&D as well in 1993 and US Developmental 
Research in 1998. Chaired the CVMD EDMT (1998-1999) and co-chaired the 
division's Performance Management Task Force (1992-1993). He received a 
BA from the University of Massachusetts-Boston (1969), his Ph.D. 
(Organic Chemistry) from the University of Alabama (1974), and 
completed Postdoctoral Research at the Ohio State University (1974), 
National Cancer Institute Research Fellow, University of Minnesota 
(1975). In 2000 he was appointed to the Science Advisory Board at the 
University of Massachusetts-Boston. In 2003 he was elected to the Green 
Chemistry Institute Board of Directors. Dr. Cue will retire from Pfizer 
in 2004 after almost 29 years. He intends to remain active in Green 
Chemistry through his affiliations with the Green Chemistry Institute 
and the University of Massachusetts-Boston.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Boehlert. Thank you, Dr. Cue. Pfizer has a good 
story to tell in its responsible approach to this subject, and 
I appreciate your telling it exceptionally well.
    For the purpose of introduction, I recognize the author of 
the bill and a leading voice in the Congress, Dr. Gingrey.
    Mr. Gingrey. Thank you, Mr. Chairman.
    I am very pleased to--actually to reintroduce Mr. Steve 
Bradfield from Shaw Industries in Georgia. And Steve, I 
understand your son is with you today, is that correct? Can he 
raise his hand? His name is----
    Mr. Bradfield. Drew.
    Mr. Gingrey.--Drew. We welcome you, too, Drew.
    Steve has been with Shaw Industries since 1991 and 
currently serves as Vice-President of Environment Development. 
And I am proud to have Shaw Industries in my home state, 
Whitfield County, Dalton, Georgia. It is not quite in my 11th 
Congressional District, but I am still working on that. Shaw 
won a 2003 Presidential Green Chemistry Challenge Award for the 
development of EcoWorxTM, carpet tile that is made from low-
toxicity feedstocks and is recyclable. Steve conceived and led 
that effort and continues to push Shaw's model cradle-to-cradle 
environmental statement throughout Shaw Industries. And I look 
forward to hearing from his expertise and experience on green 
chemistry.
    Thank you, Mr. Chairman.
    Chairman Boehlert. Thank you, Dr. Gingrey. That is a great 
introduction. And I am glad, Mr. Bradfield, that you brought 
Drew with you, because that is the very corner in our society 
that we are really anxious to get excited about this. So I am 
glad to hear him listening with wrapped attention to our 
witnesses.
    Mr. Bradfield.

     STATEMENT OF MR. STEVEN BRADFIELD, VICE PRESIDENT OF 
        ENVIRONMENTAL DEVELOPMENT, SHAW INDUSTRIES, INC.

    Mr. Bradfield. I would like to think, Mr. Chairman, that he 
is just enthralled by this, but I think the prospect of getting 
out of school for a couple of days was what swung him my way.
    Congressman Gingrey, Mr. Chairman, and Committee Members, 
it is an honor to be invited to share my comments with you 
today on the Green Chemistry Research and Development Act of 
2004. I am here more on the capacity of representing the 
industry today, quite frankly. I would like to make comments on 
the behalf of the Carpet and Rug Institute, and the many carpet 
members who are making such important strides, as well as Shaw, 
in this area. I have been asked to speak and communicate the 
outstanding efforts and collective comments of the industry in 
the area of green chemistry and sustainability.
    Good carpets begin with good chemistry. Over the years, our 
industry has consistently made changes to promote human and 
environmental health and safety. We did this before green 
chemistry and sustainability became watchwords for a very 
simple reason: it increased the desirability of carpet in the 
eyes of our customers and provided--and improved our 
profitability. Customer demand and profitability are the most 
enduring drivers of green chemistry and sustainability, without 
a doubt.
    Green chemistry has long been valued by the industry. Since 
1992, the CRI has administered a voluntary indoor air quality 
program, known as Green Label Certification. It is a 
cooperative effort between the carpet industry and its 
suppliers to eliminate and reduce chemicals of concern to 
levels that are far below the volatile organic compound 
emission rates of other interior building finishes. No other 
building material industry has committed this level of 
resources or achieved as much progress in indoor air quality 
improvement.
    With this experience in mind, we urge the Interagency 
Working Group to work closely with industry to set ambitious 
and realistic goals for ongoing green chemistry programs. It is 
often easy to lose sight of the value vested in the 
``willing,'' those who take up the challenge to develop 
materials that extend the reach of green chemistry, while the 
``unwilling'' remain anonymous and untouched by the effort to 
create a sustainable environment for our children. We are not 
suggesting penalties for the faint of heart. We believe that 
rewarding those that commercialize green chemistry developments 
with research and development grants, tax incentives, and 
preferential federal purchasing programs will drive the desired 
advances in green chemistry, in addition to the bill before 
you.
    To those of us in the manufacturing sector, green chemistry 
implies developments that are robust, that are additive to the 
value we bring to our markets, and are highly implementable. We 
believe green chemistry should be defined to include materials 
and process development. It should include pollution prevention 
that moves us to the paradigm of becoming ``less bad'' in the 
near term, but should look forward to the longer term 
development of ``closed-loop'' systems that can help us 
eliminate the very concept of waste.
    The carpet industry believes that green chemistry will 
proceed along two major pathways: nature's organic path, and 
man's synthetic/technical path. Both are valid and offer a 
variety of promising discoveries and inventions. Bio-chemicals 
and biopolymers offer exciting possibilities for agriculture 
and industry. Meanwhile, our continued reliance on oil-based 
materials assures that the resulting waste will be available as 
recyclable feedstock for synthetic closed-loop processes.
    Our industry has many commercialized examples of green 
chemistry at work. On the fiber side, Mohawk Industries and 
Beaulieu of America are taking post-consumer polyester drink 
bottles, which we have before you today, processing them into 
flake, and then re-melting and extruding the material into 
polyester carpet fiber, ready for spinning, dying, and tufting 
into residential carpet. Honeywell has developed a technology 
to recover the caprolactum monomer building block of nylon 6 
from post-consumer carpet. Invista collects post-consumer 
carpet and sends the dyed nylon into recycled uses, such as 
extrusion molded under hood car parts and geotextiles. Dow 
Cargill has developed a bio-based fiber, called polylactic 
acid, from corn. It is now being evaluated for residential 
carpet.
    We believe that industry has a valid role in helping to 
define a practical research and development agenda. We 
respectfully suggest that the Interagency Working Group 
undertake a survey of current environmental programs within the 
Federal Government to bring them up to date with the broad 
range of sustainability characteristics that will be impacted 
by green chemistry developments. These impacts are being 
defined and clarified through the use of life cycle analysis. 
Reliance on single environmental metrics, like recycled 
content, may actually result in a disincentive to green 
chemistry development in many circumstances. First generation 
polymers usually can not contain significant recycled content 
until a value recovery system returns them to second-generation 
manufacturing.
    New materials and processes are beginning to take root in 
our industry. Many carpet companies are recognizing that 
traditional thermoset materials can be replaced by 
thermoplastics, facilitating the recovery, re-melting, and re-
extrusion of tried and true materials, like vinyl. Collins & 
Aikman and Interface have developed systems for returning vinyl 
carpet tile backing to their backing processes. And as has been 
mentioned, Shaw was recognized for the 2003 Presidential Green 
Chemistry Award for developing a thermoplastic polyolefin 
carpet backing. The CRI Annual Sustainability Report includes 
many other industry developments and practices that reduce the 
environmental footprint of carpet through green chemistry.
    The Carpet America Recovery Effort, which is a nonprofit 
effort, including the carpet industry, the Federal EPA, state 
governments, and NGOs with the goal of diverting 40 percent of 
landfill waste by 2012, a very ambitious goal. Imagine a future 
when no carpet goes to a landfill but is separated into its 
constituent parts at the end of its useful life to be 
sustainably recycled over and over again. This is happening 
today with some carpet types, but not enough as yet is being 
diverted to significantly reduce the 4.5 billion pounds of 
carpet that reaches our landfills today. Green chemistry can 
help develop beneficial uses for these materials.
    Perhaps the most compelling reason to support green 
chemistry and the growth of sustainable materials and processes 
in carpet is jobs. Annual carpet production and consumption in 
the U.S. of $12 billion is equal to the rest of the world 
carpet production and consumption combined. Carpet jobs will 
stay in the U.S. if we can develop ways to keep post-consumer 
carpet material in sustainable closed-loop recycling systems 
that reduce the need for virgin raw materials and lower the 
energy embodied in successive generations of carpet. Why would 
any U.S. company choose to manufacture overseas if their 
valuable raw materials are being collected and recycled at 
lower cost, with no sacrifice of performance from American 
homes and businesses in close proximity to the means of 
production?
    The economic benefits of green chemistry are quantifiable 
in each of the examples given herein. As an industry, green 
chemistry has helped to reduce the water required for dying a 
square yard of carpet from 14.9 gallons in 1995 to 8.9 gallons 
in 2002. The energy requirement for thermal fuels used to make 
a square yard of carpet have fallen from 14.5 million BTUs in 
'95 to 10.3 million BTUs in 2002. Today, the carpet industry 
has the same level of CO<INF>2</INF> emissions it reported in 
1990, yet it produces 47 percent more carpet.
    Shaw's experience with green chemistry is representative of 
the developments that are ongoing in the industry. By way of 
illustration, Shaw's polyolefin carpet tile backing has fueled 
an average growth rate in Shaw carpet tile of almost 15 percent 
per year over the last four years. This growth provides 440 
jobs in our Cartersville, Georgia carpet tile facility and 
generates over $100 million annually in revenue. It has reduced 
packaging costs by 70 percent, shipping costs by 20 percent, 
and resulted in over $100,000 in annual post-industrial scrap 
recovery. The recovery of the post-consumer carpet tile will 
result in even more savings in the second generation.
    I brought some materials that have contributed to the 
success of this program, and with your indulgence, I am running 
a little later than most, but I would encourage you to take a 
look at these as you can. What I have for you here is basically 
recycled content nylon and metalacene catalyzed polyolefin. And 
gentlemen, these things will be very difficult to see from 
afar, but if you would like for someone to bring them up for 
you, I would be glad to do that. In addition----
    Chairman Boehlert. Perhaps your associate, Mr. Bradfield, 
Drew Bradfield, could bring them up, and we could pass them 
around?
    Mr. Bradfield. Drew would be more than happy to. We seem to 
have somebody who is coming up now. I can't get him to do 
anything at home, either, by the way.
    Fully oxidized fly ash is one of the components that 
replaces virgin limestone, which is mined from the Earth. Post-
consumer polyethylene from plastic bag waste, the post--and the 
post-consumer carpet tile processed into two raw material 
streams, the nylon stream to be depolymerized by nylon and 
returned to nylon production, and a polyolefin backing stream 
to be returned to backing extrusion. The point here is that 
what you have in your hands moving around is the entire carpet 
tile. None of these materials need ever reach a landfill if 
consumers will take advantage of the value recovery system at 
the other end of the toll-free number imprinted on the back of 
every carpet tile we ship.
    Other manufacturers share similar economic stories that are 
just as compelling. I have brought some other materials here. 
This is post-consumer polyester bottle flake.
    Chairman Boehlert. Appropriately green.
    Mr. Bradfield. Appropriately green today, so I don't get 
pinched. This clear version of this material, which would be 
from the bottle that we have here in front of us, can be used, 
as I said, to make polyester fiber for carpet. This green 
material has been problematic over the years, because there has 
not been a use. However, we have been able to spin this into 
fiber and make it into a carpet padding, which can be attached 
to the back of a carpet in today's market.
    In conclusion, the carpet industry supports the adoption of 
the Green Chemistry Research and Development Act of 2004 with 
the suggestions that Congress encourage a cooperative effort 
among government, academia, and business, that Congress seek 
additional incentives to reward companies, large and small, 
that commercialize green chemistry developments, that obstacles 
to the green chemistry process be removed from current federal 
environmental programs, and that adoption of green chemistry in 
the broader context of sustainable product development should 
become a primary instrument of pollution prevention policy. 
These goals are worthy of our collective investment of time, 
treasure, and talent. Distinguished Committee Members, I 
brought my 17-year-old son, Drew, with me here today from 
Dalton to let him know that it is his future, and his world, 
that will benefit from our efforts. I hope someday he may sit 
where you are, or where I am, with your sons and daughters to 
push green chemistry to greater levels of success than we can 
imagine here today.
    Thank you.
    [The prepared statement of Mr. Bradfield follows:]
                 Prepared Statement of Steve Bradfield
    Mr. Chairman and Committee Members, it is an honor to be invited to 
share my comments with you today on the Green Chemistry Research and 
Development Act of 2004. I represent the fiber, carpet, and rug 
manufacturer members of the Carpet & Rug Institute, headquartered in 
Dalton, GA, as Chairman of Sustainability Issues. I have asked to speak 
in this capacity to communicate the outstanding efforts, and collective 
comments, of our industry members is the area of green chemistry and 
sustainability.
    The carpet industry is one of the last bastions of US textile 
manufacturing. Our industry has maintained its long-standing 
relationships with the communities where we've lived and worked for 
four generations, and we intend to keep doing so. We've largely 
accomplished this through the development of material and process 
technologies that have resulted in continuous improvements in the value 
of soft floor covering. Technology development is the lifeblood of our 
industry.
    Good carpets begin with good chemistry. Over the years our industry 
has consistently made changes that promote human and environmental 
health and safety. We did this before green chemistry and 
sustainability became watchwords for a very simple reason--it increased 
the desirability if carpet in the eyes of our customers and improved 
profitability. Customer demand and profitability are the most enduring 
drivers of green chemistry and sustainability.
    While it can be argued that many environmental improvements date 
from 1985 with the advent of Toxic Release Index reporting, far more 
improvements have been driven by market forces. The permanence and 
efficiency of positive change driven by a free market cannot be 
underestimated. No regulations could have moved our industry so far and 
so fast in the direction of sustainable development.
    Green chemistry has long been valued by our industry. Since 1991 
the CRI has administered a voluntary indoor air quality program know as 
Green Label Certification. It is a cooperative effort between the 
carpet industry and its suppliers to eliminate and reduce chemicals of 
concern to levels that are far below the volatile organic compound 
emission rates of other interior building finishes. No other building 
material industry has committed this level of resources or achieved as 
much progress in indoor air quality improvement.
    We've raised the bar in the Green label Program three times since 
1991 and will soon raise it yet again to meet our pledge of continuous 
improvement and leadership on this green chemistry issue. But as with 
any voluntary program, these improvements are never fast enough or far 
enough to satisfy all stakeholders. We strongly urge the Interagency 
Working Group to work closely with industry to set ambitious and 
realistic goals for ongoing green chemistry programs.
    It is often easy to lose sight of the value vested in the 
``willing,'' those who take up the challenge to develop materials that 
extend the reach of green chemistry, while the ``unwilling'' remain 
anonymous and untouched by the effort to create a sustainable 
environment for our children. We are not suggesting penalties for the 
faint of heart. We believe that rewarding those that commercialize 
green chemistry developments with research and development grants, tax 
incentives, and preferential federal purchasing programs will drive the 
desired advances in green chemistry.
    We also encourage this committee to acknowledge the broad range of 
activities encompassed by green chemistry. To those of us in the 
manufacturing sector green chemistry implies developments that are 
robust, additive to the value we bring to our markets, and highly 
implementable. We believe green chemistry should be defined to include 
materials and process development. It should include pollution 
prevention in the classic sense of moving us toward the paradigm of 
becoming ``less bad'' in the near-term, but should also look forward to 
the longer-term development of ``closed-loop'' systems that move us 
into the ``environmentally good'' paradigms that allow us to mimic 
Mother Nature. Green Chemistry can help us to eliminate the very 
concept of waste.
    The carpet industry believes that green chemistry will proceed 
along two major pathways--nature's organic path, and man's synthetic/
technical path. Both are valid and offer a variety of promising 
discoveries and inventions. Bio-chemicals and biopolymers offer 
exciting possibilities for agriculture and industry. Meanwhile, our 
continued reliance on oil-based materials assures that the resulting 
waste will be available as recyclable feedstock for synthetic closed-
loop processes.
    Our industry has many commercialized examples of green chemistry at 
work. On the fiber side Mohawk Industries and Beaulieu of America are 
taking post-consumer polyester drink bottles, processing them into 
flake, and remelting and extruding the material into polyester carpet 
fiber ready for spinning, dyeing, and tufting into residential carpet. 
Honeywell has developed a technology to recover the caprolactam monomer 
building block of nylon 6 from post-consumer carpet. Invista collects 
post consumer carpet and sends the dyed nylon into recycled uses such 
as extrusion molded under hood auto parts and geotextiles. Cargill Dow 
has developed a bio-based fiber called polylactic acid from corn that 
is now being evaluated in residential carpet
    While universities, laboratories, and other basic research paths 
are a precursor to many of the applications of green chemistry that 
will find their way into our facilities, basic research alone will not 
change the way we manufacture and consume products. How will the 
research and development dollars granted by the agencies specified in 
the House Bill find their way into real solutions to real problems that 
face all Americans? How will priorities be established? We believe 
industry should have a voice in defining the research and development 
agenda.
    We respectfully suggest that the Interagency Working Group 
undertake a survey of current environmental programs within the Federal 
Government to bring them up to date with the broad range of 
sustainability characteristics that will be impacted by green chemistry 
developments. These impacts are being defined and clarified through the 
use of life cycle analysis. Reliance on single environmental metrics 
like recycled content may provide a disincentive to green chemistry 
development in many circumstances. First generation polymers usually 
cannot contain significant recycled content until a value recovery 
system returns them to second-generation manufacturing.
    New materials and processes are beginning to take root in our 
industry. Many carpet companies are recognizing that traditional 
thermoset materials can be replaced by thermoplastic materials--
facilitating the recovery, remelting, and re-extrusion of tried-and-
true materials like vinyl. Collins & Aikman and Interface have 
developed systems for returning vinyl carpet tile backing to their 
backing processes. Shaw was recognized with the 2003 Presidential Green 
Chemistry Award for developing a thermoplastic polyolefin carpet tile 
backing. The CRI Annual Sustainability Report includes many other 
industry developments and practices that reduce the environmental 
footprint of carpet through green chemistry (see www.carpet-rug.com).
    The Carpet America Recovery Effort (CARE) is a nonprofit effort 
including the carpet industry, the Federal EPA, State governments, and 
NGO's with the goal of diverting 40 percent of carpet landfill waste by 
2012 (see www.carpet-recovery.com). Imagine a future when no carpet 
goes to a landfill, but is separated into its constituent parts at the 
end of its useful life to be sustainably recycled over and over again. 
This is happening today with some carpet types, but not enough as yet 
to significantly divert the 4.5 billion pounds of carpet that went to 
our nation's landfills in 2003. Green chemistry can help to develop 
beneficial uses for the materials used to make carpet today and assure 
that steady progress is made toward sustainable materials that can go 
directly back into carpet production in the future.
    Perhaps the most compelling reason to support green chemistry and 
the growth of sustainable materials and processes in carpet is jobs. 
Annual carpet production and consumption in the U.S. of $12 Billion is 
equal to the rest of world carpet production and consumption combined. 
Carpet jobs will stay in the U.S. if we can develop ways to keep post-
consumer carpet materials in sustainable closed-loop recycling systems 
that reduce the need for virgin raw materials and lower the energy 
embodied in successive generations of carpet products. Why would any 
U.S. company choose to manufacture overseas if their valuable raw 
materials are being collected and recycled at lower cost, with no 
sacrifice of performance, from American homes and businesses in close 
proximity to the means of production?
    The economic benefits of green chemistry are quantifiable in each 
of the example given herein. As an industry, green chemistry has helped 
to reduce the water required for dyeing a square yard of carpet from 
14.9 gallons in 1995 to 8.9 gallons in 2002. The energy required from 
thermal fuels to make a square yard of carpet has fallen from 14.5 
million BTU's in 1995 to 10.3 million BTU's in 2002. Today the carpet 
industry has the same level of CO<INF>2</INF> emissions it reported in 
1990 yet it produces 40 percent more carpet.
    Shaw's experience with green chemistry is representative of the 
developments that are ongoing in the industry. By way of illustration, 
Shaw's polyolefin carpet tile backing has fueled an average annual 
growth rate in carpet tile of almost 15 percent per year over the last 
four years. This growth provides 440 jobs in our Cartersville, Georgia 
carpet tile facility and generates over $100 million in revenue. It has 
reduced packaging costs by 70 percent, shipping costs by 20 percent, 
and resulted in over $100,000 in annual post-industrial scrap recovery. 
The recovery of the post-consumer carpet tile will result in even more 
second-generation savings. Other manufacturers can share economic 
success stories that are just as compelling.
    In 1950 the carpet industry shipped 97 million square yards of 
carpet. In 2001 we shipped 1.879 billion square yards. Between 1965 and 
2001 carpet increased in price by 90.4 percent while the same time 
period saw an automobile increase 180.4 percent and a combined total of 
all commodities increased 315.4 percent. Over 80 percent of the U.S. 
carpet market is supplied by mills located within a 65-mile radius of 
Dalton, Georgia. Carpet is important to the economy of Georgia and the 
United States. Green chemistry is an important tool to facilitate its 
continued growth.
    In conclusion, we support the adoption of the Green Chemistry 
Research and Development Act of 2004 with the suggestions that Congress 
encourage a cooperative effort among government, academia, and 
business; that Congress seek additional incentives to reward those 
companies that commercialize green chemistry developments; that 
obstacles to the green chemistry discovery process be removed from 
current federal environmental programs; and that adoption of green 
chemistry in the broader context of sustainable product development 
should become a primary instrument of pollution prevention policy in 
the United States with the additional goals of job creation and 
economic improvement.

                     Biography for Steven Bradfield
    Steve Bradfield began his career in the commercial carpet industry 
twenty years ago gaining experience in sales, marketing, and technical 
and environmental development. He has been with Shaw Industries since 
1991 in both international and U.S. positions and is currently VP of 
Environmental Development.
    Steve leads Shaw in its journeyman development of customer-oriented 
cradle-to-cradle solutions to environmental concerns. He is active with 
the USGBC, the CARE Executive Committee, TFM Green Advisory Board, and 
the CRI Market Issues and Sustainability Committees. Steve conceived 
and led the effort to develop the 2003 EPA Presidential Green Chemistry 
Challenge Award winning EcoWorx polyolefin carpet tile backing at Shaw 
and continues to push Shaw's model cradle-to-cradle environmental 
statement throughout Shaw Industries. He has written many articles on 
sustainability for periodicals, including the peer-reviewed 
Environmental Science & Technology journal, and recently completed an 
interview with Michael Toms aired on National Public Radio as part if 
the ``Monticello Dialogues.''
    He is a graduate of Montana State University at Bozeman and 
considers himself an adventurous seeker of change. Early experiences as 
an archaeological dig volunteer, a deck hand on a tugboat on the 
Mississippi River, a roustabout on an offshore oil rig in the Gulf of 
Mexico, a cowboy on a Wyoming Ranch, and three years in strip mining 
coal in Southern Montana, have given him a unique perspective on 
environmental responsibilities and a passion for sustainable 
development. Steve is deeply committed to market-based implementation 
of industry-leading environmental technologies.
    Steve has traveled extensively all over the world in designing and 
marketing carpet and considers himself fortunate to have a much broader 
perspective of the diversity of the people and markets outside the U.S. 
However, enough is enough, and he is well pleased to now concentrate 
full time on opportunities for Shaw in environmental development in the 
U.S. He has been married to his wife, Christy, for twenty-five years, 
and has three teenage children that constantly challenge and delight 
him. Life is good, and getting better.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Boehlert. Thank you very much, Mr. Bradfield. And 
as the audience will note, we allowed you some extra time to go 
on, because I thought it was very important that we get this 
perspective from an industry guy, because so often what we do 
up here is viewed by those outside Washington, DC as anti-
business, anti this and anti that. That is all a bunch of 
nonsense. I mean, we are trying to--we recognize that the 
business community is the engine that drives the economy, and 
we want to work with you and so that you won't think that Mr. 
Bradfield is just another guy from industry, let me read a 
little bit here. ``Early experiences as an archaeological dig 
volunteer, a deck hand on a tugboat on the Mississippi River, a 
roustabout on an offshore oil rig in the Gulf of New Mexico, a 
cowboy on a Wyoming ranch, and three years of strip mining coal 
in Southern Montana have given him a unique perspective on 
environmental responsibilities and a passion for sustainable 
development.'' My one question of you is would you let Drew 
follow that same career path? And I won't ask for an answer 
right now, Mr. Bradfield.
    Now for words of wisdom from Troy, New York, it is my 
pleasure to introduce, from Renssalaer Polytechnic Institute, 
one of America's great institutions, Dr. Woodhouse.

 STATEMENT OF DR. EDWARD J. WOODHOUSE, ASSOCIATE PROFESSOR OF 
POLITICAL SCIENCE, DEPARTMENT OF SCIENCE & TECHNOLOGY STUDIES, 
                RENSSELAER POLYTECHNIC INSTITUTE

    Dr. Woodhouse. Thank you, Chairman Boehlert and Members of 
the Committee. I appreciate the opportunity to think with you 
this morning about what I see as an historic undertaking. It is 
very seldom that one finds the kind of vision and long-term 
hope that I see embodied in this bill, and I congratulate you 
for it. That is not to say I don't have a few recommendations 
to improve it.
    I am a political scientist, not a chemist. I have, over the 
past generation, made inquiries into what goes right and what 
goes wrong with a wide variety of technological endeavors: 
civilian nuclear power, pesticides, premanufacture notification 
for new chemicals, ozone depleting chemicals, presently 
nanotechnology and robotics, and a variety of other topics. My 
graduate students and I have been studying the green chemistry 
community for about seven years, trying to understand what the 
social barriers are to the implementation of the--of their 
findings and what slows down the movement of new ideas within 
the worlds of chemistry and chemical engineering themselves. So 
I want to just say a little bit about that, not because it has 
direct impact on your pending legislation, but because it may 
be of some use to you as you go forward in a variety of fronts 
on this over the next decade and more.
    The one thing that I have found in every area that I have 
looked at is that we radically underestimate the technical 
malleability, the capacity of engineers and other technical 
people to work with the stuff of the world in creative ways. 
Always under-estimated. We over-estimate the extent of which we 
have our social purposes lined up for the technical people to 
serve. So that whereas the technical capacities could be 
utilized for fantastic purposes rarely do they come anywhere 
close to what would be possible, because we don't have the 
political, social, and economic institutions and processes that 
will catalyze that, as well as could be achieved.
    Let me give an example. This morning, many of you started 
with decaffeinated coffee. How do they get the caffeine out of 
those beans? Well, it turns out that it is green chemistry. The 
supercritical carbon dioxide, which was mentioned by Dr. 
Bement, is a powerful solvent under the right conditions and 
can literally strip the caffeine out of the coffee bean, 
leaving the bean intact. The basic understandings about 
supercritical carbon dioxide are now approximately a century 
old. Why has it taken this long to move it into any purposes 
more important than decaffeinating coffee? That is a social 
mystery, not a technical one, primarily.
    Another example. There was a mention of the dry cleaning 
industry and the work being done at the University of North 
Carolina. Excellent work. If you sniff your suits or sweater 
when it comes back from the dry cleaners, you will notice a 
faint chemical odor. That is perchloroethylene, PERC, which is 
used as the solvent. It is extremely toxic. It is one of the 
main toxic constituents of urban air pollution. A day care 
center near me had to be closed recently, because it was 
located too near a dry cleaners. The children and the teachers 
were getting ill. Each time an employee opens the dry cleaning 
machinery, they get a sniff of that chemical.
    There is now a substitute: supercritical carbon dioxide. 
David Price, one of your colleagues, introduced legislation 
several years ago, which would have given tax credits to dry 
cleaners for switching over to the new equipment. In the 
Omnibus tax legislation of several years ago, that measure 
didn't make it out of Committee. The--one of the reasons--there 
were financial and other prudential reasons, no doubt, but one 
of the reasons was the Committee's staff and Members heard from 
not one interest group, not one constituent by phone, letter, 
or personal visit. The issue is simply not on the radar screen. 
And hence, what could have been a simple move to encourage mom 
and pop dry cleaners, who need the economic assistance if they 
are to shift away from a dangerous practice, they didn't get 
the help, they still don't have the help, even though the 
machinery is on the market. That is not atypical. I recognize 
it is outside the jurisdiction of this committee, but it is 
important to realize the social barriers, I think, and that is 
one of them.
    More generally, we have been interviewing green chemists 
around the world, and they say, over and again, that it is 
economic inertia and professional inertia that are the main 
barriers; it is not technical understanding and scientific 
uncertainty, although those play a role. Rohm and Haas, for 
example, has developed a biodegradable, water-soluble polymer, 
which would go in laundry detergent. It costs twice as much as 
the one now utilized. It is not being used. I asked the 
relevant person, ``Well, how much would it cost the consumer?'' 
They said about one penny per bottle of detergent. $4.01 
instead of $4. That is a lot of money, though, to Proctor and 
Gamble, probably $1 million a year, if you would figure out the 
number of bottles they sell. We need some way to figure out how 
to do what is sensible at that level. It is a mundane practice, 
not nearly as glorious as many of the research projects 
discussed here today. But that is a--that is the reality. 
Mattel promised to take polyvinylchloride out of their Barbie 
dolls. They recently reneged on that promise, despite the fact 
that Bayer Chemical provides an alternative, which would cost 
only five percent more. You know what the cost of plastic in a 
Barbie doll is relative to the sales price. It is a trivial 
amount, and yet, it is not being utilized.
    Professional inertia is almost as bad as economic inertia. 
If you think about the professors that you had who were using 
old lecture notes, not keeping up to date, you will have some 
idea of what I mean. The curricula at a major university near 
here, there is a one-credit course in green chemistry as the 
sole offering in the curriculum. Another department chair told 
me, ``There is no room in the curriculum.'' Another said he 
tried to get the changes, but his faculty said, ``That is not 
the way it is done at Harvard and Chicago.'' They require 
foreign languages at half of the American universities to get a 
Ph.D. in Chemistry, but no one requires a test in toxicology. A 
green chemist, not me, referred to what is going on as ``stupid 
chemistry,'' ``just bad design,'' ``profound failure.''
    I will conclude by just suggesting that the task, then, is 
larger than what can be done by a few million dollars for more 
research. None of us knows exactly how to bring it about. What 
we can do is to catalyze an inquiry and a discussion that aims 
for ``benign by design.'' Let us figure out how to use those 
tremendous technical potentials so that we aim to make each 
chemical safe enough for living things. I believe that that is 
chemically possible, even though most chemists today would say 
it is not.
    In conclusion, I have a couple of recommendations for your 
consideration. First, tax credits. The industry, we don't 
expect to get ice cream for free, why should we expect to get 
green chemistry for free? Contrary to what some of my 
colleagues on the panel have said, I believe there is a limit 
to what you can do that will actually make money. I think that 
some things do cost money. We need to figure out how to make 
that sensible for all parties concerned.
    Secondly, more precise requirements in the reports that you 
are asking for under this legislation. There is too much room 
for interested parties to make self-serving statements. Let us 
get some devil's advocates into the process who will look more 
closely at the claims, who will attempt to bring the 
stakeholders into communication, shall we say, with each other.
    Finally, I would suggest that you consider the possibility 
of tilting the funding more towards EPA. In my experience, the 
EPA Pollution Prevention Program is one of the best things that 
the Federal Government does.
    Thank you very much.
    [The prepared statement of Dr. Woodhouse follows:]
               Prepared Statement of Edward J. Woodhouse
    Chairman Boehlert, Ranking Member Gordon, and Members of the 
Committee, I thank you for inviting me to testify.
    I am a political scientist interested in understanding how to shape 
technological decision-making more wisely. I have been studying the 
social aspects of green chemistry and green chemical engineering since 
1998, funded in part by the National Science Foundation. My Ph.D. 
student, Jeff Howard, with funding from an EPA STAR fellowship, has 
been doing detailed interviews with green chemists, and I draw selected 
data and insights from his study.
    My purpose here today is to discuss barriers and prospects for 
moving from what might be called ``brown chemistry'' toward a greener 
chemistry featuring chemicals designed to be benign or close to it. I 
will begin with general considerations I think Members of Congress 
should be taking into account, then present three simple categories of 
green chemistry and the legislative opportunities in each, and conclude 
with some suggestions for further study.

General Considerations

    I start with a prediction: The 21st century will see the beginnings 
of a transnational phase out of chlorinated and other toxic synthetic 
chemicals. Economic considerations facing industry, slow-to-change 
university curricula in chemistry and chemical engineering, and 
citizens' ignorance about the potential for benign chemistry may delay 
the projected phase out well beyond the time period technically 
required. Evidence against toxic chemicals is accumulating 
relentlessly, however, and green chemistry and engineering potentials 
are developing, even if more gradually than one would wish. So the main 
question, it seems to me, is whether public policy will lead or lag.
    I congratulate the Committee for its farsightedness in generating 
the proposed Green Chemistry Research and Development Program, and I 
regret to report that I find outside this room a certain timidity and 
lack of vision with respect to the subject. I am sorry to say that most 
professors of chemistry and chemical engineering appear to be either 
uninformed or uninterested, and a few are outright opponents who 
believe that toxicity is the price for what they would call 
``progress.'' Professional associations such as the American Chemical 
Society and the American Institute of Chemical Engineers are 
rhetorically supportive of chemical greening, and even have a few 
modest programs; but they are not doing much at present to actually 
inflect the trajectories of their mainstream members. Even 
environmental organizations such as Sierra Club could be doing a lot 
more: The National Toxics Campaign and other groups have been pushing 
for ``clean production'' and Zero Discharge, which bear on Green 
Chemistry but do not put it front and center--perhaps partly because 
their members resonate with whales, orangutans, and other charismatic 
megafauna more than with molecules.
    Chemical technologies are highly malleable, however, and once it 
becomes widely understood that what we have been calling ``chemistry'' 
actually is a small and relatively backward subset of the chemical 
universe, the status quo will be on the defensive. The goal of a 
commendable chemical industry will be nothing less than to make 
everything using benign materials, and where toxicity cannot be avoided 
to draw on the services of medicinal and ecological chemists to design 
chemicals that rapidly decompose and are quickly excreted from living 
organisms. How closely that goal can be approximated, no one presently 
knows; what we can say for sure is that many technical achievements 
that seemed impossible have turned out not to be, in chemistry and in 
many other fields of science and engineering. With biocatalysis, 
nanochemistry, and other techniques not yet dreamed of but surely on 
the way, those who defend the 20th century's ``brown chemical'' way of 
doing things are pretty surely on the road to being discredited. Unless 
Congress intervenes, however, the transition could take many 
generations, with untold additional damage to living things around the 
world.
    Everyone acknowledges that contemporary technologies for producing, 
using, and disposing of chemicals create numerous hazards, some of 
which result in damages that have to be mitigated or compensated at 
high cost. There is a sense in which present practices of the chemical 
industry resemble the ``unfunded mandate'' that the Federal Government 
sometimes is accused of leveling on states: Business-as-usual 
concerning chemicals makes little provision for medical payments to 
those affected (except for chemical workers), and little provision for 
environmental and other damages (except via insurance). As is true of 
health problems caused by tobacco, many such secondary and tertiary 
costs of chemical usage are picked up not by the industry itself, but 
by state and federal medical programs, by medical insurance companies, 
and ultimately by taxpayers and those who are privately insured. It may 
be misleading, therefore, to think of new regulations on the chemical 
industry as creating new costs; rather, costs would be shifted onto 
producers and users of chemicals--what economists refer to as 
``internalizing'' such expenses by having them better reflected in 
prices. Tighter regulations would reduce or eliminate the present 
unfunded mandate that the chemical industry places on other businesses, 
government, and individual citizens.
    It also is worth considering whether there is a commercial risk of 
waiting to act that may be greater for the chemical industry overall 
than any one element of it will have an interest in perceiving and 
acting upon. In particular, the Swedish Chemical Inspectorate already 
has a list of 250 suspect chemicals that probably are on their way out. 
The German chemical industry long has paid greater attention to labor, 
community, and other social interests than do most U.S. firms. Some 
Chinese technological universities are making a greater commitment to 
green chemistry than has any U.S. university to date. Altogether, those 
who care about the competitiveness of the U.S. chemical industry might 
do well to take heed: If U.S. firms lag behind in moving toward green 
chemistry, given the long period for amortization of chemical plant and 
equipment, they may lose market share and endanger profitability during 
the catch-up phase.
    Another general consideration bearing on the legislation can be put 
in the form of a question: Why is there no explicit research on 
ethical, legal, and social implications (ELSI) of the $500 billion-
dollar chemical industry and its associated research infrastructure in 
universities and elsewhere? There have been set-asides or other ELSI 
initiatives in connection with nanotechnology, climate change research, 
and other recent technological inquiries. But not for chemistry, 
chemical engineering, and the chemical industry. Perhaps it could be 
said that there is plenty of environmental research already underway, 
even if not directly connected with chemicals? Just so. However, 
``chemophobia,'' as some industry insiders and chemists refer to the 
public's distrust for chemicals, grew to significant proportions in the 
late 20th century partly because most people feel excluded from 
chemical deliberations and choices. This may be a questionable 
perception, in that consumers do participate in choosing final 
products. We feel excluded, and we do not trust, and we do not 
understand--and somewhere in that triumvirate is a nontrivial problem 
concerning the relations of citizens with the chemical industry and the 
chemical science community. The green chemistry deliberations bring up 
the possibility of tackling the relationship between chemistry and 
society in a creative way by focusing on the social components 
explicitly.
    Finally, as Committee Members are aware, the amount of funding 
being proposed in the pending legislation is small compared with the 
magnitude of the problem--and the magnitude of the opportunity. Of 
course, there already are funds being expended, as the other witnesses 
have pointed out; and, of course incremental funds are a fine idea. So 
I do not really quarrel with the idea of adding to Green Chemistry R&D 
within the limits of what will be considered fiscally prudent. Still, 
looking toward the longer term, it is worth noting that although no one 
knows the exact number, there are some ten thousand toxic chemicals 
that may need to be replaced. Taxpayers this year are spending 
approximately one hundred times as much on nanoscience and 
nanotechnology research than will be spent under the new Green 
Chemistry legislation, despite the fact that, in my opinion, Green 
Chemistry is a more important problem and a more important opportunity. 
Some observers would go so far as to characterize the nanotechnology 
juggernaut as a set of techniques in search of a serious issue worthy 
of taxpayers' concern. I would not go that far. In the case of brown 
chemistry, however, we have a known problem of proportions far larger 
than the expenditures now being contemplated.
    I turn now to some more specific ideas concerning barriers to the 
greening of chemicals, and prospects for circumventing or lowering some 
of those barriers.

Three Categories of Green Chemistry

    Chemists divide their world into many technically interesting and 
important categories, such as solid state, lipid, and carbohydrate 
chemistry; for our purposes, however, there are just three main 
commonsensical categories of interest:

        1.  Green chemical techniques and products that industry may 
        voluntarily utilize because there are no added costs, and 
        sometimes even cost savings;

        2.  Well understood chemical processes and products that 
        industry probably will not voluntarily utilize, because they 
        are more expensive than current practices; and

        3.  Potential green chemistry techniques and products that are 
        not yet known or understood.

    The goals of public policy should be:

        1a.  To craft chemical education to make sure that chemists and 
        chemical engineers have the knowledge and skills to make good 
        use of available GC techniques that are already affordable in 
        category one;

        2a.  To encourage industry to utilize some of the ``too-
        expensive'' GC in category two--where a changeover would help 
        solve significant problems created by present chemical 
        technologies; and

        3a.  To invest in R&D within category three, in order to expand 
        the repertoire of green chemical techniques and products.

Green Chemistry Education Policy

    One of the most disturbing things I've observed in my research is 
how slowly the educational institutions are changing over to Green 
Chemistry. Not atypical is the situation at one technological 
university not far from here, where the GC curriculum consists of a 
single, one-credit course, team taught as a free-standing elective 
without any connection to the mainstream curriculum. When I asked a 
chemistry chairperson at a different university about some elementary 
steps his department could take, he replied, ``We do not have room in 
the curriculum.'' At another university, the chairperson tried to lead 
but his faculty refused to follow, saying ``That's not the way it's 
done at Harvard or Chicago.'' One indicator of the situation, as 
pointed out by a leader of the Green Chemistry movement, Chemistry 
Professor John Warner of the University of Massachusetts: About half of 
U.S. chemistry departments still require Ph.D. students to pass a 
qualifying exam in a foreign language, but not one requires equivalent 
proficiency in toxicology.
    Now, I acknowledge that meddling in university curricula is a dicey 
proposition; not trying to improve the situation seems irresponsible, 
however. What might legitimately be done? One thing we know is that 
hardly any university departments turn down funding. I expect that 
Members of this committee would be taken very seriously were some of 
you to approach the Ford Foundation or other major independent funding 
sources regarding a Green Chemistry education initiative, perhaps 
jointly with the National Science Foundation, the American Chemical 
Council, and other sources? Adding courses in ethics to chemistry and 
chemical engineering curricula might be the direction to head: One of 
the leading Green Chemists, Professor Terry Collins at Carnegie Mellon, 
has added a significant ethics component to the curriculum there, and 
advocates that it be added elsewhere.
    A parallel tack: Most universities depend on periodic renewals of 
their accreditation to certify to parents and others that the 
organization is recognized as offering an appropriate educational 
environment. At present, the accrediting organizations such as Middle 
States are not paying attention to whether universities continue to 
train chemists and chemical engineers in the older approaches or are 
training students in benign-by-design chemistry. The accrediting 
agencies should be paying attention, of course, and although I have not 
studied the matter I am confident that there is a way to encourage them 
to do so.
    A third glaring weakness in the training of chemists is that they 
do not have to pass through professional licensing, and even chemical 
engineers can be exempt from it if they work in industry. Those who do 
sign up for the professional licensing exam administered by the 
American Institute of Chemical Engineers. I was unable to secure 
cooperation of the AIChE in my attempts to study the test or the 
processes behind it, so my information is less complete than I would 
like. But study guides for the test have changed very little in the 
past decade, continue to give far more attention to economics than to 
environmental issues, and evince zero appreciation of the spirit or 
letter of green chemistry. This appears to be true partly because the 
AIChE licensing process relies on retired engineers who volunteer their 
time, rather than on forefront chemical engineering researchers. The 
Science Committee obviously does not control professional licensing, 
but chemistry-in-application involves not high-profile researchers but 
rather ordinary chemical engineers. If they are to function, in effect, 
as society's delegates in the chemical plants, we need some way to 
persuade and incentivize them toward greener chemicals.
    In short, there are some social barriers to better GC education 
that are not immediately apparent, and that may not yield readily to 
research grants or even graduate fellowships. It would be worth a 
patient inquiry into the matter by those with relevant expertise and 
access, perhaps as part of the report requested by the pending 
legislation.

Category 2: GC Affordability and Uptake for Industry

    Some of the most knowledgeable advocates for GC speak as if the 
transition process might be pretty much automatic: Develop the 
knowledge, and industry will utilize it. I am a bit skeptical of that, 
as I expect you are. There already is a repertoire of GC knowledge that 
is ready, but is not being used; and knowledge of that sort is certain 
to increase as chemical researchers push beyond present understandings 
of the GC universe.
    One example is a water-soluble, biodegradable polymer that the Rohm 
& Haas Chemical Company developed for use as a brightening agent in 
laundry detergent. Despite seven years of effort and proven results, 
the industry continues to use the old non-biodegradable brightener, 
because the new one would cost about twice as much per ton. When I 
asked how that would translate at the consumer level, the chemical 
executive replied, ``About one penny''--raising the price of a bottle 
of detergent from $4.00 to $4.01. For Procter and Gamble, however, that 
might amount to a million dollars a year if they have to absorb the 
price increase (which they would not, if every company were required to 
use the new method).
    Technology-forcing statutes of the sort used to reduce air 
pollution probably are the way to tackle issues of this sort, along 
with tradable pollution permits, scalable excise taxes, and tax 
credits; but I realize that such matters are outside the jurisdiction 
of the Committee on Science. I just want to let you know some of the 
economic and other barriers I perceive to chemical greening, so that, 
over time, you can do whatever seems feasible within your domain.
    For example, recognizing the barriers to industry participation, 
the Committee already has taken the laudable step of including chemical 
engineering research in the pending bill. Still, given the relatively 
higher status of chemistry, it seems to me likely that chemists will 
garner the lion's share of the funding. That's fine, if long-term, 
basic research is really what we want to stimulate. I wonder, though, 
if more nearer-term engineering efforts might be designed to help move 
category two knowledge into category one, so that the odds of it being 
adopted by industry would go way up. This would involve reworking known 
chemical processes to be greener with the lowest possible incremental 
costs. Because down time is such a no-no in the industry, for example, 
any ways of minimizing it translate pretty directly to the bottom line. 
Engineering researchers may be able to figure out how to minimize 
disruption of existing chemical production plants, equipment, and 
processes. Some of the EPA and NSF programs already are doing this, I 
acknowledge, but they are mainly directed at solvent replacement rather 
than more complex matters.
    I know that many people are reluctant to ``pay industry'' for doing 
things ``it should do on its own,'' however I would urge that in 
setting up the GC research efforts under this bill that your committee 
establish relatively permissive guidelines. Some of the people who are 
best positioned to move GC knowledge from category two into category 
one are those with closest ties to the industry. If they chose to 
participate in R&D under this bill, I for one would be thrilled rather 
than dismayed. The draft of the bill I initially read seemed to be 
heading more in the direction I would favor than the latest draft, 
which has removed the term ``commercial application'' in quite a few 
places. I realize that the matter is a thorny one involving 
jurisdictional issues, and that the boundary between industry-funded 
and government-funded endeavors has implications for many aspects of 
the federal budget. Nevertheless, I recommend that you consider tilting 
toward greater support for industrial R&D than might normally be 
appropriate for federal funding of applied research.
    The education (or mis-education) of chemists and chemical engineers 
plays a role in this category also: Not many of our recent graduates 
are prepared to figure out technically and economically feasible 
alternatives to the chemical status quo. Just as importantly, they are 
not operating within a Green Chemistry mind set, and hence are not 
likely probe very intensively to create new ways of working with 
chemicals. Note that this way of thinking about chemical greening means 
that accountants, managers, and attorneys also get drawn into analysis 
of corporate choices regarding chemical products and processes--
implying that, at least in principle, one should be thinking about the 
education and ongoing training of persons holding such roles. It makes 
sense initially to suppose that it all comes down to formulas and other 
relatively straightforward analysis; in fact, it is the culture and 
psychology of the relevant disciplines and businesses that is as much 
at issue. None of us well understands how to go about intervening in 
such complex social phenomena, of course, so my point is merely that we 
need to be acting so as to turn out much larger numbers of greener 
chemists, chemical engineers, and others as a way of seeding the 
industry. In the interim, a great many opportunities for changing 
chemical pathways, processes, and products may be missed by those 
operating under the old governing mentality green chemicals are 
technically impossible or unacceptably expensive.

Category Three: Funding Forefront Green Chemistry Research

    I actually have the least to say about this category, even though 
it probably is the one that comes to mind most readily when one thinks 
about stimulating R&D in an emerging field. Certainly it is easy to 
catalyze more Green Chemistry; if you provide the funds, researchers 
will indeed create justifications for obtaining the money.
    Green chemistry is a bit like the Nixon ``War on Cancer'' or the 
current holy grail, nanotechnology: Many existing chemistry projects 
can be tweaked so as to qualify for the new funding. That's not bad, in 
a way; however, if what one really wants is to catalyze breakthroughs, 
I'm not sure we know right now how to design a program to achieve that. 
There's usually something to be said for learning by doing, and one can 
interpret in that way the three years of funding that would be 
authorized via the proposed legislation. I do not object to that 
exactly, but I have seen NSF dispense sums greater than I considered 
warranted--as in the current round of funding for nanotechnology 
education proposals I just reviewed last month. Hence, I wonder if 
there might be a way to at least get a prioritized research agenda at 
the end of the three years as part of the report to Congress required 
by the proposed bill.

Further Study of Social Barriers and Prospects

    The general provisions for further study in the proposed bill make 
good sense to me. However, either as part of the bill itself or during 
its implementation, I would like to see some fine-tuning along the 
following lines.
    First, as suggested earlier in the discussion of ethical/legal/
social implications, social science and policy are not ruled out by 
your proposed wording, but neither are they made as central as the 
situation may justify. Of course there are important scientific and 
engineering issues that need to be studied; but much of what stands in 
the way of chemical greening is social and economic in nature.
    That said, I am no fan of the ELSI set aside as part of climate 
change research, because too much of the money went for relatively 
trivial investigations. I have to admit, however, that a three percent 
or five percent set aside does draw the attention of social scientists, 
historians, and environmental philosophers, and we need some way of 
getting more of them to attend to the brown/green chemistry problem/
potential. It is odd to have a problem and opportunity of the magnitude 
of Green Chemistry with so little systematic social analysis available, 
and I would like to see this committee catalyze enough study that when 
you reconvene for a renewal hearing on this legislation, a lot more 
social scientists knows something about the subject.
    Second, the state of policy thinking on the subject is rudimentary. 
To my knowledge, there literally is no one who has systematically 
studied the matter, and no organization equivalent to the former Office 
of Technology Assessment has drawn in the relevant stakeholders for 
sustained discussions. Foundations are not funding or studying the 
problem in the way that the Heritage Foundation, Brookings, and 
American Enterprise study so many important matters of public policy. 
Environmental economists are applying their increasingly refined skills 
to many environmental issues, but not to brown/green chemistry.
    Third, and closely related, the problem of brown chemistry is only 
about ten percent a matter of shortages in supply of technical 
knowledge--and about 90 percent lack of demand for an alternative to 
brown chemistry. This committee's jurisdiction obviously pertains to 
the improvement of science and technical knowledge, not to regulation 
of the chemical industry. However, this committee may have an 
indispensable role to play in catalyzing interest by other relevant 
committees, ones with more regulatory authority over the subject of 
chemicals. It is of course a dicey matter of how to handle such intra-
congressional matters, and I have no wisdom to offer superior to the 
tacit knowledge you have acquired.
    I would urge you not to underestimate the bully pulpit role, 
however. We associate it with the presidency, especially as popularized 
by the first Roosevelt; yet most governance is partly a matter of 
persuasion, and persuasion is largely about good reasons when monetary 
or other inducement has little bearing, as in intra-congressional life. 
How might this committee use its staff, use its connections in the 
relevant industries, use its Members' connections with other 
committees, and use whatever one-on-one connections there may be with 
other relevant legislators, industry executives, and executive branch 
personnel? Such matters rarely are brought up directly in hearings, of 
course, and yet they occur daily in governmental life. I wonder if 
there isn't a way to make enrollment of other committees in an overall 
push for greener chemistry a higher priority?
    One example of the kind of policy proposal that would galvanize 
industry demand for Green Chemistry would be a revenue-neutral tax and 
subsidy program. Place an excise tax on sales of some of the most 
suspect categories of existing chemicals, perhaps scaled by industry 
itself based on estimated risks, and give the funds back to chemical 
companies as tax credits for innovations in benign chemicals. In 
effect, the innovative companies would be paid by the laggards. 
Inasmuch as the largest companies in the industry tend to have the best 
R&D staffs, and hence are most capable of using technological 
leadership for competitive advantage, a side effect of the policy 
probably would be to accentuate the comparative advantage of the most 
dynamic companies. Among other results, this might better position them 
for international competition if a transnational phase out of 
chlorinated hydrocarbons should eventuate.
    Finally, it seems to me that the Green Chemistry case raises 
questions about how public-interest science gets done in the U.S. We 
proceed as if it were a nonpartisan search for truth, when we all know 
that ideology, careerism, narrow-mindedness, and habitual thinking are 
common in science as in other human endeavors. As Michael Crichton 
expressed the point,

         Just as we have established a tradition of double-blinded 
        research to determine drug efficacy, we must institute double-
        blinded research in other policy areas as well. Certainly the 
        increased use of computer models, such as GCMs (global climate 
        models), cries out for the separation of those who make the 
        models from those who verify them. The fact is that the present 
        structure of science is entrepreneurial, with individual 
        investigative teams vying for funding from organizations that 
        all too often have a clear stake in the outcome of the 
        research--or appear to, which may be just as bad. This is not 
        healthy for science.

         Sooner or later, we must form an independent research 
        institute. . .funded by industry, by government, and by private 
        philanthropy, both individuals and trusts. The money must be 
        pooled, so that investigators do not know who is paying them. 
        The institute must fund more than one team to do research in a 
        particular area, and the verification of results will be a 
        foregone requirement: teams will know their results will be 
        checked by other groups. In many cases, those who decide how to 
        gather the data will not gather it, and those who gather the 
        data will not analyze it. (Crichton 2003).

    I find his expression of the idea a bit formulaic, but the core 
insight has merit. We are in the state we are, trapped in Brown 
Chemistry, partly because chemists and chemical engineers worked first 
of all for industry, secondly for themselves and their organizations, 
and only thirdly for the public. They operated as insiders, not with 
bad intent but with bad effect, and the arrangement made perfect sense, 
in a way, considering who was paying. There is a sense in which 20th 
century chemistry and chemical engineering did not go through 
sufficiently rigorous ``social purposes review'' with respect to basic 
considerations about brown versus green design of chemicals. If 
Congress and the citizenry want a different sort of chemistry, and a 
different sort of public-regarding science more generally, it might 
make sense to face up squarely to the fact that genuine accountability 
may require more sophisticated arrangements than we now have.

Conclusion

    In recent interviews, Jeff Howard asked a half dozen of the world's 
leading Green Chemists about impediments to chemical greening. By a 
wide margin, they said that ``economic inertia'' was the most 
significant barrier and ``professional inertia'' came second. 
Scientific uncertainty and other technical matters were rated as 
important but lesser barriers. In other words, social factors are more 
important barriers than purely technical ones.
    Although I strongly support the legislation pending before this 
committee, therefore, I recommend thinking of it as one step in a long 
process. For the future, I recommend that the Committee consider ways 
to:

        <bullet>  Increase funding (including tax credits) well beyond 
        what is presently feasible;

        <bullet>  Look into some of the mundane aspects of Chemistry 
        and Chemical Engineering education, in order to catalyze 
        curricular change, promote chemical ethics education, revise 
        university accreditation procedures to enhance social 
        responsibility, and improve professional licensing;

        <bullet>  Draw social scientists and ethicists into study of 
        Brown/Green Chemistry;

        <bullet>  Stimulate chemical engineering economics research to 
        prepare the way for industry adoption of Green Chemistry 
        techniques;

        <bullet>  Go outside the established funding agencies and 
        advisory mechanisms for policy analysis bolder than what can 
        make it through the traditional procedures;

        <bullet>  Use the Brown/Green Chemistry case to reconsider how 
        to arrange much more sophisticated public-interest science;

        <bullet>  Envision a long-term process via which this committee 
        plays a leading role in helping humanity re-vision its 
        relations with chemicals.

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
                               Discussion

    Chairman Boehlert. Thank you, Dr. Woodhouse, and thank you 
for those suggestions and the excellent testimony. I have got a 
suggestion for you. You tell a story exceptionally well. I 
would hope that you would consider doing some thoughtful op-ed 
pieces, because part of the problem is that the public needs to 
be educated in this area. And some of the examples you gave are 
outstanding examples. And some op-ed pieces would, I think, get 
people's attention. So thank you very much for that testimony.
    The Chair will yield the Chair to the author of the 
legislation, Dr. Gingrey. I have to take leave for a few 
moments, and he will lead off with the questions, and then he 
will recognize Ms. Johnson.
    Mr. Gingrey. [Presiding.] I thank the Chairman and I thank 
the witnesses for their testimony.
    Let me just start off the questioning, and this actually 
will be for all five of the panel members. Hopefully, you will 
want to comment. In what ways do you think that this bill, H.R. 
3970, would accelerate adoption of green chemistry in the 
private sector? And please describe the elements of the bill 
that you think will have the greatest effect. And we can start 
with Dr. Bement.
    Dr. Bement. One program at the National Science Foundation 
that, I think, has a great potential in that regard is our work 
in entrepreneurship and innovation--partnerships and innovation 
that link the private sectors with universities, and especially 
small start-ups, because this is an area that is evolving very, 
very rapidly. There is a very broad, rich spectrum of research 
going on at universities right now that have potential 
economic, as well as environmental, benefit. And what is needed 
right now is to compress the lead-time of getting some of these 
new concepts into the marketplace. And I think that these types 
of partnership programs would be most useful.
    Mr. Gingrey. Dr. Gilman.
    Dr. Gilman. I actually think one of the benefits of funding 
research, as you have proposed, is the spillover that happens 
in places of education with doctoral and undergraduates being 
introduced to the field of research. I think as they find their 
way into industry, the folks who have an understanding and the 
knowledge about the use of these approaches, green engineering 
and green chemistry, make it easier for the private sector to 
adopt those approaches. So I think that is an indirect benefit 
of what you are proposing to do with the legislation.
    Mr. Gingrey. Dr. Cue.
    Dr. Cue. I see three potential benefits to this 
legislation. First and foremost, I think it brings the Federal 
Government focus to green chemistry that has been too 
infrequent in the past. Like many in my generation, I went into 
science because our national leaders challenged us in the 
early--late 1950s to respond to the embarrassment of Sputnik. 
And I believe that a similar challenge to industry and to 
academics will generate the same response in green chemistry. 
Specifically, this is going to dramatically, I believe, improve 
the situation with regard to students going into green 
chemistry and academia, because more money will be available to 
have that happen; more universities will have green chemistry 
programs, and companies like mine will be hiring chemists, who, 
from day one, know about green chemistry and can practice green 
chemistry principles.
    I also believe this is an opportunity to better integrate 
government, industry, and academic activities around green 
chemistry.
    Mr. Gingrey. Thank you.
    And Mr. Bradfield.
    Mr. Bradfield. I would say that solid science is absolutely 
critical to changing some of the economic and professional 
inertia that Dr. Woodhouse was speaking about before. We 
absolutely can not go forward without the kind of cooperative 
projects between the universities and industry that are going 
to provide that kind of scientific foundation. It also sends a 
signal to stakeholders that we have a concern in the case, the 
Federal Government, and the value of that can't be 
underestimated.
    Mr. Gingrey. Thank you.
    And Dr. Woodhouse.
    Dr. Woodhouse. I like the part about expanding the 
education and training of undergraduate and graduate students. 
How to achieve that, however, is an interesting question. And 
one of the possibilities that I would recommend to you is to 
consider the possibility--whether or not there may be 
connections that Members of this committee have with Ford 
Foundation and other groups of that nature so that you could 
use your symbolic capital in a way that would greatly magnify 
the funding that you can otherwise provide so that university 
departments rarely turn down offers of funding. And yet without 
very substantial offers of that kind, I fear that chemistry and 
chemical engineering professors will not take the time and 
effort to retool their curricula. And so I would look for 
creative ways to leverage that don't cost federal dollars.
    Mr. Gingrey. And if I could ask just a real quick follow-up 
before yielding to the Ranking Member, H.R. 3970 authorizes an 
interagency research and development program. And do you think 
that greater federal investment in green chemistry R&D would 
actually increase adoption of green chemistry by industry? 
Anyone?
    Mr. Bradfield. I would say absolutely. One of the things 
that we find today is we have to cast about--out in the 
marketplace, in cooperation with university partners, for 
grants in order to find the way to fund a lot of these things, 
which are--will underpin the ultimate green chemistry that 
finds its way into practical applications in industry. These 
are basic research projects that would have applicability to a 
wide range of industries, and not necessarily to any particular 
industry or industry player, such as Shaw Industries. We 
believe that those are the kinds of things that should be done 
as a cooperative effort between academia and government and the 
industry. Anything over and beyond that, we, as individual 
companies, should be willing to fund and invest in on our own. 
But it creates a tremendous base of understanding in basic 
research.
    Mr. Gingrey. Thank you.
    Dr. Woodhouse. I see this as being not solely about 
formulas and tactics, but about being--regarding hearts and 
minds, vision, worldview. What is it that humanity ought to be 
aiming for? And so in that sense, it may be that the particular 
research that is catalyzed is less significant than the signal 
that is sent regarding the importance. I believe there will be 
the beginnings of a trans-national phase-out of many of the 
most toxic chemicals in the 21st century. We are not ready for 
that. We can get readier by some of the research that this will 
catalyze. So I think both the tangible and the intangible 
matter here a great deal.
    Mr. Gingrey. Thank you very much.
    And I see my time is expired, so at this point, I will 
yield to my friend from Tennessee, the Ranking Member, Mr. 
Gordon, for his question. Thank you.
    Mr. Gordon. Thank you.
    And this is a question for the panel at large. In addition 
to the benefits that this bill will provide, what other federal 
actions could be taken that would accelerate the adoption of 
green chemistry? We will just start at the--my left and work 
around.
    Dr. Bement. Yes. Thank you, Mr. Gordon. As you know, there 
is plenty of incentive these days to develop as much leverage 
of available research and development resources as is possible, 
especially with tight budgets. The opportunities in research, 
especially in green chemistry, are far greater than the amount 
of resources. So we have been incentivized for several years in 
working closely with EPA, with the Department of Energy, and 
with NIST in trying to get more output, more outcome, for the 
amount of R&D investment----
    Mr. Gordon. Okay, but what additional federal actions could 
we take? What would you recommend, additional actions beyond 
this bill that would accelerate the process?
    Dr. Bement. Quite frankly, I can't really come up with 
anything highly creative other than----
    Mr. Gordon. Okay. That is all right.
    Dr. Bement.--what is currently being done.
    Mr. Gordon. That is fine. Let us just work on down the 
Committee and see if we do have some creativity here somewhere. 
Anyone else have any suggestions? Yes, sir.
    Dr. Cue. Within the pharmaceutical industry, one of the 
challenges that we face in applying green chemistry solutions 
to existing manufacturing processes is if we change the 
manufacturing process, we almost always change the purity 
profile of our product. That could require, in many cases, 
redoing expensive development studies in order to prove to the 
Food and Drug Administration that our products are safe. And 
that is an issue that I have no solution to addressing, but 
clearly, I believe, is something that we need to address, at 
least in the pharmaceutical industry, as we go forward. How do 
we act on these new scientific discoveries in a way that allows 
them to be incorporated without altering the quality of our 
products?
    Mr. Gordon. Yes, sir. Go ahead.
    Mr. Bradfield. Several things could help, from an industry 
point of view, and my--and in my view. Certainly tax credits 
are always welcome in trying to put new investment out there, 
which may or may not pay off. We take a tremendous risk when we 
put a couple hundred million dollars into a program for which 
we may actually get no return whatsoever. In the case of Shaw 
and EcoWorxTM, we got tremendous payback on that product. And 
the public got good value. Federal purchasing, based on 
multiple environmental impacts versus single impacts, like 
recycled content, would be extremely helpful in helping to 
understand exactly what all of the impacts are of development, 
not simply a one-dimensional impact.
    And then, of course, one of the things that we see 
happening today is many people are rushing to put standards in 
place for environmental programs, and yet we don't know enough. 
We don't have enough good science yet to do anything more than 
offer those as guidances. And so I think there is rush to 
judgment, in some ways, to put hard and fast standards in at 
the federal level. It needs to be mitigated a little bit by 
that caution of saying, ``We may know tomorrow more than we 
know today. Let us take a slow approach here.''
    Dr. Woodhouse. In the nanotechnology legislation this 
committee was largely responsible for, you had thoughtful 
consideration about public participation. And it seems to me 
that something analogous to that could be beneficial in the 
green chemistry case. It is not as obvious, since it is a 
different phenomenon, how to go about it, but the environmental 
interest groups are not paying the attention to green chemistry 
that they ought to. Journalists are not paying the attention to 
green chemistry that they ought to.
    Mr. Gordon. But that is not federal action; I am asking----
    Dr. Woodhouse. I am----
    Mr. Gordon. Okay. You will get there.
    Dr. Woodhouse. Yes. I hope so. The social scientists are 
not--very few social scientists have been--in history of 
science, for example, history of 20th century chemistry, is one 
of the least represented fields. So one of the things I would 
consider catalyzing is additional social science attention and, 
more generally, social attention to the phenomenon. And that is 
something that sometimes funding of the sort that is targeted 
set aside can assist with. So the ethical, legal, and social 
implications programs that go with some federal science bills, 
might be worth considering.
    Mr. Gordon. All right. Let me just, finally--let us assume 
that we have a consumer epiphany here in this country, and they 
go to the industries involved here and say, ``We have just got 
to have,'' you know, ``green products. We just can't live 
without them, and we are going to pay you more for them, and so 
please get them out on the market.'' So that happens. But what 
happens so oftentimes then is that it is still going to be more 
expensive. Third-world countries are going to say, you know, 
``You have made yours. You can afford to do this. We can't, so 
we are not going to go forward.'' So how do we deal with this 
on an international basis? Anybody have any suggestions?
    Mr. Bradfield. I think there are a couple of things that 
work there, Mr. Gordon. The third-world problem is, and it is a 
thorny one, as you well know as legislators. It has been said 
that between--we would need between 4 and 4.7 planets the size 
of the Earth in order for everyone around the globe to enjoy 
the same level of standard of living that we do here in this 
country. And you can imagine what a tremendous drain that would 
be on the resources almost overnight. That would put us in a 
cataclysmic situation.
    What we have to do is be willing to share best practices 
and to transfer technology, in my opinion. We can not afford 
for other countries to go through the learning curve that we 
did in a cradle-to-grave economy. We must move in a cradle-to-
cradle loop and be willing to share those loops and get those 
into other economies and get them beyond that paradigm much 
more quickly.
    Mr. Gordon. Thank you.
    Thank you, Mr. Chairman.
    Mr. Gingrey. Thank you, Mr. Gordon.
    And I will now recognize the physicist from Michigan, my 
good friend, Dr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman. It is--I am a 
physicist only because I had a few explosions in chemistry lab. 
No, not really. But I have to say, when I was a student, the 
only green chemistry I saw was the molds growing on some 
leftover samples that I neglected to get rid of.
    I am very delighted with what is happening with green 
chemistry. And I guess--it seems to me the question here is how 
can we accelerate the change. What are the factors here?
    And let me focus in on just one. I was very surprised to 
hear from Dr. Woodhouse the--not only that there is very little 
green chemistry taught, but that there seems to be opposition 
on the part of chemistry faculties to teaching green chemistry. 
Perhaps I shouldn't be surprised. That bears out an adage that 
I always used to say to--or a saying that I propagated to my 
colleagues when I was a teacher, and that is that professors 
and teachers are, in a sense, bi-polar: they are the world's 
most liberal people about other people's affairs and most 
conservative about their own affairs. And so they are quite 
willing to change the world, but not willing to change their 
department or their courses. The--and then I spent my life 
trying to fight that tendency within myself, and didn't always 
succeed, so I am not being supercritical. But a question for 
each of you, other than Dr. Woodhouse, and that is what do you 
see as the status of green chemistry education in the U.S. 
today? Are chemistry students graduating with green chemistry 
skills and knowledge or not?
    And specifically for Dr. Cue and Mr. Bradfield, do your 
companies typically have to train scientists in green chemistry 
when you hire them, or are you finding students on the market 
who do have green chemistry skills?
    And the final question is: does having green chemistry 
skills improve their marketability in the job place today?
    So we will just go down the line. We will go right to left 
this time. Mr. Bradfield.
    Mr. Bradfield. What we find is we hire a tremendous number 
of scientifically-based professionals: a lot of engineers, both 
chemical and mechanical, textile engineers, and so forth. We 
find that they come to us with a certain bias toward doing it 
the old way. There is definitely some retraining that has to go 
on in trying to change the way they think about some of the 
things that we are trying to achieve. I do believe that it is 
very hard to break down those barriers, but when you get them 
young and get them trained and indoctrinated into some of the 
things we want to do, and we find that they respond very 
quickly.
    The biggest single hurdle, and the reason for my existence 
within the--our organization is simply because I am the guy 
that says, ``We will not take no for an answer.'' I am the guy 
who does not believe that it can not be done. When there are--
seems to be so much scientific certainty, this says that it can 
not be done. And so it takes change agents. It takes problem-
solvers. It takes people who believe that there is a way, if 
you only look hard enough. And what we have found is many of 
those same chemists and engineers, in the end, become believers 
once you show them that there are, indeed, ways to move 
forward.
    Mr. Ehlers. The irony is that I have always felt that 
scientists, intrinsically, should be change agents just because 
that is the nature of science. And it is shocking if students 
don't see themselves that way.
    Dr. Cue.
    Dr. Cue. There is a saying that is very popular at Pfizer 
right now, and that is that ``culture eats strategy for 
breakfast every day of the week.'' And green chemistry is 
really a strategy so far, and I think what it needs to be is a 
cultural change. So I believe it is absolutely true that most 
chemists, trained in academics, don't get enough exposure to 
green chemistry, nor do they really understand the difference 
between green chemistry and traditional chemistry.
    There are some very good schools in the United States that 
train chemists in green chemistry, and the programs on 
toxicology and environmental chemistry are increasing, but the 
pace has to increase, and the number of these schools has to 
increase. And I think industry has to be more active in going 
out and looking for students from these schools, as opposed to 
the tried and true schools, like Harvard, Yale, MIT in the 
Northeast, for example, the University of Michigan, other 
schools like that.
    I think the other issue that we confront is that most of 
the research happens--begins at the lab stage, and a laboratory 
chemist, by and large, just doesn't appreciate, when they are 
handling very small quantities of material, what the impact of 
that looks like when we scale it up to commercial quantities. 
So there is kind of a view of, ``Well, it is only a lab. How 
much can I--it is only a few hundred milliliters. It is only a 
pint of water. I am not generating that much waste.'' So I 
think we need to do a better job of educating the people in the 
laboratory, be it an industrial lab, be it an academic lab, be 
it a government lab. That lab-scale chemistry does count. And 
if it is successful, somebody is going to be using it in the 
commercial scale someday.
    We have found that we have had to create programs of our 
own to train our scientists in green chemistry, because we are 
not having them show up on day one. We are starting to see now 
a flow of chemists trained in green chemistry, so I predict 
that will change. After all, green chemistry has only been 
around for a decade, and with any kind of a program, it takes 
about 10 years to start to get the yield in the investment.
    We are also working very hard--diligently with schools in 
our area--in our R&D site areas to bring students in to let 
them understand what industrial chemistry looks like and how 
green chemistry can positively impact that, so when they go 
back to the universities, they can teach the faculties--tell 
the faculties, ``Yes, industry is serious about this. They are 
anxious to see green chemistry practiced. And we better get 
about the job of teaching it in academia.''
    Mr. Ehlers. Dr. Gilman.
    Dr. Gilman. One of the reasons we--one of the first steps 
we took in trying to reshape our focus on sustainability was to 
introduce the P3 Award, largely for engineering schools, but 
that includes chemical engineering as well, was to begin to 
raise the level of awareness and interest. And I am very 
hopeful that next month we will be able to announce to you a 
collaborative effort we are doing to provide information on 
those schools, those graduate schools, that provide a focus in 
their curriculum on the sciences and technology associated with 
sustainability. So provide for interested students and really 
bring to the attention of the university administrators that 
there is an interest, and just rack up for folks, on a side-by-
side basis, what curricula and what universities hold for 
people interested in this direction.
    Mr. Ehlers. I am glad to hear that.
    Dr. Gingrey. Dr. Ehlers, if we could, and I thank you, I 
think a vote has been called, and I did want to have time to 
recognize your colleague from Michigan and the Subcommittee 
Chairman of Research, Mr. Nick Smith.
    Mr. Smith. Thank you very much.
    It seems to me that too often we sort of romance about the 
environmental benefits of regulations and other environmentally 
benign practices without regard to their impact on business and 
the economy. And so that is part of my question. That approach 
is short-sighted, especially in today's globally competitive 
environment, where even the most minor misguided regulation or 
requirement can put us at an enormous competitive disadvantage. 
And so that balance and that knowledge, and therefore, that 
adequate research is so important, and I think maybe part of--
how much a role can government play? How much a role does good 
information play in stimulating the kind of green chemistry 
advances that can end up, like you suggested, Mr. Bradfield, in 
terms of making us more competitive, rather than less 
competitive? And so that would be on my--one of my questions.
    And just to make a note of my second question, which is do 
we need better coordination between the four agencies that we 
are talking about to make sure that we are not overlapping, 
that we are not reinventing the wheel, and that we are working 
together in terms of the tax-dollar effort that government is 
playing. And I will stop there for a couple quick answers.
    Dr. Bement.
    Dr. Bement. Yes. And thank you, Mr. Smith. First of all, in 
answer to your first question, it is absolutely essential that 
we have a strong scientific basis for any regulations that we 
put out in this area. And if I can use my split personality, I 
see that as a role not only for the National Science 
Foundation, but also for the National Institute for Standards 
and Technology. NIST is very actively involved in developing 
the science base, and also the standards to support green 
chemistry in several dimensions.
    With regard to your second question, of course there needs 
to be close interagency cooperation, and we need to build on 
the cooperation that currently exists.
    Mr. Smith. Any other comments? Mr. Bradfield.
    Mr. Bradfield. Yes. Just two quick comments. We see a 
tremendous need for interagency coordination; even within the 
same agency sometimes, you can have conflicting rules that 
affect industry, one giving an incentive for green chemistry, 
the other, perhaps, giving you a disincentive for creating new 
materials.
    The other thing I would say here is as a manager at Shaw 
and Vice-President, I am constantly green chemistry and 
sustainability. I have to sell up. I have to sell down. I have 
to sell out. And in order for--to do that, I need all of the 
help I can get, and if the Federal Government would interest my 
most senior management with tax credits that they know are 
going to push them a little bit more in that direction, they 
would be more inclined to be accepting of these projects where 
they are putting dollars at risk, then I can get more done.
    Mr. Smith. Thank you.
    Dr. Woodhouse. I would like to pick up on your point about 
global competition and cut it the other way. It seems to me 
there is a danger of the U.S. losing out to the E.U. and other 
arenas. BASF and B.P., for example, have taken strategic 
choices to phase out chlorinated hydrocarbons, because they are 
worried about the long-term effect on their industry. Whether 
they phase them out over a decade, a generation, or a century, 
they haven't said, so we don't really know what is going on 
there.
    But conversely, some of the U.S. companies are actually 
moving into markets that the Europeans are vacating. That is 
worrisome to me. I hate to see the U.S. lag rather than lead. 
And I--just from a purely commercial point of view, given the 
long lead time that is involved with major chemical facilities, 
if U.S. companies are not taking an aggressive stance towards 
green chemistry, and if the world continues to move, as I 
predict it will, towards the phase-out of the toxic chemicals, 
we are going to be caught behind. So that is the----
    Mr. Smith. So the bottom line--I mean, for lack of a better 
word, you--there is a golden mean on both ways----
    Dr. Woodhouse. Absolutely.
    Mr. Smith.--that we need to work at, and hopefully it is 
going to be the green chemistry that is going to add for--add 
to our ability to be competitive in the most environmentally 
positive way.
    Thank you, Mr. Chairman.
    Mr. Gingrey. We--thank you, Mr. Smith.
    We are rapidly running out of time, and I wanted to ask a 
quick question before we wrap up the hearing. And I am going to 
direct this mainly to Dr. Bement and Dr. Gilman. And actually, 
this is a two-part question. Do you think that the Nation might 
benefit from a more strategically focused, green chemistry R&D 
program? And are there adequate mechanisms by which agencies 
currently interact to determine strategies and priorities in 
green chemistry? Just quickly, Dr. Bement and Dr. Gilman.
    Dr. Bement. I think that the program that we have is 
balanced in that it balances individual investigator grants 
with center grants. And the important thing about the center 
grants is that they also integrate public outreach, K through 
12 outreach, and also curriculum development. So the program 
addresses a lot of the issues that have been raised during this 
hearing.
    I think those programs have a natural growth potential 
right now. There is a lot of growing interest in these areas. 
All of these programs are growing, and they are distributed 
around the country, but obviously, it is something that needs 
to be nourished, nurtured, and continued to be encouraged.
    Mr. Gingrey. And Dr. Gilman.
    Dr. Gilman. Our current extramural programs are well 
coordinated, I think, between the National Science Foundation 
and the EPA. To give it a more strategic focus, you probably 
need to bring to bear more agencies, and you probably need to 
bring to bear intramural work as well. EPA has both an 
intramural and an extramural research program. We have quite an 
extensive intramural program in pollution prevention and green 
chemistry. The effort is ongoing. As I said, we have a history 
of collaboration between agencies, especially on the extramural 
side. There are some efforts in the Office of Science & 
Technology Policy (OSTP) right now to try and make that a 
broader collaboration between agencies, Department of Energy, 
Department of Transportation, and the like. So we could do 
better at our coordination. We are trying to do better. And the 
levels of interaction are quite good, especially on the 
extramural side right now.
    Mr. Gingrey. Thank you, Dr. Gilman.
    And with that, we will wrap up this hearing. I want to 
thank all of the participants, each member of the panel, Dr. 
Bement, Dr. Gilman, Dr. Cue, Mr. Bradfield, Dr. Woodhouse, for 
your testimony. Unfortunately, we have to rush to make a quick 
vote, as my colleagues have already left, but I do thank you 
for your testimony, and of course, I really appreciate the 
unanimous support of H.R. 3970.
    And with that, we will declare this hearing closed.
    Thank you all very much.
    [Whereupon, at 11:30 a.m., the Committee was adjourned.]
                               Appendix:

                              ----------                              


                   Additional Material for the Record



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Statement by Arden Bement on the National Institute of Standards and 
                Technology's Green Chemistry Activities

 NIST's Measurements and Standards Are Key Enablers for Green Chemistry

    NIST provides the measurements and standards that are essential 
for--development of green products and processes; industries to 
accurately assess their compliance with regulations; government 
agencies to ensure that environmental regulations are tenable and 
supportable by science based measurements.
    NIST works directly with industry, government agencies and 
consensus standards organizations to facilitate the development of 
scientific measurement methods and standards that enable manufacturers 
test new products unequivocally for regulatory requirements. NIST is 
involved in advancing new technology development--in areas of energy 
such as fuel cells, in methods to minimize chemical waste and 
computational tools for assessing chemical efficiency of processes and 
life-cycle of products.

Examples of Impact of NIST's Research in Green Chemistry:

        <bullet>  Green Solvents Processing: NIST is making key 
        property measurements and creating a web-accessible database on 
        the properties of ``green'' solvents. Properties include 
        measures of chemical stability, solubility, etc. for potential 
        replacement candidates for environmentally hazardous 
        chlorinated solvents; edible oils as alternative solvents for 
        agricultural product preprocessing and stabilization; and 
        studying ionic liquids as a class of solvents with good 
        potential for ``green processing.''

        <bullet>  Lead-Free Solder for Semiconductors: The 
        microelectronics industry estimates that the transition to 
        lead-free solders in semiconductors is at least an order of 
        magnitude more difficult than the elimination of 
        chloroflurocarbons (CFCs). NIST research on materials and 
        standards allowed for much faster implementation of processes 
        leading to new lead-free products. Since the U.S. is 
        transitioning to the relatively expensive but non-toxic lead-
        free solder, it is in the U.S.'s interest to promote lead-free 
        solder standards internationally.

        <bullet>  Fuel Cells Development: NIST is developing a test 
        protocol for residential fuel-cell systems, covering issues of 
        efficiency, performance, and compatibility with the power grid 
        for interconnection. The NIST Center for Neutron Research, the 
        Nation's premier experimental neutron facility, utilizes 
        neutron beams to image electrochemical processes inside fuel 
        cells attracting the attention of major hydrogen fuel cell 
        manufacturers.

        <bullet>  Green Buildings Design: NIST developed the BEES 
        (Building for Environmental and Economic Sustainability) 
        software, designed to explicitly help the construction industry 
        select ``green'' building products that are cost-effective over 
        their life-cycle. BEES measures environmental/health 
        performance across all stages in the life of a product.

        <bullet>  Alternative Refrigerants: NIST enabled the transition 
        from ozone-depleting CFCs to alternate refrigerants by 
        providing a database of refrigeration properties of potential 
        candidates. The database has been applied to problems of mixed 
        refrigerant gases, and the mixtures of substances found in 
        natural gas. It can potentially be extended for mixtures more 
        typically found in fuel cell systems, and in hydrogen pipeline 
        systems, especially converted natural gas pipelines. An 
        economic assessment of this database (to provide U.S. industry 
        with materials properties data, which enabled refrigerant and 
        equipment manufacturers to comply with international agreements 
        to phase out use of ozone-depleting chloroflurocarbons) 
        indicated a benefit-cost ratio of 97 to 1.*

        <bullet>  Standard Reference Materials for Sulphur in Fossil 
        Fuel: NIST produces a variety of well characterized materials 
        known as Standard Reference Materials (SRM). The Sulphur SRMs 
        are used to accurately determine the amount of unwanted Sulphur 
        in fossil fuels. This is an area where large economic benefits 
        can be expected from highly accurate measurements. An economic 
        analysis of this program (to provide standard reference 
        materials for measurement methods and validation, quality 
        control, and instrument calibration needed by U.S. fossil fuel 
        industries to reduce sulfur dioxide emissions) indicated a 
        benefit-cost ratio of 113 to 1.*

        <bullet>  Regulated Materials Data Exchange Standards: NIST is 
        coordinating the revision of the Interconnecting and Packaging 
        Electronic Circuits (IPC) Product Data eXchange (PDX) standards 
        to include required materials declaration information. These 
        standards are used for thousands of transactions monthly, and 
        the revision under development will carry information such as 
        the percent content of regulated materials, such as lead, 
        mercury, cadmium, and hexavalent chromium.

    * http://www.nist.gov/director/planning/strategicplanning.htm

                   Additional Testimony in Support of

    H.R. 3970, GREEN CHEMISTRY RESEARCH AND DEVELOPMENT ACT OF 2004

                       Dr. J. Michael Fitzpatrick
                 President and Chief Operating Officer
                         Rohm and Haas Company

    Chairman Boehlert, Ranking Member Gordon, and Members of the 
Committee--thank you for inviting me to provide comments about the 
proposed Green Chemistry Research and Development Act of 2004. This 
legislation is a tremendous step forward in encouraging and advancing 
the continued discovery of green and sustainable technologies. Although 
a conflict prevented me from testifying in person at the hearing on 
March 17, my company feels strongly about this subject, and I plan to 
visit as many Committee Members as I can before the markup period 
closes to further discuss the benefits of this legislation.
    I am the President and Chief Operating Officer of Rohm and Haas 
Company, one of the world's largest manufacturers of specialty 
chemicals. For nearly 100 years, our company has been in the business 
of discovering, developing, and manufacturing innovative materials that 
find their way into a wide range of major markets. Yet, most consumers 
have never heard of us because nearly everything we invent is used by 
other industries to make their products better, faster, stronger, and 
in many cases, more environmentally friendly. With perhaps the 
exception of Plexiglas, which Rohm and Haas invented in the 1930s, and 
the Morton Salt brand, which we acquired in 1999, our products have 
gone largely unnoticed by the general public. Still, Rohm and Haas 
technology touches our lives in one way or another every day.
    We are the world's largest manufacturer of acrylic monomer, and we 
pioneered the use of waterborne acrylic polymers in all kinds of 
coatings, from house and road-marking paints to water-based varnishes 
and paper coatings. We're a leader in developing environmentally 
friendly powder coatings that can replace alternatives based on solvent 
technology, and we offer a line of advanced, water-based automotive 
coatings designed especially for interior and exterior plastic parts in 
automobiles--a technology that gives car designers the ability to use 
more high performance plastics in their designs, thus lowering vehicle 
weight and increasing fuel efficiency. Recently, we introduced a new 
line of waterborne acrylic emulsion polymers that can replace 
formaldehyde in household insulation.
    Our process chemicals can be found in a wide range of applications, 
from unique ion exchange resins that purify everything from water to 
new classes of pharmaceuticals, to biocides that control the growth of 
harmful bacteria in personal care products.
    Our research and development in electronic materials is world 
class, with a broad set of products used by top semiconductor 
manufacturers worldwide. Our photoresist chemicals are used to 
replicate minute circuitry patterns on silicon wafers, and our 
planarization technology polishes these wafers to a mirror finish, a 
critical step in smaller and more powerful semiconductors. Our 
``embedded'' circuit board technology places resistors and capacitors 
within a circuit board instead of on top of it, enabling smaller and 
smaller cell phones, PDAs, and other portable electronic devices.
    Many of Rohm and Haas's water-based adhesives continue to find use 
in hundreds of applications, from caulks and sealants, to construction 
adhesives and laminates. Our new cold seal technology is used in food 
packaging, where traditional heat sealing would be undesirable.
    Our company employs more than 17,000 people and recorded over $6.4 
billion in sales last year. We operate more than 100 research and 
manufacturing facilities in 25 countries. Our headquarters is located 
on historic Independence Mall in Philadelphia, Pennsylvania, just a few 
blocks away from our original offices established in 1909 by founders 
Otto Rohm and Otto Haas. And while we have changed, adapted, and of 
course grown since those early years, we retain a strong and 
unambiguous thread to the values that our founders imparted on the 
organization: concern for our employees, the neighbors where we 
operate, and our customers. We strive to ensure Rohm and Haas 
operations and products meet the needs of the present global community 
without compromising the needs of future generations. At Rohm and Haas, 
we work hard to integrate economic growth, environmental protection, 
and social responsibility as important considerations in our business 
decisions.
    I joined Rohm and Haas in 1975 as a senior scientist following my 
two years as a National Institutes of Health postdoctoral fellow at 
Harvard University. My first five years were spent in the laboratory, 
developing new agricultural products at our company's main research 
campus in Spring House, Pennsylvania, about 20 miles outside of 
Philadelphia. Although my career took a turn toward marketing and 
business following that initial assignment, I have always had a passion 
for the creativity, the excitement and the spirit of innovation. To 
take an idea, research it, and develop it into a product from basic 
chemical building blocks--a product with unique and sometimes amazing 
properties--and to see that product improve life, or enhance the 
broader society in some way, is the joy of every industrial chemist.
    I returned to my technology roots in 1993 as Director of Research 
for Rohm and Haas. Although I never made it back into the lab, I 
nonetheless retain a strong relationship to the technology and research 
side of our industry. I understand the daily challenges facing 
researchers: the demands for greater research efficiency, the 
requirements that an innovation meet multiple safety, efficacy, risk, 
and environmental expectations, and that it's marketable at a fair 
price with sustainable returns.
    It is because of my unique career history and my passion for this 
subject that I feel especially honored to comment on the benefits of 
the Green Chemistry Research and Development Act of 2004. In fact, I 
have been an active and vocal advocate for green and sustainable 
chemistry for nearly 20 years. I am a board member of the Green 
Chemistry Institute, and have authored and presented numerous papers 
and presentations on green and sustainable chemistry in a variety of 
publications and venues around the world. I am proud to work for a 
company that has been recognized for its research and development of 
environmentally friendly, game changing technologies, some of which 
have completely altered the landscape in certain markets.
    Since the early 1990s, Rohm and Haas has been recognized for its 
``green'' technology by the World Environment Center, the U.S. 
Environmental Protection Agency (EPA), and the U.S. Department of 
Energy (DOE), to name a few. We were the first company to be honored 
with two Presidential Green Chemistry Challenge Awards, the first for a 
novel pesticide that mimics a hormone in a particularly destructive 
caterpillar, causing it to stop feeding, and eventually starving to 
death. Best of all, the pesticide has no ill effects on other 
beneficial insects. We were recognized again for our family of Sea-
Nine antifouling biocides, which replaced other products containing 
tri-butyl tin. Sea-Nine safely keeps barnacles and other sea creatures 
from attaching themselves to ship hulls. A smooth hull means less drag, 
which translates into huge fuel savings over thousands of nautical 
miles.
    Rohm and Haas was practicing green chemistry before anyone thought 
to label such an endeavor when, in the 1950s, we were the first company 
to introduce water-based acrylic polymers used as binders in house 
paint. Alkyds and other solvent-based paints--with their high VOC 
emissions and difficulty to apply and clean-up--were the predominant 
paint technology at the time. Despite a slow beginning and initial 
resistance, our researchers remained committed to bringing not only an 
environmentally friendly alternative to the paint industry, but an 
alternative that actually performed significantly better than the 
solvent and oil-based technologies. Our perseverance paid off and 
helped spark the birth of modern acrylic latex paints. Today, 85 
percent of paints, stains, and primers purchased by home owners (the 
Do-It-Yourself market) use waterborne technology.
    Although this technology recently celebrated its 50th anniversary, 
we continue to build and improve upon our acrylic platform. We expect 
to soon begin work on new low VOC coatings using sustainable 
chemistries, exciting research I'll describe in more detail shortly.
    During the past 15 years, Rohm and Haas Company has joined, has 
been a signatory to, or has reaffirmed its support of numerous 
voluntary programs, including: EPA's 33/50 emissions reduction program, 
the International Chamber of Commerce charter on Sustainable 
Development, the Pew Center on Global Climate Change Business 
Environmental Leadership Council, the Executive Council of the World 
Business Council for Sustainable Development, the U.S. Department of 
Energy's Industries of the Future Allied Partner program, and the U.S. 
Council on Sustainable Development. We have held various symposiums for 
our employees, including a two-day ``Innovating for Sustainability'' 
conference for company researchers. This event presented some of the 
latest green innovations from a broad spectrum of experts, including 
Wolfgang Holderich and Malcolm Willis, widely recognized as the authors 
of green chemistry.
    Our company's commitment to green and sustainable chemistry begins 
with its leadership. In 2002, our Board of Directors renamed the 
Corporate Responsibility and Environment, Health, and Safety Committee 
to the Committee on Sustainable Development, and adopted a new charter 
for its work. This move has helped us further integrate the principles 
of green chemistry throughout our company.

Collaboration is Key

    During the last several years, environmental, social, and economic 
forces have transformed green and sustainable chemistry from merely a 
secondary consideration into a core objective of nearly every 
responsible company in nearly every industry. Today, before a new 
chemical compound is synthesized or a new product is designed, chemists 
and engineers step back to look holistically at the short- and long-
range impact of their innovations. They question the type of raw 
materials used. They assess whether safer alternatives are available. 
They investigate novel manufacturing methods, and look for ways to 
reduce or eliminate dangerous byproducts. They consider inherent risks 
of the new product--risks to workers, communities, and end users--and 
how they can be mitigated or completely avoided.
    Although you will find these activities underway daily in Rohm and 
Haas labs and production plants around the world--and in the labs and 
plants of other responsible companies--it is by no means easy. 
Significant resources are required to develop, analyze, and test 
alternative raw materials or brand new chemistries. This can lead to 
the study of thousands of different compounds and formulations. When a 
promising material is identified, a fresh round of analysis begins to 
ensure it meets strict environmental, risk, economic, and performance 
expectations. To do this successfully, I believe industrial research 
initiatives must turn to broad collaboration with multiple external 
partners.
    Innovations that incorporate green chemistry will emerge and 
develop far more quickly when industry works together with government, 
academia, and even non-governmental organizations (NGOs, such as 
environmental or consumer groups) to address common goals. In recent 
years, we have seen many tremendous examples of two or more of these 
groups joining forces to develop commercially successful green step-out 
innovations. The collaboration has paid off handsomely for my industry, 
for the industries we serve, and certainly for society as a whole. Let 
me offer a few examples.
    The automotive industry may be one of the most visible stories 
today that illustrates my point. Within the last three to five years, 
we have witnessed dramatic changes in new sources of fuels and 
alternative propulsion methods--many still under development, but some 
commercialized and in use today. As governments around the world raise 
fuel economy standards in an attempt to curb greenhouse gasses, some of 
the largest automobile companies are rolling out cars that can achieve 
two or three times the fuel efficiency versus cars operating with 
traditional internal combustion engines. Today, so-called hybrid 
vehicles appear to be catching on with automakers and consumers alike. 
While these ultra efficient automobiles have gained momentum--to a 
certain degree from pressure from NGOs and governments--industry has 
clearly benefited from multiple government funding sources that have 
encouraged step-out scientific research on cleaner burning, more 
efficient modes of transportation.
    Today, Toyota and Honda are selling tens of thousands of these 
hybrids, which use a large battery recharged by a smaller-than-normal 
gas engine and by collecting energy when the brakes are applied. The 
electric motor assists the vehicle during heavy acceleration or at very 
slow speeds, depending on the technology. By mid-decade, Japanese 
automakers plan to sell hundreds of thousands of hybrid cars. American 
car manufacturers are a step or two behind their Japanese counterparts, 
but are also working on this technology.
    Many believe this represents the beginning of large scale changes 
in the automotive industry, the first significant change since a 
gasoline-powered Oldsmobile gained popularity in 1903, making steam-
powered vehicles obsolete. And for the chemical industry, this change 
represents both opportunities and challenges. Fundamental shifts in 
automotive technologies spell changes for our product offerings. New 
advanced control and electronic systems, lighter and stronger 
materials, and new paint and coating technologies that adhere to and 
protect composite parts, are just a few of the opportunities where 
advanced green chemistry can play a role. At Rohm and Haas, in 
collaboration with our JV partner, Nippon Paint, we continue to develop 
advanced, environmentally friendly waterborne coatings that protect 
plastic auto parts. These coatings are critically important as plastic 
parts become thinner and lighter.
    We are aggressively working on a new generation of automotive 
coatings that use our dry powder technology, virtually eliminating all 
volatile organic compounds. This illustrates how opportunities can be 
uncovered at the interface of seemingly unrelated entities: in this 
example, we have ever increasing laws calling for more efficient 
automobiles, we have manufacturers meeting their efficiency goals by 
using lighter, stronger plastic in cars, and we have our water-based 
coating technology that eliminates harmful solvents and provides 
superior protection to plastic parts.
    Another challenge for the automotive industry is to ensure that 
chemistries meet recyclability guidelines, since many regulations 
today, particularly throughout Europe, require automobile components to 
be recycled or reusable. In a wonderful example of collaboration, The 
Dow Chemical Company and Mitsui Chemicals met this challenge head-on 
when they agreed to jointly develop a new block copolymer featuring 
properties of two resins that will make stronger car bumpers. Not only 
will these high-strength bumpers require less resin to manufacture, but 
if this new product takes the place of traditional metal parts, it will 
help reduce a car's overall weight, which of course translates into 
better fuel economy. Best yet, this new resin can be recycled as an 
adhesive to hold other plastic parts together.
    As I am sure Members of this committee are well aware, hybrid 
vehicles are just the first step in a giant leap toward even more 
impressive green and sustainable technology. Fuel cells that use 
hydrogen and oxygen to create electric power have received widespread 
attention in the media, and for good reason. Generating only heat and 
water as its byproduct, this technology is seen by governments around 
world (including our own), by NGOs, and by many others as a potential 
number-one breakthrough in transportation power. Companies, 
universities, and private laboratories are working on fuel cell 
technology, and through grants and incentive programs, governments are 
collaborating with industry to see this technology come to fruition. I 
understand that General Motors has 600 researchers working on fuel cell 
technology in the U.S. and Germany, and has worked with Germany's top 
safety institute, TUV, to ensure their system meets strict European 
standards. This is another example where industry and government or 
quasi-government agencies, working together, are bringing sustainable 
technology from the lab bench to the consumer.
    Closer to the chemical industry, one doesn't have to look very far 
to find examples of where we can work closely with the government on 
green and sustainable technologies. The DOE launched a program to help 
fund companies conducting biomass research and development for the 
production of sustainable products. At Rohm and Haas, we were pleased 
when the DOE enacted its Allied Partner program, which offers not only 
funding opportunities for new technologies, but also access to DOE 
research and data.
    Success stories are not limited to collaboration between government 
and industry. There are tremendous examples of industry, government, 
and academic groups pooling their collective know-how to deliver 
stellar technology with a promising future. A consortium of Deere & 
Company, Diversa, duPont, Michigan State University, and the National 
Renewable Energy Laboratory received nearly $20 million from the DOE to 
develop a ``bio refinery'' that produces ethanol and other chemicals 
derived from corn.
    There are many more example of broad collaboration outside the 
United States. Italy's National inter-university consortium of 
chemistry for the environment in Venice launched an annual recognition 
program for contributions to clean chemical processes. In Melbourne, 
the Royal Australian Chemical Institute has held its Green Chemistry 
Challenge Award since 1999. And in the United Kingdom, the Royal 
Society of Chemistry in London launched the Green Chemistry Network. 
Headquartered at the University of York, the 600-member network helps 
chemical companies and scientists share best practices, promotes the 
sharing of green technologies, and offers data supporting the cost 
benefits of green science.
    In another notable example of green chemistry collaboration in 
England, chemistry professors looking for the right connections with 
industry can turn to the Crystal Faraday Partnership, a virtual green 
chemistry center. Jointly developed by the Royal Society of Chemistry, 
the Chemical Industries Association in London, and the Institution of 
Chemical Engineers, this group is a collaborative conduit, linking the 
creative spirit and technical expertise of pure researchers with the 
financial support and manufacturing resources of a corporation. In one 
example I often cite, the Nottingham University chemistry department 
developed a series of unique supercritical fluid reactions, and through 
the Crystal Faraday Partnership, collaborated with fine chemicals firm 
Thomas Swan to use these reactions in a variety of processes. The new 
technology replaces conventional solvents with inert supercritical 
fluids in key processes, leading to reduced or eliminated wastes and 
undesirable byproducts.
    Would Thomas Swan use this new technology today if the 
collaborative community established by the Royal Society of Chemistry 
did not exist? Perhaps. But there is no denying that the Crystal 
Faraday Partnership and similar organizations that support and 
encourage cooperation--often across disparate groups--is a crucial tool 
and proven commodity that helps speed the pace of green innovation at 
companies around the world.
    Before moving on, let me touch on another group--the non 
governmental organizations, or NGOs--that has collaborated with 
industry to develop green chemistry.
    Admittedly, the image of these two very different entities holding 
hands and working toward a common goal is not one to which we're 
accustomed. Suffice it so say that industry and many environmental and 
consumer groups have not in the past seen eye to eye. Nevertheless, 
that is beginning to change--slowly, cautiously--but progress can be 
seen if you look hard enough.
    Nineteen eighty-seven was the year some say we first saw a glimpse 
of cooperation between industry and environmental groups, at least as 
it relates to sustainability. That's the year the United Nations 
published its report, ``Our Common Future,'' in which the most 
frequently quoted definition of sustainable development is still cited 
today. It reads:

         ``Development that meets the needs of the present without 
        compromising the ability of future generations to meet their 
        own needs.''

    This statement marked the recognition by environmental groups that 
economic growth and development were necessary to meet the needs of the 
world's expanding population. It also signaled the philosophical 
acceptance by industry that growth must be accomplished in a way that 
meets the needs of today's society AND preserves natural resources and 
the environment for future generations.
    Examples of close working relationships between companies and 
environmental groups are hard to come by, to be certain. But when these 
groups join forces, the results can be impressive. For example, in the 
late 1990s, the World Wildlife Fund and Unilever joined forces to start 
the Marine Stewardship Council. Now an independent non-profit 
organization, this council offered one of the first ``eco-labels'' to 
identify fish certified to come from an environmentally sustainable 
catch. This was a perfect match for Unilever, considering that its 
Bestfoods division manufactures fish sticks and other frozen seafood 
products.
    There are literally hundreds of opportunities for chemical 
companies to accelerate our pace toward Green and Sustainable Chemistry 
through powerful collaboration and partnerships. Is it easy? No. . .it 
takes work, extra effort, and relationship building. And let's be 
honest--companies that develop new and successful technologies may be 
inclined to use it as competitive advantage rather than share it with 
competitors. That's a risk/benefit balance that responsible companies 
must weigh at some point. One thing is certain, however: The speed in 
which today's market demands new chemistries, better processes, and 
greener products is accelerating. Bringing green chemistry out of the 
labs and into the marketplace faster will require the kind of 
collaboration I have just described. And it will require funding and 
support.

``The Green Chemistry Research and Development Act of 2004'' Will Help 
                    Accelerate Pace of Green and Sustainable Innovation

    Many of the examples I described included one form or another of 
government or quasi-government agency support, either through funding, 
access to National Labs' data, or assistance in knowledge transfer. The 
role of collaborative support in green and sustainable chemistry 
research cannot be understated.
    As I am sure Committee Members are well aware, the $460 billion 
chemical industry, a key element to our nation's economy that accounts 
for 10 cents out of every dollar in U.S. exports, is coping with an 
unprecedented energy crisis. Volatile, runaway natural gas prices have 
steadily eroded our ability to compete in an industry that continues to 
see an influx of very competent, competitive chemical manufactures from 
Europe, Asia, and the Middle East. Current natural gas prices have 
turned U.S. chemical manufactures into the world's high cost producer. 
This in turn has had a profound impact on our profitability, and 
subsequently, our capacity to raise (or even maintain) expensive R&D 
budgets.
    Although chemical companies invest more in research and development 
than any other business sector, there are disturbing signs that this 
trend is slipping. In a recent survey conducted by Chemical and 
Engineering News, a respected industry publication, only seven out of 
17 companies surveyed expected to increase their R&D spending in 2004. 
Six plan no increases, while four plan cutbacks in their R&D budget. 
According to the survey, 2004 R&D as a percent of sales--a widely used 
barometer to indicate a company's relative commitment to research, will 
fall to an estimated decade low of 3.2 percent. This is considerably 
below the decade high of five percent in 1994 and two tenths of a 
percent less compared to last year's average.
    The upshot? External funding for green chemistry--no matter the 
size and the source--cannot come at a better time for an industry that 
is grappling with historically high energy and raw material prices, 
squeezed margins, and fierce competition from companies outside of our 
boarders.
    At Rohm and Haas, we recognized the need to bolster our 
collaborative skills and external funding capabilities about two years 
ago. We conducted a day-long workshop with our top research leaders to 
teach them about the skill, and the art, of finding external 
collaborative partners. Emerging from that seminar was the creation of 
our Technology Partnerships group, which assists our scientists with 
matching their projects with potential external funding opportunities. 
This effort has yielded promising results.
    One example is the work I mentioned earlier about new low VOC 
coatings using sustainable chemistries. Last year, Rohm and Haas 
submitted a proposal for a DOE cooperative grant to research and 
develop new polymer technologies that can remove as much as 30 percent 
of raw materials from the polymer particles in an acrylic emulsion, a 
key ingredient in paint. Working together with Archer Daniels Midland 
(ADM), the University of Minnesota, and the DOE, Rohm and Haas plans to 
match its novel binders with new, renewable plant-based coalescing 
agents from ADM to deliver breakthrough coatings that offer outstanding 
performance, environmental friendliness, and cost efficiency. When 
fully deployed, this new technology is expected to save up to 86 
trillion BTUs per year. We hope to hear good news about our proposal 
soon from the DOE!
    This is precisely the type of collaboration that can accelerate 
critical green chemistry research, and illustrates why the Green 
Chemistry Research and Development Act of 2004 is such an important 
bill. In addition to funding support, which more and more chemical 
companies, including my own, are seeking to supplement tightening R&D 
budgets, this Act encourages technology transfer between key 
stakeholders. Collaboration between industry, government, academia, and 
even NGOs, is a promising trend in research that has proven its worth, 
and is poised to increase in the coming years. This bill will encourage 
and accelerate that movement.
    While the bill's research funding component may be, understandably, 
the most visible and sought after benefit, other activities included in 
the proposed legislation are equally important. The Federal 
Government's encouragement of green chemistry research--using 
incentives and other levers--and its power to promote the adoption and 
commercial application of green chemistry innovations, can exert great 
influence on the direction of these endeavors. This is especially 
important, since recent history has shown us that consumers are not 
going to pay more simply because a product is labeled ``green,'' or was 
developed using green chemistry processes.
    Although ``green'' by itself typically is not a compelling selling 
point, more consumers today are taking a second look when green 
products demonstrate real (or sometimes perceived) value. Chances of 
successfully marketing these products increase dramatically when we can 
demonstrate increased performance, long-term energy savings, or other 
tangible benefits for the consumer.
    For example, U.S. commercial and residential housing are 
responsible for more than 36 percent of our country's energy 
consumption, and yet, the success of green marketing in that industry 
has varied widely. On the commercial side, marketing super efficient 
office buildings has been met with limited success beyond baseline 
standards set by the EPA's Energy Star program. The return on premium 
costs associated with high efficiency commercial construction cannot be 
realized unless property developers and owners hold their buildings 
long enough to reap utility savings. And since turnover in commercial 
property ownership is commonplace, green marketing in this segment is 
not particularly successful.
    On the other hand, the story is much more positive in residential 
housing, where encouragement from NGOs and the prospects of lower 
energy bills (the ``real value'' I mentioned earlier) have resurrected 
interest in ``green'' homes. Spurred by consumers' interest in smaller 
monthly utility bills, U.S. builders are marketing environmental 
friendly features that were unheard of in homes five or 10 years ago. 
Porous driveways that allow rainwater to settle back into the ground 
and tankless hot water heaters, common throughout many parts of Europe 
and Japan but fairly new in the U.S., can save up to 50 percent in 
energy bills. Energy efficient ``low E'' double pane windows, heating 
systems approaching 90 percent or better efficiency, and appliances 
that use 50 percent less energy versus those in the 1970s are now 
widely available. Hard wood flooring continues to loose market share to 
carpeting and laminates from recycled materials, a shift that has 
reduced our reliance on diminishing lumber supplies.
    Although some of these examples are not related to green chemistry 
per se, they do illustrate that green products can attract consumers' 
attention as long as the products offer value with a clear payoff. 
Encouragement from this proposed legislation to adopt and use products 
that are developed from green chemistry is a positive step in marketing 
the virtues of green technology.
    The bill's provision to ``promote the education and training of 
undergraduate and graduate students in green chemistry science and 
engineering,'' is another welcome component. As chemical companies 
ramp-up their green and sustainable chemistry research, the need for 
new technical talent who can hit the ground running with the right 
chemistry skills and proper mindset attuned to green technology is a 
winning combination. There are many companies, including my own, who 
have established special labs that focus on next generation sustainable 
technologies. At Rohm and Haas, our Green Chemistry Laboratory uses the 
12 Principles of Green Chemistry as a framework to focus on green 
opportunities without taking our eyes off of market realities. As these 
types of labs increase in number and size, chemists and engineering 
graduates with unique green chemistry skills will be in high demand.
    Finally, I do not want to short change provisions of the bill that 
call for the collection and dissemination of information on green 
chemistry research, and the development of outreach venues that support 
knowledge transfer. It is difficult to quantify, but I can tell you 
from first hand experience that the tools supporting best practice 
sharing--conferences, symposiums, electronic forums and databases, 
written materials--are critically important to the advancement of green 
and sustainable chemistry. Bringing great minds together, no matter the 
method, is a force multiplier for diverse thought and new solutions to 
old problems.
    On behalf of Rohm and Haas Company, I strongly support the Green 
Chemistry Research and Development Act of 2004. This legislation 
provides funding that is crucial, more so today than in recent times, 
to accelerate green research and development endeavors. Provisions that 
develop future chemistry and engineering talent, and foster 
collaboration and the transfer of best practices, are important 
catalysts that will advance new technologies based on sound, 
responsible science and the principles of green and sustainable 
chemistry.
   Statement in support of H.R. 3970 by Dr. J. Michael Fitzpatrick, 
      President and Chief Operating Officer, Rohm and Haas Company
    On behalf of the Rohm and Haas Company, I want to offer our support 
for the proposed Green Chemistry Research and Development Act of 2004.
    Within the last decade, environmental, social, and economic forces 
have transformed green and sustainable chemistry from merely a 
secondary consideration into a core objective of nearly every 
responsible company in nearly every industry. Today, before a new 
chemical compound is synthesized or a new product is designed, chemists 
and engineers step back to look holistically at the short- and long-
range impact of their innovations. They question the type of raw 
materials used, and whether safer alternatives are available. They 
investigate novel manufacturing methods, and look for ways to reduce or 
eliminate dangerous byproducts. They consider inherent risks of the new 
product--risks to workers, communities, and end users--and how they can 
be minimized or completely avoided.
    Although you will find these activities underway daily in Rohm and 
Haas labs and production plants around the world--and in the labs and 
plants of other responsible companies--it is by no means easy. 
Significant resources are required to develop and test alternatives or 
brand new chemistries, and to ensure they meet strict environmental, 
risk, economic, and performance expectations. To do this successfully, 
we believe broad collaboration is not only prudent, but necessary.
    Innovations that incorporate green chemistry will emerge and 
develop far more quickly when government, industry, academia, and even 
non-governmental organizations (environmental or consumer groups) work 
together to address common goals. In the last few years, we have seen 
many tremendous examples of two or more of these groups joining forces 
to develop commercially successful ``green'' step-out innovations. But 
much more can be done.
    With U.S. chemical companies facing record breaking energy and raw 
material prices, one cannot understate the importance of differentiated 
technology based on the principles of green chemistry. Rohm and Haas 
Company believes the proposed Green Chemistry Research and Development 
Act of 2004, and its associated funding, will provide strong support 
and encouragement for additional collaboration, knowledge transfer, and 
crucial research on a new class of green and sustainable technologies.

About Rohm and Haas Company

    About Rohm and Haas: Rohm and Haas is a worldwide producer of 
specialty chemicals with more than 100 plants and research facilities 
in 26 countries. Rohm and Haas technology is found in paint and 
coatings, adhesives and sealants, construction materials, personal 
computers and electronic components, household cleaning products and 
thousands of everyday products. Additional information about Rohm and 
Haas can be found at www.rohmhaas.com.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

              Statement by the American Chemistry Council

AMERICAN CHEMISTRY COUNCIL SUPPORTS COORDINATED FEDERAL GREEN CHEMISTRY 
                              R&D PROGRAM

    The American Chemistry Council (ACC) supports the establishment of 
an interagency research and development program to coordinate federal 
green chemistry R&D, such as efforts outlined in the Green Chemistry 
Research and Development Act of 2004. A coordinated approach would 
increase efficiency and help identify appropriate goals for a federal 
green chemistry R&D program.
    Green chemistry looks at the life cycle of chemical products--
benefits, sustainability, potential risks and other attributes--to help 
develop products that bring value to society while reducing 
environmental impact.
    Chemical makers fully recognize the benefits of R&D. In fact, the 
business of chemistry spends more on R&D than any other private sector. 
Chemical makers share a common interest with the Federal Government in 
conducting research that leads to the development of alternatives or 
new chemistries, while meeting strict environmental, risk, economic and 
performance expectations.
    While R&D often is an inviting target for budget reductions in the 
private and public sectors, the Federal Government should focus on 
making R&D programs more productive. Despite the difficult economic 
conditions in the industry and efforts by many companies to reduce 
spending, chemical makers have become more efficient users of R&D 
dollars by reducing bureaucracy, thereby retaining researchers at the 
bench who generate the new concepts and ideas that ultimately enrich 
the future for all Americans and the world.

    http://www.accnewsmedia.com

    The American Chemistry Council (ACC) represents the leading 
companies engaged in the business of chemistry. ACC members apply the 
science of chemistry to make innovative products and services that make 
people's lives better, healthier and safer. ACC is committed to 
improved environmental, health and safety performance through 
Responsible Care, common sense advocacy designed to address major 
public policy issues, and health and environmental research and product 
testing. The business of chemistry is a $460 billion enterprise and a 
key element of the Nation's economy. It is the Nation's largest 
exporter, accounting for ten cents out of every dollar in U.S. exports. 
Chemistry companies invest more in research and development than any 
other business sector. Safety and security have always been primary 
concerns of ACC members, and they have intensified their efforts, 
working closely with government agencies to improve security and to 
defend against any threat to the Nation's critical infrastructure.

</pre></body></html>
